<html>
<title> - STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 2020</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]








   STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 
                                  2020
_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SIXTEENTH CONGRESS

                              FIRST SESSION

                               __________


                SUBCOMMITTEE ON STATE, FOREIGN OPERATIONS,
                          AND RELATED PROGRAMS

                   NITA M. LOWEY, New York, Chairwoman

  BARBARA LEE, California	      HAROLD ROGERS, Kentucky
  GRACE MENG, New York		      JEFF FORTENBERRY, Nebraska
  DAVID E. PRICE, North Carolina      MARTHA ROBY, Alabama
  LOIS FRANKEL, Florida
  NORMA J. TORRES, California
 
 NOTE: Under committee rules, Mrs. Lowey, as chairwoman of the full 
committee, and Ms. Granger, as ranking minority member of the full 
committee, are authorized to sit as members of all subcommittees.

     Steve Marchese, Craig Higgins, Erin Kolodjeski, Dean Koulouris,
       Jean Kwon, Marin Stein, Jason Wheelock, and Clelia Alvarado
                            Subcommittee Staff

                               __________

                                  PART 4

                TESTIMONY OF MEMBERS OF CONGRESS AND OTHER
                 INTERESTED INDIVIDUALS AND ORGANIZATIONS


		                                                         
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               __________

          Printed for the use of the Committee on Appropriations


















   STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 
                                  2020

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SIXTEENTH CONGRESS

                              FIRST SESSION

                               __________

                SUBCOMMITTEE ON STATE, FOREIGN OPERATIONS,
                          AND RELATED PROGRAMS

                   NITA M. LOWEY, New York, Chairwoman

  BARBARA LEE, California
  GRACE MENG, New York			    HAROLD ROGERS, Kentucky
  DAVID E. PRICE, North Carolina	    JEFF FORTENBERRY, Nebraska
  LOIS FRANKEL, Florida			    MARTHA ROBY, Alabama
  NORMA J. TORRES, California		 

 
   NOTE: Under committee rules, Mrs. Lowey, as chairwoman of the full 
committee, and Ms. Granger, as ranking minority member of the full 
committee, are authorized to sit as members of all subcommittees.

     Steve Marchese, Craig Higgins, Erin Kolodjeski, Dean Koulouris,
       Jean Kwon, Marin Stein, Jason Wheelock, and Clelia Alvarado
                            Subcommittee Staff

                               __________

                                  PART 4

                TESTIMONY OF MEMBERS OF CONGRESS AND OTHER
                 INTERESTED INDIVIDUALS AND ORGANIZATIONS

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


          Printed for the use of the Committee on Appropriations

                    U.S. GOVERNMENT PUBLISHING OFFICE

  39-683

                             WASHINGTON: 2020











                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
                  NITA M. LOWEY, New York, Chairwoman


  MARCY KAPTUR, Ohio			       KAY GRANGER, Texas
  PETER J. VISCLOSKY, Indiana		       HAROLD ROGERS, Kentucky
  JOSE E. SERRANO, New York		       ROBERT B. ADERHOLT, Alabama
  ROSA L. DeLAURO, Connecticut		       MICHAEL K. SIMPSON, Idaho
  DAVID E. PRICE, North Carolina	       JOHN R. CARTER, Texas
  LUCILLE ROYBAL-ALLARD, California	       KEN CALVERT, California
  SANFORD D. BISHOP, Jr., Georgia	       TOM COLE, Oklahoma
  BARBARA LEE, California		       MARIO DIAZ-BALART, Florida
  BETTY McCOLLUM, Minnesota		       TOM GRAVES, Georgia
  TIM RYAN, Ohio			       STEVE WOMACK, Arkansas
  C. A. DUTCH RUPPERSBERGER, Maryland	       JEFF FORTENBERRY, Nebraska
  DEBBIE WASSERMAN SCHULTZ, Florida	       CHUCK FLEISCHMANN, Tennessee
  HENRY CUELLAR, Texas			       JAIME HERRERA BEUTLER, Washington
  CHELLIE PINGREE, Maine		       DAVID P. JOYCE, Ohio
  MIKE QUIGLEY, Illinois		       ANDY HARRIS, Maryland
  DEREK KILMER, Washington		       MARTHA ROBY, Alabama
  MATT CARTWRIGHT, Pennsylvania		       MARK E. AMODEI, Nevada
  GRACE MENG, New York			       CHRIS STEWART, Utah
  MARK POCAN, Wisconsin			       STEVEN M. PALAZZO, Mississippi
  KATHERINE M. CLARK, Massachusetts	       DAN NEWHOUSE, Washington
  PETE AGUILAR, California		       JOHN R. MOOLENAAR, Michigan
  LOIS FRANKEL, Florida			       JOHN H. RUTHERFORD, Florida
  CHERI BUSTOS, Illinois		       WILL HURD, Texas
  BONNIE WATSON COLEMAN, New Jersey
  BRENDA L. LAWRENCE, Michigan
  NORMA J. TORRES, California
  CHARLIE CRIST, Florida
  ANN KIRKPATRICK, Arizona
  ED CASE, Hawaii

                  Shalanda Young, Clerk and Staff Director

                                   (ii)

 
STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 2020

                              ----------                              

                                          Wednesday, March 6, 2019.

                              MEMBERS' DAY

                 Opening Statement of Chairwoman Lowey

    The Chairwoman. Good morning. The Subcommittee on State, 
Foreign Operations and Related Programs will come to order. I 
welcome our distinguished colleagues. It is a pleasure to have 
you join us for our second hearing of the year.
    Even though we are still waiting for the president's Fiscal 
Year 2020 request, we have already started our appropriations 
season, and your voices are integral to the process. The 
democracy, development, diplomacy, humanitarian, and security 
assistance programs funded in this bill are critical to 
maintaining U.S. global leadership, protecting our national 
security and promoting economic growth.
    Yet, since coming to office, the president has proposed 
cutting these programs by more than 30 percent each year. 
Fortunately, Congress responded with a resounding and 
bipartisan rejection of the administration's proposals. It is 
my expectation that we will see a similarly damaging request 
again this year.
    That is why I appreciate each of you making time to testify 
and draw attention to these critical programs, the very 
programs that protect our national security and uphold our 
foreign policy priorities.
    I thank you again for coming, and I look forward to hearing 
from my distinguished colleagues about your priorities in the 
State and Foreign Operations bill. At this point, I would like 
to turn to my Ranking Member Mr. Rogers for any comments he may 
have.
    Mr. Rogers. Thank you Madam Chairwoman. Is it chairwoman or 
chairman?
    The Chairwoman. Chair.
    Mr. Rogers. Chair.
    The Chairwoman. You can call me whatever you want.

                    Opening Statement of Mr. Rogers

    Mr. Rogers. Thank you for those opening remarks. We are 
glad to have several Members and colleagues with us today to 
tell us their priorities.
    This hearing comes at a very important time, ahead of what 
we expect will be another significant cut to the international 
affairs budget by the President despite being rejected for 2 
straight years.
    There are a lot of important programs in this bill that 
together make up the soft power of U.S. national security. I am 
pleased we get to hear about several of them today from 
colleagues like yourself and others. We look forward to your 
testimony and I yield back.
    The Chairwoman. Representative Espaillat of the 13th 
District of New York, a member of the Foreign Affairs 
Committee, I want to thank you for joining us today. We are 
happy to place your full testimony into the record. Please 
proceed as you choose.
                              ----------                              

                                          Wednesday, March 6, 2019.

                                WITNESS

HON. ADRIANO ESPAILLAT, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW YORK

                   Opening Statement of Mr. Espaillat

    Mr. Espaillat. Thank you, Madam Chair and Ranking Member 
Rogers for allowing me to testify during today's hearing to lay 
out what I feel are my priorities as they relate to the State 
Department and related agencies.
    As you know, I am the first Dominican-American elected to 
serve in the U.S. Congress, and I am also a member obviously of 
the Foreign Affairs Committee and the Western Hemisphere 
Subcommittee. I know that maintaining our foreign aid and 
diplomatic commitments builds a strong hand for the U.S. in the 
Caribbean and all over the world, and the Caribbean, as you may 
know, is our third border and it has its own very challenging 
goals, objectives, challenges that we should help them with.
    This is not only in the interest of helping our brothers 
and sisters in Central and South America and the Caribbean but 
is also in our best interest to protect our security and 
improve our economic relations with these countries.
    I would like to begin by talking to you about Venezuela, 
which as you know has been in the news lately. It is imperative 
that the U.S. support the right of the Venezuelan people to 
freely and fairly elect their leaders, and that we support work 
to end the humanitarian suffering in the country.
    Rampant inflation, lack of access to food and medicine, and 
the collapse of the social services there have led to abhorrent 
conditions in this particular country, causing more than 3 
million Venezuelans from leaving the country to neighboring 
countries and countries around the world. While it is of vital 
interest for the U.S. to provide necessary support to the 
Venezuelan people, we must not fall into the failed practices 
of the past of overstepping our grounds, our bounds in the 
region. The U.S. cannot again be a foreign power meddling in 
the affairs of another country. We cannot continue to think 
that we are the policemen of the world.
    To this end, I urge the committee to continue funding 
programs that are a vital support to the Venezuelan people. 
However, I urge the committee to include report language that 
funding be of a humanitarian nature and explicitly not intended 
for the use of military or state police efforts.
    I would also like to discuss our efforts to combat crime 
and illicit trafficking in the Caribbean. But before I do that, 
let me just say that I am in support of the Venezuelan people 
and their efforts to have transparent, democratic elections and 
their ability to have the sovereignty to elect their own 
leaders. And I find that I am in support of their plight given 
the horrific conditions that they find themselves in that have 
been pushed by the Maduro regime.
    I would also like to assess and I would also like to talk 
about crime and illicit trafficking in the Caribbean. As I said 
earlier, Madam Chair, the Caribbean is the third border of our 
nation The Caribbean is particularly susceptible to drug trade 
as a midway point for narcotics produced in South America on 
their way to the U.S. The Caribbean Basin Security Initiative 
(CBSI) has been instrumental in providing the funding needed to 
combat crime and violence.
    Because of our efforts in Central America, and I may dare 
to say that many of our efforts have been successful in 
combating crime in that area and we have seen even a reduction 
of crime in that area, the drug trade seems to be shifting more 
and more towards the Caribbean. And for that reason I am 
speaking about this particular problem as the drugs begin to 
shift in the Caribbean and get to U.S. shores.
    Per the Congressional Research Service, CRS, crime and 
violence are on the rise in the Caribbean. CRS reports that 
homicide rates in the Caribbean countries have increased in 
recent years because of gangs and organized crime, competition 
between drug trafficking organizations, and the availability of 
firearms. A recent report from the Government Accountability 
Office indicates program-by-program successes within the CBSI, 
but also a need for improved data collection.
    In accordance with this report, I plan to introduce 
legislation to both develop better data reporting mechanisms 
and to authorize increased funds to expand this crucial 
initiative. We know how last year the president proposed 
dramatic cuts in this particular area.
    Well, I am asking for this funding for the Caribbean Basin 
Security Initiative to be doubled this year, and I will be 
submitting legislation so that we can accomplish that. I urge 
this committee again to double the funding for the Caribbean 
Basin Security Initiative for Fiscal year 2019, and I will 
continue to work with you, Madam Chair, to ensure that we do 
the best work that we can to ensure that the third border of 
our country, the United States of America, is protected and 
that we reap the benefits of our efforts.
    I thank you for hearing my concerns and priorities, and I 
have submitted additional testimony in writing to the 
committee, which I hope you would also take into consideration. 
Thank you so much.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairwoman. I thank you for appearing before us and 
certainly emphasizing a very, very key priority. They are our 
neighbors, and our response is so important.
    Mr. Rogers, do you have any questions?
    Mr. Rogers. Thank you, Chair. Venezuela, you urge that we 
include funding of a humanitarian nature.
    Mr. Espaillat. Yes.
    Mr. Rogers. You know, we have that type of aid stacked at 
the border, and they won't let it in. How do you propose that 
we overcome this obstacle? Because if we provide more funding 
and more humanitarian aid, and it can't get in, why do it?
    Mr. Espaillat. I recognize that that is tragic and that a 
lot of the funding that is going to help the Venezuelan people 
is being stopped at some of their border points.
    My proposal is that we work with the international 
community and organizations such as the United Nations and the 
Organization of American States, the OAS, as well as with not-
for-profits and organizations that have had a long tradition of 
providing humanitarian aid across the world to ensure that the 
partisan, political sort of like aspect of this is pushed 
aside, and we get the help to the Venezuelan people as quickly 
as possible.
    I think the goal--I am sure you agree with me--is to ensure 
that people of Venezuela get that humanitarian aid as quickly 
as possible. And so by working with other international 
organization bodies and other governments that may themselves 
be getting that humanitarian aid in, I think that we can 
accomplish that goal.
    Mr. Rogers. Central America and South America are in 
turmoil. I don't recollect the time when we have seen more bad 
things going on all the way from Venezuela, even the drug 
increase from Colombia.
    Mr. Espaillat. Yes.
    Mr. Rogers. Then the Central American Northern Triangle, El 
Salvador, Guatemala, Honduras, furnishing tons of refugees as 
well as drugs, criminals, and the like. What are we doing wrong 
in Central and South America?
    Mr. Espaillat. I think that we have turned our heads and 
our backs on that region for far too long, and they are really 
our backyard, and we should have an ongoing positive working 
relationship.
    We have abdicated our leadership role in that region and 
created a vacuum of leadership, and for that reason we have 
seen now recently how countries even like China have stepped in 
to plug that leadership gap that we have left unattended for 
far too long. I think that we need to go back into the region 
and play a leadership role.
    But you cannot do that empty-handed. You have to be able to 
come to the table with resources, and saying that we need to be 
a leader in the region and then saying we are going to cut the 
budget by half is not the way to go.
    We must establish our leadership again, but we must do it 
by assisting those nations to address some of the fundamental 
reasons why there is a large exodus of families for the most 
part. I have been down at the border and seen firsthand, at 
least at the detention centers where I went, that at least 80 
percent of the people there crossing the border were women with 
small children.
    And so we have to find out why it is that women are fleeing 
these nations. Is it gang violence? Is it gangs that are trying 
to recruit their young sons? Is it natural disasters as has 
happened in some countries? Is it abject poverty and famine? 
And then we have to address the root causes of these problems 
so that we can nip or impact positively the migration patterns 
of the region.
    But we cannot do that by coming empty-handed. We need to, 
again, reassert ourselves as the leader of the Americas and do 
so by assisting governments to provide good services and 
programs that will reduce the migration.
    Mr. Rogers. Thank you. Thank you very much.
    Mr. Espaillat. Thank you so much, ranking member.
    The Chairwoman. Thank you. I just want to say we have 
provided almost $3.5 billion over four years for Honduras, El 
Salvador--and Guatemala.
    Mr. Espaillat. That is correct.
    The Chairwoman. And it seems to me, having worked with Vice 
President Biden a few years ago on a program in the same area, 
we really have to focus hard and just understand where the 
money is going, why it isn't used more effectively.
    Mr. Espaillat. That is correct.
    The Chairwoman. The whole strategy of keeping people home, 
this Biden program?
    Mr. Rogers. It is the Northern Triangle Program.
    The Chairwoman. The Northern----
    Mr. Espaillat. The Northern Triangle.
    The Chairwoman. Triangle Program, I remember a group of us 
worked closely with him on it. And we just can't give up.
    Mr. Espaillat. I agree, Madam Chair.
    The Chairwoman. We need to keep working on it.
    Mr. Espaillat. I agree. And just keep in mind that as we 
begin to pay more attention to the border and Central and South 
America, drug dealers will shift their strategy to other 
borders, and I testified today that we predict that that will 
be the Caribbean, which has some inherent weaknesses in the 
region that would allow for drug dealers to transport their 
drugs and then send them to the United States.
    And, of course, we have seen dramatic repercussions in 
those countries: high homicide rates now and violence in urban 
settings in the cities of those countries. And we must shift 
our attentions to that part of the region, and that is why I am 
proposing a doubling of the Caribbean Basin Security Initiative 
program.
    The Chairwoman. I want to thank you, and I look forward to 
your continued wisdom and advice, We can't afford to fail. And 
I thank you very much for bringing this once more front and 
center to our attention, thank you.
    Mr. Espaillat. Thank you, Madam Chair, and I just hope to 
be just like you one day when I grow up.
    The Chairwoman. Oh, my goodness.
    Mr. Espaillat. Thank you.
    The Chairwoman. Thank you. I hope I can continue be as wise 
as you are with as much knowledge.
    Mr. Espaillat. Thank you.
    The Chairwoman. Thank you. Mr. Engel.
    Mr. Engel. Mrs. Lowey, you have been holding out on me. I 
didn't know you had such wonderful digs here.
    The Chairwoman. Oh my goodness.
    Mr. Engel. I feel very jealous.
    The Chairwoman. Oh no, no. Well actually, these digs go 
back and forth. My good friend, Mr. Rogers, had it, and we have 
been hanging out here for a while.
    Mr. Engel. This view is just magnificent.
    The Chairwoman. It is. Come more often.
    Mr. Engel. Yes, I will. I got to hide from the press you 
know.
    The Chairwoman. Let me just say I am delighted to welcome 
Representative Engel of the 16th District of New York; our 
districts keep changing. He is a dear friend, he is a neighbor, 
and he is the chairman of the Foreign Affairs Committee. And we 
really thank you for testifying before this subcommittee and, 
of course, proceed as you will. We are happy to include your 
whole testimony into the record.
    Mr. Engel. Thank you----
    The Chairwoman. Thank you, Mr. Engel.
                              ----------                              

                                          Wednesday, March 6, 2019.

                                WITNESS

HON. ELIOT ENGEL, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    YORK

                     Opening Statement of Mr. Engel

    Mr. Engel. Thank you very much Madam Chair and Ranking 
Member Rogers, members of the subcommittee and I am very happy 
to thank members of the subcommittee.
    I am glad to be back in front of this distinguished panel 
to reiterate a key point which is one of the most important 
things we can do to advance America's security, interests, and 
values around the world, is to provide robust funding for our 
international affairs budget.
    This is an area which Congress can and should assert its 
role as a coequal branch of government and regrettably, there 
is a lot about the Trump administration's foreign policy that 
Congress cannot do a lot about, it is painful. We just came 
back from Munich and also Brussels to talk to our allies, and I 
can't begin to tell you how confused our allies are.
    They are used to America leading and they are not used to 
America denigrating our alliances which have been the core of 
our policy certainly since World War II. And we pointed out to 
our friends that there were probably about 50 members of 
Congress in Munich, and that is a large percent of the 
Congress, and that we all feel strongly about the fact that we 
need to stay in our alliances, lead in our alliances, and do 
the kinds of things that people expect America to do.
    So it is frankly very painful when the president denigrates 
our allies and cozies up to dictators. We should not walk away 
from international obligations and abandon the values that 
should be the core of our policy. I believe it weakens us, it 
has isolated us, and it has made Americans less safe.
    So in my view, one of the most problematic aspects of the 
president's foreign policy is the way it has shelved American 
diplomacy. Senior State Department officials have been chased 
to the exits, morale in the State Department, I can tell you, 
has plummeted, and expertise has gone ignored.
    And with the first two budget requests, the administration 
showed us that they still don't get it. They won't understand 
the value of diplomacy and development. They don't understand 
that America needs these foreign policy tools to diffuse crises 
and stop wars before they start, that by prioritizing these 
efforts, we avoid sending our men and women in uniform into 
harm's way somewhere down the line.
    What was particularly galling to me was the first proposal 
came out of the administration when the administration was new, 
cutting the State Department 31 percent, at the same time 
putting increases in defense. I don't oppose certain increases 
in defense but not at the expense of diplomacy. And why would 
we want to have a 31 percent cut if the State Department 
diplomacy helps keep us out of wars? And it has just been that 
kind of attitude.
    Thankfully, we beat back the 31 percent, Democrats and 
Republicans came together to beat it back, and we had most of 
the money restored, and then the following year when the 
administration had to propose a new budget, they went right 
back to the old 31 percent decrease, which to me is a slap in 
the face to Congress and what we are supposed to do.
    And so I keep hearing that the morale is terrible, that the 
expert people that have been around for so many years are 
leaving in droves, that the people feel they are being targeted 
because of ethnic or political pressures. And it is just a very 
bad thing when you have so many ambassadors not even in place, 
when you have so many people in high positions not even in 
place, and when you have people perceive that they are being 
targeted for the way they look or for their political 
persuasion. That is not the way it should happen.
    So one of the things we can do together as Republicans and 
Democrats in Congress is to turn back attempts by the 
administration to hollow out American diplomacy and 
development. And as I mentioned, we have done so twice before 
in a bipartisan manner, excuse me. And I imagine the 
administration's budget that will come to us next week will 
call for similar Draconian cuts we saw in the previous 2 years 
that I mentioned.
    Excuse me. My request to this committee is that we carry on 
this strong bipartisan tradition of making sure our foreign 
affairs agencies and personnel have the support and investments 
they need to carry out their critical work. Our constitutional 
power of the purse is a critical way we can effectively reverse 
the unwise course the administration seeks for American 
diplomacy.
    My commitment as chairman of the Foreign Affairs Committee 
is I will work with colleagues on both sides of the aisle to 
bolster the State Department and USAID and will use our 
oversight authority to make sure Congress' will is being 
followed.
    Last year, President Trump started to pull back huge sums 
of State Department and USAID's funding and to redirect funding 
from the State Department to the Department of Homeland 
Security. That is a slap in the face to the constitutional 
authority of this committee and this Congress and we should not 
stand for it.
    I wanted to make sure the investments this committee makes 
in our foreign policy are being put to use to make our country 
stronger and safer, and I want to make sure we take whatever 
legislative steps necessary to make our State Department, USAID 
and other foreign affairs agencies modern, efficient, and 
effective.
    That is why one of my top priorities is to pass the State 
Department Authorization Act. The last time Congress sent such 
a bill to the president's desk was way back in 2002. We owe 
more to the men and women working on the frontlines of 
diplomacy and development. We need to have their backs, 
especially when the administration lets them down.
    So I look forward to working hand-in-hand with my 
Appropriations Committee colleagues to promote American 
leadership around the world with a strong, well-resourced, 
bipartisan foreign policy. Thank you and I yield back.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairwoman. Thank you very much to my good friend and 
classmate. I find it encouraging frankly that 50 people went to 
the Munich Security Conference.
    In fact, I think it was maybe 5 years ago, the great 
Senator John McCain asked me to go with him, and there were 
five of us that went to the conference. I know how important it 
is and effective, and I am sure your voice and your ideas were 
well received. So I thank you for your leadership, and all the 
good work you are doing.
    Mr. Engel. Thank you. I want to just say that we pointed 
out that 50, which is one-tenth of the Congress, was over in 
Munich.
    The Chairwoman. Were they all actively involved?
    Mr. Engel. Yes.
    The Chairwoman. With speaking roles, et cetera?
    Mr. Engel. Well, even just in questioning roles. I mean, a 
lot of it wasn't speaking, but there were panels that people 
listened to that were very well attended, and it was very, very 
good.
    The Chairwoman. I found it to be----
    Mr. Engel. It was the largest showing ever.
    The Chairwoman. Yes. I found it to be extraordinary. So 
from 5 of us to 50 is impressive, that number one, there is all 
this strong interest in foreign affairs. So I thank you for 
representing us. Mr. Rogers.
    Mr. Rogers. Mr. Chairman, thank you for coming by with your 
newfound gavel. Congratulations, by the way.
    Mr. Engel. Thank you.
    Mr. Rogers. Congress has the responsibility to pass an 
authorization bill. As you say in your testimony, we have not 
had such an animal since 2002. And much of the work has been 
done by this subcommittee because of that fact. We don't want 
to do that. We want the Authorization Committee to address the 
difficulties that you have outlined in your remarks.
    And we will play second fiddle. But we are tired of playing 
lead fiddle. We are not equipped for it. We don't have the 
staff nor the coverage. So please, take these issues up and 
pass out of your committee an authorization bill. And we will 
be the first ones to vote for it.
    Mr. Engel. I thank you. I couldn't agree with you more. It 
has been a source of frustration for me ever since I got to 
Congress as the chairwoman has pointed out. She and I came to 
Congress together, so we have been here a long time.
    And it has been a long time that we haven't done this. And 
there is no reason for it. There is no responsible reason for 
it. So, I thank you and look forward to working with you and 
the Chairwoman.
    Mr. Rogers. Thank you. Talley ho.
    Mr. Engel. Thank you.
    The Chairwoman. And with your excellent leadership, I am 
cautiously optimistic you will pass an authorization act this 
year. So thank you very much. I really look forward to 
continuing our work together. I know we have so many of the 
same priorities, and you have been an outstanding chair. For me 
it is a pleasure being your partner.
    Mr. Engel. Well, it is. And I think we have always, in the 
30 years had districts that were abutting and joining each 
other, and I think that you have probably represented at least 
half the people in my district, and I probably represented at 
least half the people in your district from time to time.
    The Chairwoman. Right.
    Mr. Engel. So it has----
    The Chairwoman. Right.
    Mr. Engel. It has certainly been a pleasure working with 
you and the outstanding job you are doing as chair and ranking 
member who was chair for so many years as well. To watch this 
is the way we wish Congress would work all the time. So I thank 
you both.
    The Chairwoman. Thank you very much. We look forward to 
continuing to share our information and working together.
    Mr. Engel. Thank you, Madam Chair.
    The Chairwoman. Thank you. And now I am delighted to 
welcome Representative McGovern of the second district of 
Massachusetts, the chairman of the Rules Committee. It is great 
to see you. I am happy----
    Mr. McGovern. It is great to be here, and it is great to 
hear Eliot say we are going to pass a State Department 
authorization bill. That is going to be so much fun in rules. I 
will hold my breath. Yes. [Laughter]
    Mr. Engel. I am here to have fun. [Laughter]
    The Chairwoman. We are very pleased that you are chair of 
the committee who sets the rules, and for me it has been a 
pleasure knowing you, working with you ever since your kids 
were----
    Mr. McGovern. Yes.
    The Chairwoman [continuing]. It is quite amazing. We have 
been here a few years so thank you for appearing before us. We 
are happy to place your testimony in the record. Proceed as you 
will.
                              ----------                              

                                          Wednesday, March 6, 2019.

                                WITNESS

HON. JAMES MCGOVERN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MASSACHUSETTS

                   Opening Statement of Mr. McGovern

    Mr. McGovern. Well, thank you, Chairwoman Lowey and Ranking 
Member Rogers. Thank you for welcoming me here, and thank you 
for all the incredible work that you do on the Appropriations 
Committee. You have my great admiration.
    And let me also begin by thanking you for the Fiscal Year 
2019 increase for the Nutrition sub-account within the Global 
Health Programs account. The $20 million increase to $145 
million after four years of flat funding is very welcome.
    This increased funding in nutrition enables USAID to target 
nutrition interventions during pregnancy in the early critical 
stages of childhood where better nutrition has the greatest 
impact on the child's development and brain growth.
    For Fiscal Year 2020, I respectfully ask the committee to 
increase funding again for the nutrition sub-account to $195 
million, including an additional $20 million for interventions 
to address maternal and pediatric anemia and $30 million to 
expand breastfeeding initiatives.
    I have worked a lot on hunger, food, security and nutrition 
issues domestically and internationally. And with regard to our 
international programs, I think that they are not only the 
right thing to do morally, but they enhance our security. 
People are grateful for our support in these areas.
    And I want to now turn to Colombia if I can. There is a 
great deal of talk about drugs and the crisis in Venezuela. But 
I ask the committee to please maintain its focus on Colombia 
proper, especially support for fully implementing the peace 
accords that ended 60 years of armed conflict.
    The accords hold great promise for economic growth, 
stability, and social progress, but currently they are in 
danger of being undermined or abandoned. And this would be bad 
for Colombia. And this would be bad for U.S. national security.
    So I respectfully ask the committee to maintain or increase 
funding for Colombia. Emphasis should remain on implementation 
of the peace accords, Afro-Colombian, indigenous and rural 
community-based development, and aid that promotes human 
rights, good governance, strong and independent judicial 
institutions and breaking the culture of impunity that protects 
state, military, and criminal actors from investigation and 
prosecution.
    In particular, the three mechanisms created by the peace 
accords that focused the right of victims require greater 
funding and support, namely the Truth Commission, the search 
for the disappeared, and the Special Jurisdiction for Peace.
    Madam Chair, I am deeply concerned about the fate of the 
peace accords and human rights in Colombia. Right now the 
Colombian Congress is debating President Duque's four-year 
national development plan.
    As written, the NDP is likely to undo many agreements 
reached on rural and agrarian development in the accords. If 
approved, it might well doom Colombia to ever-escalating 
violence in rural areas where the conflict has always been the 
most intense, sustained, and brutal, ensuring that these 
regions remain ungoverned spaces at the mercy of violent 
criminal actors.
    The NDP also includes provisions to unravel progress made 
in labor rights, creating substandard wages and benefits for 
workers, especially in the agricultural sector. So these 
standards, by the way, are even lower than those in place when 
the U.S.-Colombia Free Trade Agreement was signed, which I 
might add, is a violation of the terms of the FTA itself, not 
to mention Colombia's obligations under the labor action plan.
    So, I think it is important that the committee signal 
emphatically that such actions place in legal jeopardy all 
forms of U.S. aid and trade. It is also critical that the 
committee act on the continuing escalation of murders and 
assaults against human rights defenders and local social 
leaders.
    As you know, I also co-chair the Tom Lantos Human Rights 
Commission in Colombia, and currently Colombia is the deadliest 
place in the world for rights defenders. At least one social 
leader has been murdered every 2 days on average since the 
peace agreement was signed at the end of 2016.
    Over 60 social leaders have been assassinated since 
President Duque assumed office. I know President Duque was up 
here and met with a lot of members of Congress. I attended one 
of those meetings. He talks the talk, but we need to make sure 
he walks the walk.
    And while his government points to action plans and high-
level strategy meetings on the crisis, it has been very, very, 
very slow to act. And clearly, whatever plans they have 
devised, they are not working.
    So there is an urgent need for protection and to identify 
and hold to account those who carry out and benefit from these 
acts of violence. The committee must ensure that there are 
consequences for such a stunning lack of urgency on the part of 
the Colombian state to protect and defend human rights and 
social leaders.
    And so I urge the committee to take a hardline with the 
State Department on what determines effective steps to reduce 
attacks against human rights defenders and the conditions tied 
to 20 percent of the MF funds for Colombia.
    And while I would have liked to talk about several issues 
related to Central America, I will instead submit them as 
expanded testimony for the record. And let me just say that it 
is important to recognize that each country is unique with its 
own set of challenges, many of which contribute to high levels 
of violence, deprivation, and lack of hope and the future that 
drive thousands to flee their homes and seek security 
elsewhere, including here in the United States.
    And no wall and no barrier and no new restrictions in our 
asylum laws will prevent families from fleeing until the root 
causes in each country are addressed, including corruption and 
impunity.
    And this requires long-term commitment and investments on 
our part, so please let me thank you once again for giving this 
opportunity to talk about these priorities. And I certainly 
welcome any questions that you might have.
    [The information follows:]

                               __________
    
    The Chairwoman. I just want to thank you for your 
thoughtful testimony. For those of us who have been to Colombia 
several times and worked with the several leaderships that have 
been there, this is the most difficult time to deal with 
because certainly we all thought there was progress. We were 
moving in place.
    You recount to us the tremendous challenges that remain, 
and I personally would like to work more closely with you to 
see what we can do. Every time you think you have made 
progress, we hit a period like this where the crime is 
extraordinary.
    Mr. McGovern. You know and I appreciate that. Colombia can 
be a model for the rest of the world on how you end violent 
conflicts.
    The Chairwoman. And we thought it was right after that.
    Mr. McGovern. Yes. Right. And that is why we need to make 
sure these peace accords are implemented. And I understand all 
the attention on Venezuela, but we can't let that take away 
from the fact that there are things in Colombia that are 
failing right now.
    I want Colombia to succeed. And I think we need to put 
pressure on this new government in the area of making sure that 
they adhere to the peace accords.
    The Chairwoman. Thank you very much, and I look forward to 
working with you.
    Mr. Rogers.
    Mr. Rogers. Thank you, Jim, for being here today and giving 
important testimony. I want Colombia to do what they have said 
they want to do for years. Through one leader after another, we 
hear the same promises and the same predictions, all to no 
avail. Part of the problem now is the overflow of refugees from 
Venezuela.
    Mr. McGovern. Right.
    Mr. Rogers. Along with others. But the enduring problem for 
us, from our interest as a country, is the drug production, 
which has been forever the treasure trove of coca and the 
addiction of some 47,500 people who have overdosed.
    It is a horrendous problem that gets scant attention. And 
it has its basis in Colombia. And we provided funds, 
leadership, training, personnel, you name it. And I have been 
there as well and been in the fields and cut some stuff down 
myself.
    My district and my state have been ground zero for overdose 
exposure. And so I have a personal interest in seeing that we 
try to get a stop on that problem. The peace accords, of 
course, dealt with whether or not you can aerial spray the coca 
production, which I think has been the only way you can handle 
it. The crop is so huge.
    They are relying upon an individual cutting off the bush. 
This new president comes out promising again. And he will be up 
here soon. And we will have him before this subcommittee and we 
will hear the same promises we have had for a long time.
    Mr. McGovern. I think when he comes up here, we can't be a 
cheap date. We need to make sure that he keeps his promises. 
But let me just say this, this is why implementing the peace 
accords are so important, because part of the peace accords 
deal with helping develop some of the rural areas where a lot 
of the coca is grown.
    Crop substitution is one of the promises as well. Trying to 
help people, who are poor farmers, who have been growing this 
illicit crop, who get nothing, really, for doing so, but it is 
the only way they can make a living, help them transition into 
legal crops.
    When I was last there, I went out to some of these rural 
areas, and people were telling me that nobody from the 
government is coming out to provide alternatives. And that 
there were new actors coming into some of these rural 
ungoverned areas, and once again, getting involved in these 
illicit crops.
    I personally don't believe in aerial fumigation for a whole 
bunch of reasons. I think environmentally it is bad. I think 
from a health perspective it is bad. And I think the most 
effective way to do it. quite frankly. is to implement the 
peace accords and transition people out into growing legal 
crops and having the government have a presence in places where 
they haven't had a presence, and enforcing the law and 
arresting people who are doing these things. Because otherwise, 
it's the same ol' same ol'.
    I have a lot of constituents too who have been victims of 
this--of all these drugs coming into our country. But I am 
convinced that the way forward is implementing these peace 
accords. And that is why when President Duque was here, I was a 
little, well, more than a little bit concerned that he didn't 
seem as committed to the implementation of these accords.
    And he said things that I think the Administration wanted 
to hear in Venezuela, but putting Venezuela aside, he needs to 
do his job in Colombia. And I think a strong message from this 
committee that we are watching and that we are not happy with 
any attempts to withdraw from the implementation of the peace 
accords, I think, would be very, very welcome.
    Mr. Rogers. I think we had such a warning in the bill that 
we just passed where we--among other things, where we say to 
Colombia, no longer are we going to provide funds based upon 
your promise of reduction of coca production.
    Mr. McGovern. Right.
    Mr. Rogers. From here on out, you actually have to show us 
facts and figures showing fewer tonnage than before or else you 
don't get the money.
    Mr. McGovern. So, again, I think implementation of the 
peace accords would be helpful. And the other thing, as I 
said--I co-chair the Tom Lantos Human Rights Commission, the 
level of attacks and murders of rights defenders is 
astonishingly high.
    It is getting worse. It is at a crisis level. And when 
social leaders are murdered or human rights defenders are 
murdered, there is a consequence that is chilling and moves the 
country backwards.
    If Colombia wants to develop, they can't be known as one of 
the most violent places in the world. And from the rights 
perspective, this is one of the worst countries in the world. 
And so, anyway, I appreciate you listening.
    Mr. Rogers. Thank you.
    The Chairwoman. Thank you. Thank you very much.
    Mr. Yoho. My goodness, in the hot seat.
    The Chairwoman. Well----
    Mr. Yoho. How are you doing? Good to see you again.
    The Chairwoman. A pleasure to see you.
    Mr. Rogers. Hello, Ted.
    Mr. Yoho. Mr. Ranking Member. Good to see you.
    The Chairwoman. It is a pleasure, sir, to welcome 
Representative Yoho of the Third District of Florida.
    Mr. Yoho. Thank you.
    The Chairwoman. A member of the House Foreign Affairs 
Committee. It is good to see you again. And we would be happy 
to place your full testimony in the record. Please proceed as 
you will. Thank you.
                              ----------                              

                                          Wednesday, March 6, 2019.

                                WITNESS

HON. TED YOHO, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF FLORIDA

                     Opening Statement of Mr. Yoho

    Mr. Yoho. Madam Chairwoman, thank you for the opportunity 
to be here again. It was 2 years ago when I was here before, 
and I appreciate it.
    Chairwoman Lowey, Ranking Member Rogers, members of the 
committee, thank you for convening this hearing to discuss the 
critical resources needed to protect our nation, advance our 
values, and uphold America's leadership role in the world.
    With our leadership and guidance, this committee has the 
important task of determining what resources are required to 
meet our immense responsibilities. As the committee begins to 
consider the Fiscal Year 2020 request, I would like to update 
you on an exciting new development--the establishment of the 
U.S. International Development Finance Corporation--DFC for 
short.
    Last year, along with Rep. Adam Smith, I introduced the 
Better Utilization of Investment Leading to Development easier 
said the BUILD Act--to consolidate, bolster and modernize the 
U.S. government's development finance tools.
    I am excited to share with this committee that this 
bipartisan proposal with the help of many of you became law 
last October. And this is an incredible achievement we can all 
be proud of, showed bipartisanship, bicameralship and got 
signed into law in short order.
    Development finance refers to the use of loans, guarantees, 
insurance, and other financial tools to projects that will have 
a development impact. For instance, many of us have seen the 
power projects in Africa that have been financed through either 
OPIC, the Overseas Private Investment Corporation, or USAID's 
Development Credit Authority.
    Unlike traditional grants, these are investments which pay 
back over time. In fact, it was built with OPIC's model in mind 
which has returned money to the U.S. Treasury, 40 out of 41 
years at no cost to the taxpayers. In 2016, OPIC was authorized 
at $69 million, they have returned $265 million. So we built 
upon that.
    Under the BUILD Act, OPIC and DCA will cease to exist at 
the end of this fiscal year and instead be housed together 
under the Development Finance Corporation starting in Fiscal 
Year 2020.
    But it is not just the consolidation that is achieved. The 
BUILD Act brings increased flexibility so that the U.S. 
government can better use development finance to take on the 
world's greatest development challenges and place the DFC more 
prominently in the U.S. strategy for developing worlds.
    The other key element of the BUILD Act was to modernize the 
tools available to the U.S. government. In this respect, a tool 
possessed by all other development finance institutions, except 
the U.S., is equity authority.
    The BUILD Act provides this critical authority, which 
provides not just a key development tool, but will also allow 
the United States to be economically interoperable with allies 
such as Germany, Japan, and the U.K.
    For all its strength, OPIC has difficulty working in 
partnerships and leveraging the investment of our allies, 
because of its lack of equity authority. So many times OPIC--it 
was an outdated model and it did good, but it wasn't at the 
table. In fact, we found out it wasn't invited to the table 
because it was outdated. While the BUILD Act envisions that the 
DFC's total equity investments could approach 35 percent of its 
overall portfolio, it is important to note that, like the DFC 
loans that will be paid back over time, equity has a similar 
potential for repayment.
    I look forward to working with the committee on this 
important new aspect of the DFC to ensure that it is resourced 
and structured for long-term success. Madam Chair, this 
committee's support is incredibly important at this critical 
time. As the top Republican on the Asia Pacific Subcommittee on 
Non-proliferation, I have been through the region. I have been 
through Africa and our own hemisphere and seen the challenges 
like you have.
    Everywhere we go, we see China loading up developing 
countries with debt that they won't be able to repay, bring in 
Chinese workers versus using domestic workers, and not 
respecting the environment. With the establishment of the DFC, 
we have a viable alternative that countries can call upon where 
they can bring private sector financing, employ their own 
people, and do things in a transparent way.
    This model of development, of bringing in private capital, 
is becoming more prominent as the needs just can't be met with 
government-alone resources. The newly created DFC will be an 
important tool against an ever-aggressive China. China's Belt 
and Road Initiative has undermined American security and 
prosperity around the world.
    China is aggressively attempting to expand its influences, 
not only through the world--throughout Asia but around the 
world, especially in Africa, through its Belt and Road 
Initiative which is nothing more than predatory loans--a 
predatory loan scheme that indentures nations to China.
    For instance, this happened in Sri Lanka, which had to hand 
over a deep water port and over 15,000 acres to China for the 
next 99 years in a lease. Pakistan has added billions to its 
debt through its partnership with China in building a port in 
Gwadar. In fact, they are looking for a bailout from the IMF.
    The list of countries being hammered or harmed by China's 
BR Initiative continues to grow, and it is imperative for 
global and American security that the U.S. DFC is sufficiently 
funded. Lastly, I will note for the committee that OPIC and DCA 
will cease to exist at the end of this fiscal year. Should the 
Fiscal Year 2020 State, Foreign Operations Bill not be signed 
into law--this is an extremely important area, if it is not 
signed into law by the start of the fiscal year, I want to work 
with this committee on anomaly language to ensure DFC can be 
established on October 1st. There is no time to waste.
    Thank you for your leadership, for the bipartisan 
atmosphere and respect and problem-solving that you have 
instilled in this committee. You have the ability to shape 
America's future as a global leader by investing in diplomacy 
and development. And I look forward to working with you.
    This BUILD Act is something that is sorely needed as a 
diplomatic tool around the world through our embassies and the 
State Department. I just left a meeting with Susan Rice this 
morning, Ambassador Rice, and she was talking about the BUILD 
Act, how imperative and how timely it is to offset what China 
is doing with their Belt Road Initiative.
    This is a tool that, like I said, is bipartisan. The 
Administration signed it into law, and it is something that 
will last beyond this Congress because of the strong 
bipartisanship of it. And so I look forward to your 
consideration of support.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairwoman. I thank you very much, and I look forward 
to working with you. What I have found in my travels is that 
when China is building, they are bringing their own workers so 
they really are not encouraging economic development and 
creating jobs.
    Mr. Yoho. You are so right.
    The Chairwoman. They bring their workers, and the benefits 
are to them. So I look forward to working with you and I thank 
you for appearing today.
    Mr. Yoho. Thank you, ma'am.
    The Chairwoman. Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Yoho, for your support for this 
program. Is the motivation China here, is that the big push 
that we are having to deal with?
    Mr. Yoho. No, that wasn't the original impetus behind this. 
The original impetus was, as you know, I came in to get rid of 
foreign aid, and we talked about that last time. The thing is 
we really can't get rid of foreign aid, but we can help 
countries wean from aid and move them to trade as quickly as we 
can, because if we move to trade, we are developing 
infrastructures; we are developing economies.
    If we develop economies, there is a better lifestyle. You 
are bringing people out of poverty so it de-conflicts the rest 
of the world, and this is an important thing. The Belt Road 
Initiative was something that showed up in China. The estimates 
have invested over $4 trillion and really what they are doing 
is that they are buying up seaports, strategic seaports around 
world that are going to--we are going to have to deal with 
someday.
    So this was a way to offset this and we have had both 
Republicans and Democrats and people in leadership roles ask 
secretaries of State and current that have said that this is 
the biggest way to compete, to offset what China is doing. I 
don't want to say compete, because I think we are all for 
favorable competition, but not at the expense of another 
country.
    Mr. Rogers. Well, everywhere we go, as the chair has said 
and you have said, every country that I have been in of recent 
vintage, China is there.
    Mr. Yoho. Right.
    Mr. Rogers. Giving money, making loans that have no way to 
repaid. Enslaving countries like Sri Lanka----
    Mr. Yoho. Sure.
    Mr. Rogers. And others. All for the purpose of enhancing 
the Chinese economy.
    Mr. Yoho. It is all for China.
    Mr. Rogers. And we have been caught, I think, with our 
hands down and the more we can build up this BUILD organization 
to combat this scourge of Chinese enslavery, the better off we 
are.
    Mr. Yoho. I agree and I appreciate those comments. This is 
something that they are looking to roll out October of this 
year. They are going through the rule-making process, and we 
just ask for considerable attention to the financing so that 
that can be implemented. We are working with the Department of 
State, with the ambassadors--what is the name of that 
corporation, Jimmy, that organization where they educate the 
ambassadors?
    We are working with that so that they--the people in our 
embassies understand what the BUILD Act can do, and there is an 
educational process. I think it is a $5 million funding that 
will help them implement this so that we can go out, and we can 
start implementing this so that our foreign allies or the 
countries we are going into can say, ``Well, wait a minute. 
This is different than what China is offering.''
    It is different from OPIC, because OPIC was so outdated. 
Like I said, they wouldn't even get invited to the table. We 
couldn't partner up with JPIC out of Japan or DFID out of the 
U.K. And so now we can partner up with other countries' 
development finance corporations and do massive infrastructure 
projects.
    In addition, we can take in equity stake. And so instead of 
giving money out and getting no return, we can invest and get a 
return. It would be like, say a toll road, so we are getting a 
benefit, but we are going to use domestic help in those 
countries unlike China, who in Cambodia came in there, built a 
casino, built their own restaurants, built their own hotels, 
brought their own material and their own people and didn't help 
the underlying economy of Cambodia. This is something I think 
we can do better, and it is up to all of us to make sure these 
things get rolled out properly, and I appreciate your 
consideration.
    Mr. Rogers. Thank you.
    Mr. Yoho. Thank you.
    The Chairwoman. Mrs. Torres, do you have any questions?
    Mr. Yoho. Hey, how are you doing?
    Mrs. Torres. We want to say congratulations on----
    Mr. Yoho. Thank you. It was a group effort, and I thank all 
of you for your support.
    Mrs. Torres. Thank you, because we marked that last year in 
Foreign Affairs Committee. Thank you for accepting my amendment 
to----
    Mr. Yoho. Yes.
    Mrs. Torres. Ensure that, you know, we looked at that 
transparency and public corruption quite a bit.
    Mr. Yoho. Have to.
    Mrs. Torres. I have to agree with you. Traveling to South 
America, Ecuador, for example, we were just there last 
October--October, November. Some time ago. It was just last 
year. Yes. There is great need for them to refinance the debt 
that they have with China. And we see that all across the 
Americas. It is unfortunate that----
    Mr. Yoho. They are in throughout South America.
    Mrs. Torres. Right. Right. It is so unfortunate that they 
have put themselves in such a situation, a dire situation where 
they don't see a way out of the China umbrella. So if this can 
help in any way----
    Mr. Yoho. Oh, we are excited about this. We really are.
    Mrs. Torres. Refinancing some of these debts, I think----
    Mr. Yoho. Yes.
    Mrs. Torres. Could really help. So thank you.
    Mr. Yoho. Yes. That is great. Thank you.
    The Chairwoman. Mrs. Roby.
    Mrs. Roby. No questions. Thank you.
    Mr. Yoho. Thank you all. I appreciate it.
    The Chairwoman. Thank you very much----
    Mr. Yoho. Yes, ma'am. You all take care.
    The Chairwoman. Thank you for appearing before us. Welcome.
    Mr. Case. Aloha.
    The Chairwoman. Aloha. This weather--I wish we were all in 
Hawaii today.
    Mr. Case. It looks like it is 75 out there, but it is not.
    The Chairwoman. I want to thank you, Representative Case of 
Hawaii, a new member of the Appropriations Committee. I 
appreciate you coming before us and testifying today. And 
please proceed as you wish. You can either read your full 
testimony, talk your way through it, and also place your full 
testimony in the record as you choose.
                              ----------                              

                                          Wednesday, March 6, 2019.

                                WITNESS

HON. ED CASE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF HAWAII

                     Opening Statement of Mr. Case

    Mr. Case. Thank you very much, Madam Chair, ranking member, 
members. Thank you for allowing me to spend a little bit of 
time with you this morning. You do have my written testimony. I 
am going to try to summarize it.
    My purpose in coming before you today is to highlight the 
critical importance of our efforts in all spheres across the 
Indo-Pacific region. Since the end of the Second World War, the 
U.S. has helped to build a free and open order in the Indo-
Pacific region that has guaranteed security, enhanced trade and 
development, and promoted human rights.
    And this rules-based order has created conditions that 
prevented large-scale war and encouraged economic growth and 
democratic development, allowing the region to become one of 
the fastest-growing in the world. Among the success stories, 
ironically of this regional order, is China, a country that in 
just a generation has lifted countless millions, hundreds of 
millions out of poverty and grown into one of the world's 
largest economies.
    But we now have a choice to make with China, where China 
will be deciding and we will be deciding whether China will 
continue to be part of this rules-based order, whether it will 
continue with the path of growth and interaction and peace, or 
whether it will reject the rules-based liberal democratic order 
and exploit authoritarianism, reject human rights and advance 
its own interest to the exclusion of others.
    So I would like to sit here with you in terms of how we 
should expend our valuable funds in the area of the Department 
of State and related foreign affairs. I will say that I believe 
that it is critical for us to get it right with respect to the 
Indo-Pacific region and China specifically. And I think that 
the answer is the fullest possible engagement, so I do not 
agree--I do not agree with those that believe that the solution 
to the Indo-Pacific region and China and the rest of the world 
is to disengage. I believe that the answer is the fullest 
possible engagement, not only with China, but with our allies 
and partners--folks out there that have stood by us for 
generations since the Second World War and folks that we want 
to stand with us today as we go down the road.
    This has been a non-partisan, bipartisan effort over at 
least the past two presidencies, and multiple Congresses who 
have committed us to the same basic strategy in the Indo-
Pacific to strengthen our alliances and partnerships, increase 
our military presence, and you certainly will in this committee 
and the broader committee, evaluate the military defense budget 
in that context, but also to promote trade, development and the 
rule of law, and the projection of soft power as some people 
talk about.
    Congress affirmed this strategy last year through the Asia 
Reassurance Initiative Act, and I urge this committee, number 
one, to appropriate the necessary funding and to carry out that 
Act and support related programs that contribute to our 
strategy in the Indo-Pacific.
    I say this all, because I believe it is in the interest of 
our country but also because as a representative from Hawaii, I 
know that we have an incredibly important role to play in the 
Indo-Pacific. Not only do we have in Hawaii the headquarters of 
INDOPACOM, the largest and I believe most important, if I can 
say it that way, unified command that we have in our world 
today, stretching all the way from the West Coast of California 
to the West Coast of India, the entire Pacific and half the 
Indian Oceans.
    But we also truly lie at the intersection of East and West 
in Hawaii and have for generations now. We have for generations 
now hosted foreign visitors, business people, students, and 
professionals. And there is a great mixing in Hawaii that often 
goes unrecognized in the rest of the country on all levels, 
whether it be defense, whether it be economic, whether it be 
social, whether it be education, whether it be professional, 
scientific, whether just be visitors in a restaurant in Waikiki 
talking to each other about their respective countries.
    We have a role to play in this, and we have programs in 
Hawaii that have been funded to that effect in Hawaii. The one 
that I want to focus on today is the East-West Center. The 
East-West Center was started in 1960, and it was started for 
this specific purpose, to facilitate and foster engagement on 
several levels between East and West.
    We saw after the war that we needed to start to reach out 
to the Asia Pacific region in a systematic way. The East-West 
Center, which is affiliated with the University of Hawaii but 
not part of the University of Hawaii, and those of you that 
have been there know that it is a beautiful facility that works 
very, very hard to have the top scholars in the world host in 
an atmosphere in which folks can come together to provide 
mutual education and foster better relationships and 
understanding. Programs include education, research, and 
professional development for students, scholars, and offices 
from across the Indo-Pacific region.
    In 2018 alone, the Center had over 3,400 participants from 
41 countries in its programs and hosted 24 public events here 
in its Washington, D.C. offices. I think that most importantly 
if you look through the generations, the East-West Center now 
has 65,000 alumni spread out all throughout the Indo-Pacific 
region, so you have leaders of India Pakistan, China, Japan and 
the compact countries of the South Pacific and Australia, who 
have all come together at one time or another at the East-West 
Center.
    And they have their own network. I think that is incredibly 
valuable, incredibly critical to us as we go through this next 
generation where we are going to have stresses and strains in 
the Indo-Pacific region that we have simply not seen before. So 
I am here to advocate for full funding for the East-West 
Center.
    The East-West Center on the last number of years has 
sometimes wondered whether it was going to survive from one 
year to the other. It has not been in some presidents' budgets. 
It has been on the chopping block here on occasion and, you 
know, I just frankly think that after two generations of 
success, two generations in which it has developed and 
demonstrated its worth, that it deserves at this point, 
especially considering the importance of the Indo-Pacific 
region, the contributions that East-West Center has played and 
can play, that we recognize it for what it is and provide a 
more stable level of funding over the next generation.
    So I would support full funding of its request at $20.1 
million for the upcoming Fiscal Year. Beyond that, I certainly 
would support other key efforts that are critical to the Indo-
Pacific region. For example, the FMF and IMET programs operated 
by State in conjunction with DOD have been really, really 
valuable I think to the Indo-Pacific region and would certainly 
urge that those be funded, similarly with the Economic Support 
Fund and the development assistance accounts.
    Sometimes it is difficult to calculate the impact of more 
indirect spending out in the rest of the world, including the 
Indo-Pacific, but I believe that at this point we can conclude 
that this is incredibly valuable spending for us, and I would 
certainly advocate that this subcommittee focus on the Indo-
Pacific region as you consider your important work. Thank you 
very much. And happy to answer any questions.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairwoman. I thank you very much for your testimony. 
It is always a pleasure to see you. And I know you are a strong 
advocate of the Center, and I look forward to continuing to 
learn more about it. And I don't know that I have a question 
for you today.
    Mr. Case. Thank you. Thank you, Chairwoman.
    The Chairwoman. I turn to Mr. Rogers. Thank you.
    Mr. Rogers. You are right about East-West Center. It has 
been on and off here in this subcommittee and the full 
committee and the full Congress for a variety of reasons. Some 
think we in the West, need more than soft power. However, given 
the emergence of China as a global competitor as it is now for 
business and trade, it is important that we bolster the East-
West ties as strong as we can.
    I remember going to Bali 25 years ago or so and we met with 
what was referred to as the prince of Bali. He would have been 
the King of the Province of Bali had they not integrated into 
Indonesia. We had a great, long visit with this elder statesman 
who was revered, one of the founding fathers of SEATO. The 
thing that motivated this elderly statesman was his fear of 
China.
    He anticipated--thought that China was out to bring back 
into the--under the Chinese umbrella all peoples who originated 
with a Chinese dialect. That fear is prevalent now as you know 
still, stronger. And I am not sure that the East-West Center is 
doing enough to spread that idea, and more importantly to 
counteract it. What do you think?
    Mr. Case. I think it is an excellent question, and I think 
it does get to the mission of the East-West Center, because my 
own belief is that with China, and you could say the same thing 
of Russia or any other adversaries or potential adversaries 
around the world, the best possible approach in the big picture 
is first and foremost a strong defense so that you don't 
encourage anybody to think you will be taken advantage of, but 
also engagement on all levels.
    So as you can engage from the international trade 
perspective, you strengthen those ties. As you can engage from 
the educational and social and financial and business aspects 
you strengthen those ties. I think that is the best way to deal 
with China.
    I have absolutely no hesitation to say that I think 
INDOPACOM should be fully funded. I think it needs what it 
needs to get the job done in the Indo-Pacific region. But that 
is not the only way to handle China. And I think if we go down 
simply a pure defense approach then we will be making a mistake 
with China in the long run.
    I think that where the East-West Center fits into it, if I 
understand your comments correctly, you are perhaps concerned 
that the East-West Center is not firm enough with China. And I 
think that my response to you on that would be that I think the 
East-West Center's role is to engage all of our partners, all 
of our potential partners, and even our adversaries in a 
process that hopefully will kind of be the carrot side of it as 
opposed to the stick side of it.
    And so, I don't think the East-West Center really has the 
responsibility of sitting there and telling China to go take a 
hike. I think the East-West Center has a responsibility and 
other agencies as well. And I will give you one more example 
very quickly.
    In Honolulu, in Hawaii because of our geographic role and 
our cultural role, we belong to the Asia-Pacific region. If I 
fly from here to Honolulu, I am more than halfway to Asia. So 
that will give you some sense of where we think we are in terms 
of the world. So we think a lot about the Indo-Pacific, and so 
does the Indo-Pacific; they think that Honolulu and Hawaii is 
kind of a safe place to have these discussions. So we have not 
only INDOPACOM, which engages China right there at INDOPACOM, 
we have the East-West Center, which engages China. We also have 
the Asia-Pacific Center for Security Studies, which is the 
affiliate which engages China. And I think they all have that 
role. So I think the East-West Center has a really critical 
role to play in terms of trying to always, with a strong 
military defense posture, encourage China to remain engaged, to 
play by the rules, and to play by the international trade 
rules. And that is what their role is, and even the 
professional rules.
    You have leaders of China right now that attended the East-
West Center. I think that is a good thing--that they have some 
familiarity, that they have met with people from Bali, that 
have also been to the East-West Center.
    Mr. Rogers. Thank you.
    The Chairwoman. If I may, my friend, I understand Ms. 
Wagner has to leave shortly. Could you wait a few moments for 
your questions?
    Mr. Case. Sure.
    The Chairwoman. And we will hear from Ms. Wagner and then I 
will give the rest of the Members an opportunity to direct 
those questions.
                              ----------                              

                                          Wednesday, March 6, 2019.

                                WITNESS

HON. ANN WAGNER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MISSOURI

                    Opening Statement of Mrs. Wagner

    Mrs. Wagner. Thank you. Thank you, Madam Chairwoman. Thank 
you so much for your courtesy. I am in fact serving both on 
Foreign Affairs and on Financial Services, and I am in a middle 
of a mark-up at which I have a couple of amendments, so I am 
eager to get back.
    Chairwoman Lowey, Ranking Member Rogers, other members, 
thank you for the opportunity to testify today.
    As a former U.S. ambassador and the vice ranking member of 
the Foreign Affairs Committee, I cannot overstate America's 
centrality in safeguarding human rights, fostering peace, and 
promoting economic development, trade, and good governance 
worldwide. I have had the opportunity to travel with Ms. Torres 
on these very missions across Central America and our world.
    With countries like China and Russia working to undermine 
democratic values and respect for human rights, American 
leadership is more important than ever. And the U.S.-led 
international order has helped populations across the globe 
enjoy safer, more stable, and frankly more prosperous lives, 
and I believe American diplomatic engagement is critical to 
leaving a better world for the next generation.
    Peace and stability are a prerequisite for prosperity. But 
as we see in Syria, Burma, and elsewhere, many states are 
engaged in large-scale violence against their own citizens. And 
the United States has a responsibility to help these vulnerable 
communities. For that reason, I want to voice my strong support 
for robust funding for the Complex Crisis Fund, or CCF. The CCF 
is a critical global account that enables the United States to 
respond swiftly and efficiently to unforeseen crises, filling a 
gap when other monies are unavailable.
    Foreign Service officers and USAID workers in the field 
rely on the CCF to mitigate incipient humanitarian crises and 
prevent conflicts from spinning out of control. And data 
analysis from the Institute of Economics and Peace indicates 
that strong funding for the CCF could actually save taxpayers 
money in the long run: They submit that for every dollar 
invested now, the cost of conflict would be reduced by 16 
dollars. I urge you to fund this account at least at $30 
million in Fiscal Year 2020.
    Also one of my top priorities in Congress is ending human 
trafficking, an injustice that has enslaved over 40 million 
people worldwide. The State Department's Office to Monitor and 
Combat Trafficking in Persons has been instrumental in building 
partner nation capacity and incentivizing effective anti-
trafficking measures. I urge you to provide robust funding to 
the TIP Office so it can improve justice systems and 
prosecutions of traffickers and sex buyers in partner nations.
    Frankly, doing my own TIP report as a former U.S. 
ambassador was so very important and impactful in what I was 
able to bring to Congress and promote legislatively from a 
policy standpoint.
    And finally, I ask you to allocate robust funding for 
democracy programs in Burma. In Fiscal Year 2019, the National 
Endowment for Democracy, NED, received $4 million for its 
activities in Burma. It has used these funds to promote the 
development of civil society and strengthen democratic 
institutions.
    NED is helping to build a Burma in which genocide, 
brutalities, and rights violations against the country's 
minorities are unthinkable, and I urge you to continue 
supporting its mission at at least that $4 million level.
    I ask you to ensure that our assistance to Burma does not 
in any way make the United States complicit in the appalling 
crimes that the Burmese military has committed against the 
Rohingya, the Shan, the Kachin, and other ethnic groups.
    Last year, the House version of the NDAA included language 
limiting security assistance and military cooperation until the 
Department of State certifies that the Burmese government has 
held perpetrators accountable for human rights abuses. I was 
deeply disappointed that the final NDAA did not include this 
language, and I hope that the SFOPS appropriations bill for 
Fiscal Year 2020 reflects its provisions regardless.
    Members of the Burmese military responsible for committing 
genocide and other crimes against humanity must be held 
responsible for their actions. The Burmese military should not 
receive one cent of U.S. foreign military financing until it 
takes action to end and atone for egregious human rights 
abuses.
    America excels at helping our partners build capacity, good 
governance practices, and democratic institutions. 
Democratizing and developing countries want and need us to 
remain a reliable partner.
    I hope this subcommittee will support strong funding, for 
again, U.S. anti-trafficking programs, for conflict prevention, 
and for capacity building programming. So I thank you for all 
your hard work on these issues.
    I appreciate your courtesy, Chairwoman and Ranking Member. 
I am happy to take any questions or dash.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairwoman. Would you like to take questions or do you 
want to dash? I may have to bring Mr. Case back.
    Mrs. Wagner. Where are we? Are they voting it? Okay. I 
probably have to leave in a few minutes. If you have any 
questions I am happy to entertain a couple, but----
    The Chairwoman. I will give our members who didn't ask some 
questions. I will do it that way.
    I just want to thank you for your testimony, and I must say 
that I was part of several celebratory events with Aung San Suu 
Kyi. And this was probably one of the most disappointing 
results I can ever imagine in the time that I was here. And I 
thank you for your activism.
    I wish you had some advice. I don't know if you do. 
Otherwise I will turn to another question before you leave.
    Mrs. Wagner. I agree. I can tell you in terms of some of 
the priorities that I have laid out here I think that Chairman 
Engel is very committed to the CCF and actually getting behind 
it.
    I have fought for this on the Republican side of the aisle 
for some time. He is committed to this also, and I think that 
anything we can do from a prevention side early on is very, 
very important, and I think that will make a big difference in 
arming our Foreign Service officers and others to put more on 
the preventative side.
    I have had the pleasure of passing the Genocide and 
Atrocities Act which CCF was very much a part of, but I think 
we are going to put some more teeth to it in this next 
Congress.
    The Chairwoman. I turn to Ms. Torres because you were next?
    Mrs. Torres. Thank you for your leadership in these issues, 
specifically with sex trafficking.
    You know, we were in Iquitos, Peru, and we visited a center 
that was built to help support infants that are sex trafficked. 
I didn't know that that type of tourism existed.
    The Chairwoman. It was just horrific.
    Mrs. Torres. It was horrible to find out that some American 
citizens----
    The Chairwoman. I know, exploiting----
    Mrs. Torres. Traveling there for the purpose of exploiting 
infants. So thank you for that work.
    I just want to encourage, I know that this is a very, very 
difficult issue for you, but women need support. And when rape 
is a favorite weapon of war, we have to find a way to help 
provide healthcare for women that have been raped and result in 
unwanted pregnancies and are left on the side of the road to 
care for themselves and an unwanted child that no one 
recognizes as a human being.
    It is shameful. It is a black eye. But I hope that we can 
find a space where we can work to help----
    The Chairwoman. I hope so too.
    Mrs. Torres. To fortify the healthcare of these women.
    Mrs. Wagner. I look forward to that, and I can tell you 
that my Gendercide Bill also is very much a part of that too, 
that there are so many little girls across this country sadly 
that are killed and alone because of their gender, because they 
are little girls. And it goes along the same line, so we will 
be putting that legislation, I hope forward again. And it has 
been generally on a bipartisan basis, so I look forward to 
working with you on those issues.
    The Chairwoman. Mr. Fortenberry.
    Or Ms. Roby, do you have any questions before we go back to 
Mr. Case?
    Mr. Fortenberry. Absolutely.
    The Chairwoman. With great respect.
    Mr. Fortenberry. Thank you for being here to give us your 
perspective on this ongoing tragedy in Burma.
    Mrs. Wagner. Yes, it is awful.
    Mr. Fortenberry. But in the 2019 bill that we just passed 
we have got $86.4 million in economic support funds to support 
civil society, advance the national reconciliation process, and 
improve the lives left vulnerable by decades of military rule.
    It also has $3.5 billion for international narcotics 
control funding. No monies for international security 
assistance, none. And the State Department interaction with the 
Burmese military is limited to human rights and disaster 
response.
    So we hear you. It is an ongoing tragedy that we all deal 
with. Thank you.
    Mrs. Wagner. Well, I appreciate that. And I just again 
cannot say enough about the National Endowment for Democracy, 
and that $4 million that NED need, that grant money that they 
need to have programming control over. And I think it also goes 
a long way to helping to build a Burma in which these kinds of 
brutalities and genocide and human rights violations are 
unthinkable.
    So I thank you, ranking member.
    Thank you all so very, very much. I going to put my roller 
skates on and dash back to Rayburn.
    The Chairwoman. Thank you very much.
    Mr. Case, you have been so very patient.
    Mrs. Wagner. Thank you, Mr. Case. Thank you.
    Mr. Case. No problem. Thank you.
    The Chairwoman. Why don't we continue?
    Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Congressman. We don't know each 
other very well. Would you mind if I speak presumptuously about 
your presentation based upon what will hopefully be a 
friendship, because it is meant to be constructive, I have to 
say.
    Mr. Case. Sure.
    Mr. Fortenberry. When I left Nebraska it was minus four. If 
you really want to have an impact, I think a field hearing at 
the East-West Center in Hawaii would have been preferable to 
this presentation.
    Mr. Case. I think that is an excellent idea. I think that 
there is a great need for people from Nebraska to understand 
the Indo-Pacific region.
    Mr. Fortenberry. Okay. We have found common cause. Just on 
a serious note, following up on what Ranking Member Rogers, our 
former chairman, said, I think this issue of China looms so 
large in terms of really the 21st Century architecture of 
diplomatic relations.
    And both the USAID director as I recall but recently I was 
with frankly the Secretary of State yesterday, and 2 days ago 
in Iowa, spoke of China's predatory lending practice. And the 
more that we can socialize this concept, I think the world 
actually has awakened to this harsh reality of coming in and 
holding hostage in effect developing countries to their larger 
ideological agenda.
    I get what you are saying and I respect what you are saying 
in terms of the East-West Center being a bridge for diplomatic 
dialogue and not necessarily the hammer side of the carrot, but 
of the incentives.
    But I do think socializing this harsh reality of what China 
has done and really improperly disrupting what ought to be 
fundamental attacks by all of us on structural poverty around 
the world to lead to stability and diplomatic outcomes.
    I throw that to you to connect----
    Mr. Case. No, I think it is along the same lines as your 
question, ranking member. It is a very good debate. How do we 
deal with China and the big picture over the next generations 
long after we are not here anymore?
    I think that if you listen to the debate, let us define the 
debate by its extremes. One side of the debate says let us only 
deal with this militarily and let us isolate China, and let us 
basically dry up any contact with China in all other spheres. 
Okay. So that is kind of one extreme.
    The other extreme is we don't really have to worry about 
China and if we appease China and placate them and let them do 
what they want to do, then that's the way to go.
    Mr. Fortenberry. Or the free market in its working itself 
out will ultimately create the types of interconnectedness, 
that will develop human rights and respect----
    Mr. Case. Well, and that is the----
    Mr. Fortenberry. I think that is in the extreme too.
    Mr. Case. Yes. And one could argue that is part of the 
policy we have followed for the last 20 years, that we hoped 
that would happen.
    Now obviously it didn't. So let us be frank about that. I 
think we are on the same page, aren't we?
    So then the question is what do we do? And I am saying that 
we need to pursue this on a number of levels. It is a very 
nuanced set of levels. I am saying that I am agreeing with you, 
first of all, on your premise, okay. So I am not one of those 
people that is naive about China. I think China has every 
aspiration to be the dominant world power and to not 
participate in a world order if it can get away with that, if 
it serves its own purposes. And it is busy trying to do that.
    We need a strong military in the Pacific so let us do that. 
Now let us talk about the rest of it. How do we actually try to 
get China to modify its behavior? And I think engagement is the 
right way to do that.
    Sometimes you can't see it happening until it actually 
happens. For example, I have been in meetings at the East-West 
Center or for that matter other places in Hawaii. And I have 
heard from members that have participated in meetings of the 
same thing, where you have people from China who come in to 
those meetings.
    Now they are safe zones for talking. They are not in China. 
They are told in no uncertain terms how the rest of the world 
is feeling about them. I think that is valuable that they take 
that back to China.
    And you never know when it is going to actually result in a 
change in behavior. But what I think can happen if we are not 
careful, if we isolate China and really shut it off from that 
avenue of discourse, wherever that avenue of discourse is at 
the East-West Center or the Asia-Pacific Center for Security 
Studies or any number of other possible areas to have that, 
then you are going to end up in a situation like North Korea 
where you have nobody that really knows really what is 
happening. And they do not know enough about the rest of the 
world to bring it back to North Korea to say, hey, this is 
really what the view is out there.
    So, I think that that is what is so valuable about this 
particular track. And, yes, those discussions should include, 
you guys are not playing by the rules. You are predatory 
lending. You are stealing intellectual property. You are 
dominating and losing your own partners. That is the struggle 
that we have. It is a big picture struggle, and we have got to 
fight that struggle on a multiple level.
    So this is, I am talking way beyond the East-West Center, 
but it fits into that pattern.
    Mr. Fortenberry. Thank you. Thank you.
    The Chairwoman. Thank you.
    Does anyone have any additional questions?
    Let me thank you for coming. I do look forward to a 
hearing, whether it is in the East-West Center or another 
meeting. The weather is sure better than here or in Nebraska, 
and I really appreciate your input.
    Mr. Case. Thank you very much. Thank you.
    The Chairwoman. Thank you. This concludes today's hearing.
    The Subcommittee on State, Foreign Operations and Related 
Programs stands adjourned.
    [Testimony for the record submitted by Members of Congress 
follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Tuesday, March 12, 2019.

            TESTIMONY OF PUBLIC WITNESSES AND ORGANIZATIONS

                              ----------                              


U.S.-ISRAELI PARTNERSHIP; IMPACT OF FOREIGN ASSISTANCE ON CHILDREN AND 
CURRENT NEEDS; FUNDING FOR KEY U.N.-RELATED, GLOBAL HEALTH, AND FAMILY 
                           PLANNING ACCOUNTS

                               WITNESSES

HOWARD KOHR, CHIEF EXECUTIVE OFFICER, AIPAC
MICHAEL KLOSSON, VICE PRESIDENT FOR POLICY AND HUMANITARIAN RESPONSE, 
    SAVE THE CHILDREN
PETER YEO, PRESIDENT, BETTER WORLD CAMPAIGN

                 Opening Statement of Chairwoman Lowey

    The Chairwoman. Good morning. The subcommittee on State 
Foreign Operations and Related Programs will come to order.
    To our distinguished witnesses, welcome. Thank you for 
coming to our Subcommittee to present your views on the 
agencies and programs funded by the State Department Foreign 
Operations, and Related Programs Appropriations. Our public 
witnesses represent a wide array of perspectives and expertise 
that help Congress better assist the impact and effectiveness 
of foreign assistance.
    As we assess the president's budget request for Fiscal Year 
2020, your voices are critical to the appropriations process. 
Let me very clear: Our nation's security cannot afford a budget 
that does not adequately fund our diplomatic and development 
programs, or life-saving humanitarian assistance.
    The draconian cuts this administration continues to 
advocate are irresponsible--particularly at a time of 
unprecedented human suffering--and wholesale haphazard cuts are 
not an option.
    For as long as I have been a part of this Subcommittee, we 
have had bipartisan agreement that foreign assistance is 
critical to our national security and to maintaining America's 
leadership role in the world.
    As chairwoman, I have every expectation that we will 
produce a bill that maximizes each taxpayer dollar while 
responding to today's many needs. We are eager to hear your 
testimonies and look forward to working with your organizations 
throughout the appropriations process.
    Before we begin with our first witness, let me turn to 
Ranking Member Rogers for his opening remarks. Mr. Rogers.

                    Opening Statement of Mr. Rogers

    Mr. Rogers. Good morning, Madam Chair and audience. I want 
to thank the Madam Chair for taking on such an ambitious 
endeavor today, 11 panels, 34 organizations here to testify on 
their priorities for 2020.
    In the interest of time, Madam Chair, I am going to curtail 
my remarks except to say that I look forward to the testimony 
of the witnesses, thank them for their time today. I also want 
to offer my condolences to Mr. O'Keefe from Catholic Relief 
Services. I understand you lost four colleagues in the plane 
crash over the weekend. Our thoughts and prayers are with their 
families and your entire organization as well as all the other 
victims of the crash. I yield back.
    The Chairwoman. Thank you and welcome. Our first panel is 
Mr. Howard Kohr, chief executive officer of AIPAC. Ambassador 
Michael Klosson, Save the Children, vice president of Save the 
Children. And Mr. Yeo, president of the Better World Campaign.
    I thank you for joining us today. Please summarize your 
statement as your full testimony will be placed into the 
record. You each will have four minutes starting with Mr. Kohr, 
then Ambassador Klosson, and finally Mr. Yeo.
    We will withhold any questions until after Mr. Yeo has 
finished. The clock will flash yellow when you have one minute 
remaining. Mr. Kohr, please proceed.

                     Opening Statement of Mr. Kohr

    Mr. Kohr. Good morning, Madam Chairman. First, let me 
express my thanks to you Chairwoman Lowey, Ranking Member 
Rogers, and all members of this subcommittee for your continued 
steadfast support is really citizens. Rather than help Gazans, 
the designated terror group has spent tens of millions of 
dollars building the elaborate terror structure concerning its 
political power and choosing to cynically use Palestinian 
civilians as human shields in their ongoing war with Israel.
    As a result of these threats, Israel has had to 
significantly increase its defense budget. And America has 
generously agreed to increase U.S. assistance to Israel in the 
2016 U.S.-Israel Memorandum of Understanding. AIPAC strongly 
urges this subcommittee to approve $3.3 billion to Israel in 
security assistance that is called for in the second year of 
that MOU.
    By providing security assistance to Israel, the United 
States safeguards the Jewish state's qualitative military edge 
over its adversaries and enhances the safety and security of 
both nations. As a result, it is one of the most cost-effective 
and efficient programs in the U.S. foreign assistance budget.
    In addition to the threats at our borders, Israel continues 
to be singled out at home and, again, has been singled out time 
and time again at the United Nations and targeted in the 
international arena, most recently in the Boycott, Divestment 
and Sanctions Movement in an effort to delegitimize the Jewish 
state and work against any prospects for peace between Israel 
and her neighbors.
    Since the founding of the state, Israel has worked 
tirelessly to bring peace with all her neighbors. Israel signed 
peace agreements with Egypt and Jordan in 1979 and 1995. In 
return, for which Israel dismantled its settlements and gave up 
every inch of the Sinai and its oil fields. In 2005, Israel 
withdrew every single Israeli soldier and every Israeli citizen 
from the Gaza Strip, and yet tragically the conflict to 
Palestinians continues.
    We must all work and strive for a future where there are 
two states for two peoples, one Jewish with secure and 
defensible borders and a demilitarized Palestinian state with 
its own flag and its own future.
    There is no substitute for direct negotiations, there are 
no shortcuts to peace. The investment of the United States in 
the pursuit of peace over many decades remains just as 
important today and for the future of so many.
    Beyond the security assistance to Israel, AIPAC urges 
support for a robust and bipartisan foreign aid program that 
ensures America's strong leadership position in the world. 
Bipartisan support of the subcommittee will be even more 
critical to America as America and Israel continue to work 
together to meet the challenges that lie ahead and to advance 
toward the goal of a more peaceful, more stable, and more 
secure Middle East. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                    Opening Statement of Mr. Klosson

    The Chairwoman. Mr. Klosson.
    Mr. Klosson. Thank you. Madam Chair, Ranking Member Rogers, 
thank you for the opportunity to underscore the vital 
importance of American leadership in alleviating suffering and 
crises around the world and helping families lift themselves 
out of poverty.
    Save the Children is a nonprofit, child-focused 
organization often in partnership with U.S. government and many 
others. We work in 120 countries around the world and right 
here in America in 14 states. And last year, we helped 157 
million children.
    We meet the day after the Administration transmitted its 
Fiscal Year 2020 budget request, what can one say? Clearly, the 
third time was not the charm. And it is a week when the Syria 
crisis enters its 9th year. Fortunately, the subcommittee and 
the Congress recognize the challenges that vulnerable children 
in Syria and else were faced and support robust American 
leadership.
    When I travel abroad, I see the important difference that 
leadership makes. In South Sudan last year, I met with 
community leaders in Kapoeta, a village in the eastern part of 
the country, standing in the baking sun outside grass-thatch 
huts, these leaders told me about a program of training and 
equipping community health workers that was funded by the 
Office of Foreign Disaster Assistance and this program was 
saving their children from malaria and pneumonia.
    These programs are indispensable in reaching such children 
with critical services. And doing so both improves the lives of 
those children but also advances our national interest and 
projects America as a dynamic force for progress around the 
world. Now, it is not the time to short-change those children 
or cripple our foreign policy and assistance tools.
    There are four reasons why Congress should fund the 
International Affairs budget at $60 billion. First, Save the 
Children's recent analysis which show that the changing nature 
of conflict means more children are in harm's way for longer 
periods. In fact, nearly one in five children live in a 
conflict zone. And imagine what life is like for those 420 
million children, they face bullets and bombs, not to mention 
collapsing health systems, sanitation systems, and education 
systems. And I am sure the committee would agree that the U.S. 
has a key role to play in mitigating these threats, especially 
in areas important to our national interests.
    U.S. humanitarian programs literally are the difference 
between life and death for many. They provide access to health, 
to food, water, shelter, and we all need to do more, not less. 
Children must have access as well to education, to psychosocial 
support and protection. These are vital needs that often go 
overlooked in humanitarian crises.
    Second, we are not going to achieve our shared goals 
without investing in gender equality. The U.S. must continue 
its investments that promote global gender equality, women's 
and girls' empowerment and I think the evidence is crystal 
clear. Countries are more likely to be prosperous and stable 
when girls are educated, healthy, and free from gender-based 
violence.
    Girls with a secondary education and access to gender 
responsive healthcare are more likely to marry later, earn more 
income during their lives, and face fewer complications from 
childbirth.
    Third, despite incredible progress helping children survive 
and thrive, the job is not done. Such investments by donors, 
and increasingly by countries themselves, cement the foundation 
for stable and healthy societies. And we can thank American 
leadership that 18,000 more children are alive today than any 
day in 1990.
    USAID's investments in education have provided nearly 70 
million children with early grade reading instruction, that is 
a real progress multiplier. And despite this progress, those 
stubborn challenges remain and we have to stay the course. 
Sadly, one million children, infants die on the day that they 
are born of preventable causes. So we have to maintain those 
programs and help other country step up and support them.
    The fourth reason is USAID's transformation and we very 
much welcome Administrator Green's concept of a journey to 
self-reliance as a pathway to sustainable development. And we 
urge Congress to support USAID's operating expenses.
    So in closing, let me thank you for your continued 
leadership in investing in U.S. humanitarian development 
programs. Save the Children appreciates the bipartisan support 
for programs that fight poverty and save lives. And after all, 
these programs help prepare the children of today to become 
tomorrow's generation of amazing leaders who are going to make 
the world a safer, more just, and prosperous place all to 
America's benefit. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                      Opening Statement of Mr. Yeo

    Mr. Yeo. Well, thank you Chairwoman Lowey, Ranking Member 
Rogers, and members of the subcommittee for giving me the 
opportunity to explain why robust funding for the United 
Nations and other global health and development accounts is in 
our country's best interests.
    Let me first thank the subcommittee for its past support 
for the United Nations and highlight an issue of deep concern 
to Congress addressing one of the worst humanitarian crises of 
our time, Yemen. The U.N. is the only organization that can 
both relieve the immense humanitarian suffering in Yemen and 
find a path to end this conflict.
    The U.N. estimates 22 million out of Yemen's 29 million 
need humanitarian assistance. U.N. agencies are working as one 
to address these needs, providing food, shelter, and maternal 
and reproductive health services to millions. Meanwhile, the 
U.N. has brought the parties together to negotiate a political 
solution, recently reaching a ceasefire that if implemented 
could provide a roadmap out of this crisis.
    As evidenced by the 21 U.N. staff who lost their lives over 
the weekend in the Ethiopian plane crash, U.N. workers are 
often taking great risks to do their jobs including in Yemen. 
U.N. peacekeepers share that spirit. Peacekeepers are battling 
Al Qaeda terrorists in Mali, pushing back against militias in 
Congo that are attacking Ebola treatment facilities, and 
protecting nearly a quarter million civilians in South Sudan. 
U.N. peacekeepers stand between us and extremist elements all 
over the world. That saves American lives and taxpayer dollars.
    In a recent study, the GAO found that it was eight times 
cheaper to deploy a U.N. peacekeeping mission than to deploy 
U.S. troops. It is therefore not surprising that according to a 
Gallup poll released last week, 66 percent of Americans believe 
that the U.N. plays a necessary role in the world today.
    As such, we respectfully request full funding for the U.N. 
and U.N. peacekeeping. For the past several years however, the 
U.S. has not fully paid its U.N. peacekeeping dues. As this 
committee has recognized, the U.S. now owes more than $750 
million in arrears, and that is causing major financial 
challenges at the U.N.
    Countries like Ethiopia and Bangladesh contributing over 
14,000 peacekeepers are not being paid fully or on time. That 
is not fair, particularly since nearly 250 peacekeepers were 
killed over the past two years in the line of duty and frankly, 
we would be furious if we weren't being paid.
    In December, the Trump administration supported a new U.N. 
peacekeeping assessment rate of 27.89 percent for the next 
three years. I urge the committee to lift the 25 percent 
peacekeeping cap similar to what was done in both Republican 
and Democratic leadership and pay our dues at the negotiated 
level to avoid further arrears. We are a great nation and great 
nations pay their bills.
    We also believe that Congress should fully fund U.N. where 
critical to Americans and American values. Here are a few 
examples, the U.N. Office of Drugs and Crime tracks shipments 
of opioids and synthetics like fentanyl across the globe. 
Opioids were responsible for the majority of the 70,000 drug 
fatalities in the U.S. in 2017.
    Childhood immunization overseas including investments in 
WHO and UNICEF in turn protect Americans from communicable 
diseases that don't respect borders. Malaria-related deaths 
have dropped 62 percent worldwide in part due to the 
distribution of bed nets, but much work remains and the U.S. 
leadership against malaria must continue.
    And fulfilling the need for voluntary family planning and 
providing quality maternal healthcare can reduce maternal 
deaths by an estimated 67 percent. That is why we have 
requested you support our bilateral reproductive health 
programs, U.N. Women, and UNFPA. Thank you for the opportunity 
to testify today and for your continued leadership in support 
of a strong and robust global affairs budget. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairwoman. First of all, I want to thank the entire 
panel. Your presentations were informative and if we had a 
week, I know that all of us would have many questions. We will 
take a few questions and I know we will continue this dialogue.
    Mr. Kohr, one of my concerns as you well know is keeping 
bipartisan support. The Israel-United States relationship must 
remain bipartisan in my judgment. What in your view would be 
the consequence of making Israel a political football?
    Mr. Kohr. Madam Chair, the passion which you bring to this 
issue of the U.S.'s relationship and the support for the 
concept of bipartisanship is one that we share. We believe 
deeply that for the United States to continue to maintain its 
critical role in the region and support for Israel requires 
both Democrats and Republicans to continue to work together.
    We think this is still vital to the United States and we 
think there is an important reason for this issue to be an 
opportunity to bring Democrats and Republicans together. So we 
will do everything we can to continue to ensure that 
bipartisanship remains a central issue of the United States.
    As we like to say, the American support for Israel is not a 
Democratic issue, it is not a Republican issue, it is an 
American issue, and we deeply believe that.
    The Chairwoman. I thank you. I just want to say, as you 
know, I have been serving on this committee and this Congress a 
long time and I think it is absolutely essential that we keep 
this a bipartisan issue.
    Mr. Rogers.
    Mr. Rogers. I thank all of you for your testimony here 
today, and thank you especially Mr. Kohr for your testimony and 
for your hard work assuring that the strong and steadfast 
relationship between the U.S. and Israel is maintained.
    We are pleased to finally get the $200 million increase in 
the 2019 bill across the finish line in support for Israel and 
I know it is urgently needed. Thank you for your work.
    Mr. Kohr. Thank you.
    Mr. Rogers. And Madam Chair, if I could ask Mr. Klosson 
briefly to make a comment.
    The Chairwoman. Mr. Rogers.
    Mr. Rogers. Thank you for the good work your outfit does 
around the world especially here at home. I believe Save the 
Children had their first American programs in Harlan County, 
Kentucky is my district.
    Mr. Klosson. Right.
    Mr. Rogers. 1932. And you and I are both still here.
    Mr. Klosson. Yes. Actually, we are coming up on our 100th 
anniversary because we were founded in the U.K. in 1919. So 
this is our 100th anniversary year.
    Mr. Rogers. Oh, great.
    Mr. Klosson. 1932 in the U.S.
    Mr. Rogers. Well, in Harlan County, you provided clothing 
and supplies, hot lunches to students. Your organization has a 
proud history of serving children in need. So keep up the good 
work and we thank you for being here today.
    Mr. Klosson. Thank you, Mr. Rogers.
    Mr. Rogers. I yield back.
    The Chairwoman. Thank you. Ms. Frankel.
    Ms. Frankel. Thank you. Thank you all for being here. I am 
still clogged up from my flight yesterday. What do you see as 
the best programs on the issue of empowering women?
    Mr. Yeo. Well, I would just note that the U.N. Population 
Fund works in countries around the world to make sure that 
women have access to voluntary family planning, but also the 
full range of maternal healthcare needs being taken care of.
    Most of the babies being born among Syrian refugees are 
being born in a clinic supported by UNFPA. So I think it is 
worth noting that as we think about the empowerment of women 
economically in terms of their own lives, that it is vital that 
they have access to the full range of reproductive health 
services that can allow that empowerment to occur.
    Ms. Frankel. Didn't our Administration cut off funding to 
U.N. Population?
    Mr. Yeo. That is correct. The U.S. no longer funds UNFPA.
    Ms. Frankel. The best program. How much was that? Do you 
know how much was cut off?
    Mr. Yeo. Yes. More than $40 million.
    Ms. Frankel. Madam Chair, obviously we are going to have to 
take a look at that. Supposedly the Administration diverted 
funds elsewhere to do the same kinds of things, is that 
happening do you know?
    Mr. Yeo. My understanding is some of the funds flow to 
USAID, you would have to ask USAID for a greater accounting of 
as to what programs are being supported with that redirected 
money.
    Ms. Frankel. Thank you. Mr. Klosson, did you want to add--
--
    Mr. Klosson. I want to say that besides what Peter 
mentioned, I think one of, the important thing is the ways to 
mainstream these kind of considerations into whatever program 
you are doing.
    And so I am responsible for the humanitarian side of 
things, so we really focus in on making sure that these 
programs are serving the needs of girls and women and 
mainstreaming these gender considerations is critical and 
particularly, education is vital.
    Ms. Frankel. Thank you very much.
    The Chairwoman. Thank you. We should go on in that issue, 
but I think I will move to Mr. Fortenberry. Mr. Fortenberry.
    Mr. Fortenberry. Thank you Madam Chair and if I could 
follow-up on your excellent comments to Mr. Kohr regarding the 
essential nature of the relationship that we have with Israel 
and that it continues to always need to be bipartisan as we 
approach things.
    Ms. Lowey and I with her leadership have worked on the 
Partnership for Peace fund together. And I understand there has 
been some dialogue with you in this regard. For my perspective, 
I think as we project out and try to re-imagine how things 
ought to be, laying the foundation for the roadmaps for peace 
are absolutely critical, and this bill in my mind does that by 
creating the possibility of joint economic projects, joint 
environmental projects, exchanges that, again, create the 
preconditions for what we all want to hope and imagine.
    So I understand you are aware of this bill and back to the 
bipartisan approach. I think you have one right here in front 
of you.
    Mr. Kohr. Yes. Thank you, Congressman, and thank you for 
your longstanding commitment to the U.S.'s relationship. Look, 
I think the idea you are trying to find ways to continue to 
empower Palestinians in the economic sphere to create a better 
economic opportunity are things we want to take a look at.
    For us, the critical element here is that it needs to be 
done in a way that also benefits and encourages Israelis and 
Palestinians to work together, and to ensure also that the 
resources aren't being diverted to the Palestinian Authority, 
that this is true economic development that is helping the 
Palestinian people. So we will take a look at efforts including 
this piece of legislation here to ensure that those elements 
are in there and then we will make some decisions.
    The Chairwoman. Let me just say to all my friends, if we 
didn't have 34 panelists I know that everyone here appreciates 
all the work you do. And just following up on that, having been 
here for 30 years I have spent a lot of my energy and focus on 
empowering the Palestinians and sending resources to groups 
that are really trying to make a difference, but this is worthy 
of an hour or two.
    Mr. Fortenberry. Yes.
    The Chairwoman. I do want to thank you all on the panel. I 
look forward to continuing our work together. We have a great 
committee here. Some couldn't join us today, but I know that 
each and every one, bipartisan, cares very much about these 
issues, and I look forward to continuing to work in a 
bipartisan way. I wish we could provide strong bipartisan 
support for family planning, maybe someday. Thank you very 
much.
    Mr. Kohr. Thank you.
    The Chairwoman. Our second panel is Ms. Jeanne Bourgault, 
president and CEO of Internews; Michele Sumilas, a former 
colleague and partner in our committee, managing director of 
Bread for the World; and Mr. Bill O'Keefe, executive vice 
president of Catholic Relief Services.
    I would love to give a speech on every one of you, but I do 
know that as you come forward, Catholic Relief Services doing 
such an amazing job in every place I visit and I thank you.
    Mr. O'Keefe. Thank you.
    The Chairwoman. And, of course, Bread for the World, we 
have known each other a long time and I thank you.
    And thank you for reporting the news, Jeanne.
    Why don't we begin, Jeanne we begin with you.
                              ----------                              

                                           Tuesday, March 12, 2019.

INDEPENDENT MEDIA AND INTERNET FREEDOM; ENDING HUNGER AND MALNUTRITION; 
 INTERNATIONAL POVERTY-REDUCING DEVELOPMENT AND HUMANITARIAN ACCOUNTS; 
   PRESERVE HUMANITARIAN PROGRAMS AND POLICIES; CATALYZE DEVELOPMENT 
  OUTCOMES AT SCALE; EXPAND U.S. LEADERSHIP IN GLOBAL HEALTH; UPHOLD 
                             HUMAN DIGNITY


                               WITNESSES

JEANNE BOURGAULT, PRESIDENT AND CEO, INTERNEWS
MICHELE SUMILAS, MANAGING DIRECTOR, BREAD FOR THE WORLD
WILLIAM O'KEEFE, EXECUTIVE VICE PRESIDENT FOR MISSION, MOBILIZATION, 
    AND ADVOCACY, CATHOLIC RELIEF SERVICES

                   Opening Statement of Ms. Bourgault

    Ms. Bourgault. Okay. Great. Madam Chairwoman, I am very 
honored to be here today on behalf of Internews, an 
international non-profit dedicated to empowering local news all 
around the world. We do this because we believe that everyone 
everywhere deserves to have the information they need to make 
good choices for their families, participate in their 
communities, and hold their governments to account.
    Unfortunately, our mission is facing a crisis. And I will 
start by a really devastating number--13 percent. Only 13 
percent of the world's population lives in a country deemed to 
have a free press. The causes of this crisis are multitude.
    Authoritarian regimes are directly restricting access to 
many, many people. Intimidations and attacks are making it 
harder for journalists to do their jobs. The rise of malign 
actors has made misinformation all the more pernicious around 
the world. And finally, the market realities of the media 
industry make local news almost untenable.
    And what this means on the ground is in the countries that 
we work in places like Mexico and Guatemala, violence against 
journalists from criminal groups is equivalent to them working 
in a war zone. In Burma, hate speech has directly contributed 
to the genocide of the Rohingya people. And all over the world 
from Cameroon to India, direct government censorship has taken 
a new path in directly and completely shutting down the 
Internet where people lose all access to information.
    The need for action is urgent and with the support of the 
U.S. Agency for International Development and the Department of 
State, we at Internews are taking action. We are building the 
capacity of partners in these countries--local media, content 
producers, digital activists--to fight these trends because we 
need together to protect this incredibly valuable resource of 
trusted local information.
    I would like to share several strategies that work. First, 
focusing on inclusion really works to build trust. People need 
to know that their news reflects them and their community and 
we particularly are emphasizing women speaking on women's 
empowerment. We think it is critically important for women to 
be seen, heard and listened to in the media and, unfortunately, 
only 24 percent of the people that you see, read about or hear 
are women in the news, and that must change.
    Second, we believe that progress is possible in this space, 
and we are seeing advances in freedom of expression, 
particularly in places like Liberia where the government 
recently passed a very hard-fought media law to decriminalize 
libel.
    Third, in order to survive volatile markets, we really need 
to strengthen the business skills of our partners. We want 
local news to thrive around the world like our partner in 
Montenegro whose online advertising revenues grew fourfold 
following a simple support and consultancy on improving their 
digital advertising systems.
    Finally, investing in critical thinking can make a real 
difference. In Ukraine, a combination of fact-checking sites, 
contests and integrating media literacy in the social science 
curricula has resulted in a 16 percent year-over-year increase 
in Ukrainians' ability to spot fake news.
    The bottom line at Internews, we believe the most important 
tool for combatting fake news is to invest in real news and we 
have seen an impact. Last year, I visited Kabul, Afghanistan, 
where Internews has been working with USAID support since 2002. 
When we first arrived, Afghanistan was a near information 
desert with only one creaky state-run radio station 
functioning.
    We worked with communities that never experienced their own 
media. We found media enthusiasts and helped them set up a 
whole new network of radio stations and television stations 
that now reach all 34 provinces of Afghanistan. Seventeen of 
these stations are women-led and I am so proud of our ability 
to support the brave and courageous Afghan women journalists.
    Because of the hard work of Afghans' home-grown 
journalists, media has become the second most trusted 
institution in that country and support to media is one of the 
great successes of the foreign aid program in Afghanistan.
    This kind of change doesn't happen overnight and it is only 
possible in partnership with USAID, the Department of State and 
legislators like you on this committee. I urge you to include 
language in the committee's Fiscal Year 2020 report to continue 
supporting independent media and Internet freedom programs 
around the world. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairwoman. I thank you. We have so many negative 
stories; it is nice to hear some positive ones, and I thank you 
very much.
    Michele Sumilas.

                    Opening Statement of Ms. Sumilas

    Ms. Sumilas. Madame Chairwoman, Ranking Member Rogers, and 
members of the committee, thank you for this opportunity.
    Bread for the World is a collective Christian voice that 
urges our nation's decision-makers to end hunger and poverty at 
home and abroad. I am so proud to appear before this committee 
where I spent several years serving you and the House of 
Representatives as professional staff.
    I do understand the difficult task before you and 
appreciate the opportunity to share Bread's perspective. Before 
I start my testimony, I would like to lift up those who died in 
the Ethiopian plane crash and take a moment to remember their 
commitment to the people of the world.
    I want to start by commending the chairwoman for her strong 
statement in support of raising the budget caps quickly so that 
regular order can be restored. I also want to thank the 
committee for its unwavering support for foreign assistance and 
for the $20 million global nutrition increase that you 
championed in Fiscal Year 2019.
    Mothers and children will receive life-saving nutrition 
interventions that lay the foundation for an effective and 
prosperous life because of your efforts. But our work is not 
done.
    In Fiscal Year 2020, Bread for the World asks that this 
committee continue to support U.S. global leadership by lifting 
the budget caps and allocating $60 billion to the International 
Affairs Budget. In addition, we ask that you continue your 
strong support for poverty-focused development assistance.
    The burden of malnutrition remains unacceptably high and 
progress slow. Malnutrition underlies 45 percent of all child 
deaths under the age of 5 and puts those who do survive at risk 
of impaired brain development, lower intellectual capacity and 
weakened immune systems. The reason to invest in nutrition 
programs is straightforward as it lays the foundation for human 
health and development, especially during the first 1000 days. 
That is why we ask that $250 million be appropriated to 
nutrition programs in the Global Health Program's account in 
Fiscal Year 2020.
    We also ask for increased investments in nutrition-focused 
implementation research to develop best practices. Malnutrition 
and food insecurity issues not only impact the countries where 
they occur but also have regional impacts.
    In the United States the impact of food in security is seen 
in the faces of migrants seeking asylum at the southern border. 
In the 2017 World Food Program survey of migrants from the 
northern triangle, the majority cited no food as a reason for 
leaving their country. The report states that there is clearly 
a link between food insecurity and immigration. More families 
are arriving at the border from the western highlands of 
Guatemala where we know hunger and malnutrition rates are the 
highest.
    We urge this committee to continue to be part of the 
solution by investing in the root causes of migration, creating 
economic opportunity, building nutrition and strengthening the 
resilience of marginalized communities. We know that investing 
in people rather than physical barriers is a smart and moral 
decision.
    One of the greatest drives of hunger is also protracted 
conflict. My colleagues have talked about the conflict in Yemen 
and its impact but let me just share what is happening to 
children--2 million children under the age of 5 are at risk of 
death from malnutrition in Yemen and 24 million people, or 
double the population of Ohio, need urgent humanitarian aid. 
This crisis is man-made and it is adversely affecting the 
population of Yemen.
    As a person of faith, I applaud Congress on both sides of 
the aisle for calling on the Administration to insist all 
parties to the conflict stop the fighting, support the peace 
process, allow aid workers to reach those in need, and promote 
peace and economic recovery.
    In closing, the United States is an unprecedented spirit 
for good in the world, this committee on both sides of the 
aisle has shown true leadership and provided critically 
important humanitarian health and development assistance over 
the years. Whether motivated by spiritual beliefs or a 
commitment to the common good, your actions bring hope to a 
world in need; acknowledge the dignity and worth of each 
person; and create opportunities for all to grow into healthy, 
productive adults.
    Thank you so for the opportunity today.
    [The information follows:] 
    
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairwoman. Thank you. Yes, thank you.

                    Opening Statement of Mr. O'Keefe

    Mr. O'Keefe. Thank you so much, Chairwoman Lowey, Ranking 
Member Rogers, and members of this subcommittee.
    Catholic Relief Services is the international relief and 
development agency of the Catholic community in the United 
States. We operate in a 110 countries, partner with almost 
2,000 organizations and serve more than 136 million people.
    Based on global needs, we respectfully request that the 
committee increase the International Affairs budget to $60 
billion and fully fund international poverty-reducing 
humanitarian and development assistance.
    I will use my time today to discuss U.S. humanitarian 
leadership and localization in the context of USAID's journey 
to self-reliance. First, thank you, Ranking Member Rogers for 
remembering the four CRS colleagues and other humanitarian 
workers from Save the Children, Care and U.N. agencies who were 
killed in Sunday's Ethiopian Airlines crash.
    CRS commends Congress' steadfast leadership to address 
humanitarian crises. Last year, I saw that leadership firsthand 
in northern Iraq. Thanks to U.S. humanitarian leadership and 
USAID, Christians, Yazidis and other religious minorities are 
returning to their homes and rebuilding their lives. More needs 
to be done, but U.S. diplomacy and humanitarian and development 
resources are turning the tide.
    In the West Bank and Gaza though, our government is 
allowing the tide of poverty and suffering to gather force. The 
Administration has terminated all assistance to support 
Palestinians. Confusion around the Antiterrorism Clarification 
Act has further eroded the ability for even reputable NGOs to 
provide assistance.
    These steps have increased hopelessness and risk regional 
instability. We urge Congress to make it clear that 
humanitarian aid is not in the scope of the Antiterrorism 
Clarification Act and direct that humanitarian funding flow to 
closed programs despite an ongoing and apparently never-ending 
administration review.
    In Venezuela, millions of people face a dire situation and 
are leaving their country. CRS supports local Caritas partners 
in the region through focused technical assistance and 
accompaniment, and we are grateful for the U.S.' commitment to 
respond to this crisis. In the future though, U.S. humanitarian 
assistance to Venezuela and the region must be driven by 
assessed needs and in accordance with established international 
humanitarian principles.
    U.S. humanitarian leadership requires more than the 
allocation of funds. U.S. diplomatic engagement and broader 
political solutions are necessary to alleviate suffering and 
resolve conflict. As a blessed nation, it is our duty to 
promote peaceful and just societies in places such as West Bank 
and Gaza, Venezuela, South Sudan and Iraq.
    We applaud USAID and Ambassador Green in particular for 
aspiring to support countries on their journey to self-
reliance. CRS, in partnership with the U.S. government, 
empowers local leadership, builds local capacity and 
strengthens resilience in communities. The Catholic social 
teaching principle of subsidiarity requires us to pass 
responsibility on to local actors where it belongs.
    As a PEPFAR Track 1 implementer, CRS successfully 
transitioned complex HIV treatment programs in nine countries 
to local faith-based partners who now use national, regional 
and local systems to achieve even better results than we could.
    With the Global Fund's support, we have helped governments 
at all levels to strengthen health systems while attacking 
malaria. After 7 years of CRS' capacity strengthening, for 
example, the government of The Gambia recently replaced CRS as 
the co-principal recipient on a large Global Fund malaria 
grant.
    We have many lessons to share from our own experience 
transitioning assistance to local partners. USAID has set a 
worthy goal, but must provide sufficient time, resources, and 
support for local partners to grow. Paradoxically, helping 
countries along their journey to self-reliance will require 
more short-term funding if it is to yield long term results.
    Pope Francis, in his January 1st World Day of Peace message 
wrote, ``Good politics is at the service of peace.'' We contend 
that good politics, policy and programming are all at the 
service of peace and good development.
    Chairwoman Lowey, Ranking Member Rogers, members of this 
subcommittee, thank you for your commitment to humanitarian 
development assistance and for the good politics you bring to 
U.S. humanitarian and development leadership. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairwoman. Thank you very much. And I know all of us 
in this panel have nothing but praise for the extraordinary 
work you are doing and we express our appreciation.
    Mr. Rogers.
    Mr. Rogers. No questions.
    The Chairwoman. Ms. Frankel.
    Ms. Frankel. I do have to ask. This question I can ask.
    First, to all of you, thank you very much. I am very 
interested in your testimony about having to get more women in 
the media. Could you explain what is the relationship between 
getting women in the media and how does that relate to a better 
life for the community?
    Ms. Bourgault. I think the obvious example is the 
representational value of it for young girls to see women in 
full range of leadership positions, and that is often captured 
in the popular culture in the media. So, we need more women 
experts in the news advocating for the economy, advocating for 
politics, advocating for the environment, advocating for the 
full range of issues that affect the world, and that 
inspirational value is critical and that is when you learn to 
trust your local news and information all the more when it 
reflects back at you the world you hope to see.
    So, to me, that is the most important reason to engage the 
full community in the media, so that you have that 
representational value.
    The Chairwoman. Thank you.
    Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Madam Chair.
    First, Ms. Sumilas, how is David Beckmann? Give him my 
regards, please.
    Ms. Sumilas. I will. We have a board meeting today, so he 
is there with them.
    Mr. Fortenberry. Okay. Good. Wonderful. Thank you.
    Let me turn quickly to you, Mr. O'Keefe. Thank you for 
mentioning the situation in Northern Iraq and the work that is 
being done there. At the behest of the Vice President, I 
travelled there last summer to evaluate the significant funds 
that have been shifted there to the administration's credit to 
try to help the religious minorities who have been decimated by 
the ISIS genocide.
    I walked away with three words in my mind--it is possible. 
The aid has real possibilities. It is urgent. But the real long 
term sustainability factor is security.
    In this regard, I am readying a resolution that calls upon 
the Iraqi central government to integrate Christians and 
Yazidis and religious minorities of other faith tradition, 
particularly minority Muslims into Iraqi security forces with 
some degree of autonomy for the protection of their own areas.
    Now, while this isn't in your purview, I wanted to use the 
moment to leverage an opportunity to speak to this, because if 
we are to achieve the results that you are anticipating and 
make them whole for the long term, preserving Iraq's 
extraordinary ancient tapestry of pluralism which is so 
essential to peace, security has to underlie this.
    So, it is not necessarily a question, Madam Chair, but I 
wanted to use the opportunity to highlight this.
    The Chairwoman. Thank you very much.
    And I want to thank the panel again. As you can see, we are 
all so grateful to you for the important work you are doing, 
and the fact that we are trying to move this panel along does 
not reflect the seriousness and the commitment of your 
important work. So, we thank you very, very much and we look 
forward to working together.
    Ms. Bourgault. Thank you.
    Mr. O'Keefe. Thank you.
    The Chairwoman. The next panel. We are pleased to welcome 
our panelists, and we will begin with Dr. David Patton.
                              ----------                              

                                           Tuesday, March 12, 2019.

 EDUCATIONAL AND CULTURAL EXCHANGES; RESEARCH AND TRAINING FOR EASTERN 
              EUROPE; GLOBAL GAG RULE IMPACTS; GLOBAL FUND


                               WITNESSES

DR. DAVID PATTON, ACTING PRESIDENT, AMERICAN COUNCILS FOR INTERNATIONAL 
    EDUCATION
FRANCOUISE GIRARD, PRESIDENT, INTERNATIONAL WOMEN'S HEALTH COALITION
GAYLE SMITH, CEO, ONE CAMPAIGN

                    Opening Statement of Mr. Patton

    Mr. Patton. Madam Chair, Ranking Member Rogers, thank you 
very much for this opportunity to appear before the 
subcommittee on behalf of the American Councils for 
International Education. We are a non-profit organization that 
administers U.S. government and privately-funded exchanges and 
educational development programs in over 80 countries around 
the world.
    I am requesting today that the subcommittee recommend 
funding for the Fiscal Year 2020 of at least $700,900,000 for 
programs under the Department of State's Bureau of Educational 
and Cultural Affairs or ECA. Further, I ask that funding within 
ECA for Citizen Exchange Programs be at least at the current 
level of $111,860,000. I also ask that funding at a level of $3 
million be recommended for Research and Training for Eastern 
Europe and the Independent States of the Former Soviet Union 
Program or Title VIII program.
    In light of current challenges for the U.S. and our foreign 
policy objectives, region-to-region and people-to-people 
connections have acquired increasing importance in the United 
States. Strengthening U.S. relationships with countries near 
Russia, China, and Iran through educational and cultural 
exchanges is of particular significance and value at the 
moment.
    For decades, the American Councils has administered State 
Department programs that increase mutual understanding between 
the U.S. and the world. These programs benefit both the U.S. 
and the countries on which they focus, and I thank the 
subcommittee for its strong historic support of these 
activities.
    To be effective, U.S. public diplomacy must reach beyond 
English-speaking elites in foreign capitals. The non-Fulbright 
side of the State Department exchanges account does precisely 
that. It provides for some of the most cost-effective and 
universally admired international education programs in public 
diplomacy today.
    The Future Leaders Exchange or FLEX program for Eastern 
Europe and Eurasia and the Youth Exchange and Study or YES 
program for nations with significant Muslim populations were 
created by the Congress and boast today nearly 40,000 active 
alumni, almost all of which are under the age of 40.
    Most recently, we expanded the FLEX program into Central 
Europe where the U.S. needs a strong voice. American Councils 
is also poised to re-launch this program into Uzbekistan as the 
first U.S. NGO to re-enter the country in over a decade.
    These and counterpart programs that place similar numbers 
of U.S. high school and university students overseas to learn 
critical languages like Arabic, Chinese and Russian, are 
preparing a generation of citizens who will better be able to 
deal with the economic and cultural complexities of the 21st 
century and who value leadership, entrepreneurship and the rule 
of law. Alumni of these programs go on to play increasingly 
important roles in government, the private sector and the NGO 
community.
    For these reasons, I ask that the subcommittee include in 
this legislation language in support of programs like FLEX, YES 
and others I have referenced in my written testimony.
    With respect to foreign operations programs, I ask that the 
subcommittee support research and training in Eastern Europe 
and the independent states of the former Soviet Union which 
provides U.S. policy-relevant research on the former Soviet 
Union and its neighboring countries. Without support for this 
type of scholarship, the U.S. risks a future without area 
specialists who can navigate the complicated relationships in 
and around Russia.
    Madam Chairwoman, as you proceed with the decisions in the 
Fiscal Year 2020 bill, I request that you continue to provide 
strong funding for the State Department's Bureau of Educational 
and Cultural Affairs and foreign assistance programs, 
particularly those I have mentioned in this statement. Thank 
you very much for this opportunity.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                    Opening Statement of Ms. Girard

    The Chairwoman. Thank you. Ms. Francoise Girard.
    Ms. Girard. Madam Chairwoman, members of the subcommittee, 
thank you for this opportunity to present facts and evidence to 
the committee about the impact of U.S. foreign assistance and 
funding on the lives of women and girls around the world.
    The International Women's Health Coalition has, for nearly 
35 years, worked to protect and promote the health and human 
rights of women and girls globally. We do this work, in large 
part, through close, long term partnerships with grantee 
organizations around the world. And it is our great honor to 
help amplify the voices of women and girls we partner with and 
their living experiences right here in Washington.
    I am going to speak about the Global Gag Rule. The Global 
Gag Rule is a discriminatory, dangerous, and devastating policy 
that denies women health care, undermines our global health 
investments and forces providers to make heartbreaking choices. 
In early 2017, IWHC launched a documentation effort to capture 
many of these consequences.
    In partnership with local organizations, IWHC has over the 
last two years interviewed those affected by the policy in 
South Africa, Kenya, Nigeria, and Nepal. IWHC's research 
confirms prior findings that the Global Gag Rule decimates 
health care services and harms women. It forces providers to 
choose between taking critical funding for a wide range of 
health services and providing the full spectrum of legal 
reproductive health care to women.
    As clinics lose their funding, contraception, maternity 
care, care for cancer, care for HIV, among other critical 
services, become out of reach. These impacts fall 
disproportionately on the most vulnerable and the most 
marginalized.
    In Kenya, one organization reported having to eliminate 
their community outreach programs due to loss of funding under 
the policy, noting that many patients could now no longer 
afford to seek health care. An organization in Nigeria told us 
they were no longer able to provide free contraception, and 
that in a country where over half the population lives below 
the poverty line, the cost was now prohibitive for many.
    In Nepal, a long-term project focused on strengthening 
health systems to deliver family planning in remote areas was 
forced to shut down early.
    One of IWHC's partner organizations, the Kisumu Medical and 
Education Trust, KMET, based in Western Kenya, detailed their 
dilemma. With USAID funding, KMET has grown its health network 
from 50 to 122 clinics, serving rural areas of Kenya where 
people often need to travel very long distances to access even 
the most basic healthcare. Many of these clinics are the sole 
health provider in their communities.
    The Global Gag Rule puts KMET, and organizations like it, 
in an untenable position: do they forego U.S. funding and scale 
back medical services and close clinics, or do they no longer 
offer rural Kenyan women the full range of reproductive health 
services to which they are legally entitled in their own 
country? Either way, women lose and are left without options.
    Throughout our interviews, we also heard a lot of dismay. 
Dismay at the U.S. government for forcing an ideologically-
driven policy on recipients of foreign aid, often in 
contravention of their own national policies, dismay that the 
U.S. would make abortion, a medical service that is legal in 
the United States harder to access for women in other 
countries. In Nigeria, where maternal mortality rates remain 
extremely high, one interviewee told us, ``It is not American 
women dying, it is Nigerian women that are dying.''
    Chairwoman Lowey, your legislation, the Global HER Act, 
would end this deadly policy. It would make sure that 
organizations cannot be disqualified from receiving U.S. 
funding because they provide legal abortion services with their 
own non-U.S. funding. Passing this language as part of 
appropriations bill would mean that organizations like KMET can 
focus on meeting the medical needs of their population rather 
than on U.S. policy and the whims of Washington.
    Thank you very much for this opportunity to testify.
    [The information follows:]

               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
                     Opening Statement of Ms. Smith

    The Chairwoman. Thank you. Madam Smith.
    Ms. Smith. Oh, thank you, Chairwoman Lowey, Ranking Member 
Rogers, members of the committee, staff, I am here having a 
little bit of nostalgia. I am not testifying on the budget as I 
once did. If I did, I would take two things, one that we in the 
ONE Campaign will join our colleagues in advocating for a 
robust 150 account, but also that we all need to remind members 
of this esteemed body, others in the executive branch, that 
while it may look like a cost-saving measure to cut the foreign 
aid budget, it is truly an expensive proposition over the long 
term.
    Today, I would like to focus on one item in the budget 
which is funding for the Global Fund to Fight AIDS, TB and 
Malaria. And the reason for this is they are heading into their 
sixth replenishment in October. We have got a lot of progress 
and I think we can score a huge victory for the United States 
and for the world, but I think there is some risk that we could 
leave that victory on the field.
    Why should we continue to support the Global Fund? Consider 
the fact that today alone, 5,000 people contracted HIV, nearly 
1,000 of them young women. After 10 years of steady declines in 
malaria, we are seeing an uptick because mosquitoes are 
developing resistance to the insecticides that have been used. 
We all know the threat posed by drug-resistant TB and only 25 
percent of those multi-drug resistant cases are being diagnosed 
and treated.
    We believe that the Global Fund is uniquely positioned to 
take on these challenges. It is the largest funder of both 
malaria and TB and the second largest donor behind PEPFAR. Most 
significant, its financing and influence with national 
stakeholders is leveraged to ensure that those most vulnerable 
in need of services are reached, and by pooling the world's 
resources, they have got even greater impact.
    A few facts about the fund, working with its partners, the 
fund has delivered incredible results in its first 15 years. It 
has helped save 27 million lives, but importantly, it also 
helps low income countries pool resources, allowing them to 
purchase medicines in bulk at a lower cost. For example, this 
saved $205 million in 2017.
    Historically, the U.S. has pledged to provide one-third of 
the Global Fund replenishment. This is intended to leverage 
commitments from other donors and it works. And I can say that 
now as head of the ONE Campaign, but also as having been 
someone who used that number to leverage other donors when I 
was in the Administration.
    In 2016, based on this--this challenge that is embedded in 
the one-third pledge, Japan increased its pledge by 46 percent, 
Italy by 40 percent, and the United Kingdom by 38 percent. The 
Global Fund also encourages countries to increase their 
domestic investments in health so they are not fully reliant on 
donors. Global Fund co-financing requirements led to grant 
recipients committing 41 percent of their--more of their own 
funding to fight AIDS, TB and malaria during the current 
replenishment cycle as compared with the previous. Their target 
is now 48 percent.
    The Global Fund obviously coordinates with PEPFAR and in 
countries where both are present, they do join forces to scale 
up. This year, we will be out there in the U.S., France, 
Canada, Germany, the United Kingdom, Italy and the Netherlands 
and the EU to help the Global Fund achieve its replenishment 
target of 14 billion. We are intent upon using that challenge 
as a way to leverage greater contributions for those countries 
that are asking Congress to send a strong early signal by 
appropriating 1.56 billion for the Global Fund for Fiscal Year 
2020.
    Now, I know this is an increase. We would like an increase 
across the board, Madam Chairwoman as I think all of us would 
adhere. But we honestly believe that this is a case where we 
have got enough progress to show that we can do it, but where 
we also know if the virus is moving faster than we are, we are 
losing and so we want to get that victory over the finish line.
    Thank you very, very much.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairwoman. Thank you. And I do want to say because I 
can't resist, I do remember when Bono and I am sure my 
colleagues remember this when we are----
    Ms. Smith. It is kind of memorable.
    The Chairwoman [continuing]. With George W. Bush travelled 
around the world, and I would say through interacting with 
President George W. Bush, he looked at his work with HIV AIDS 
as probably one of his, if not the major achievement, and that 
trip was forever, forever impressed on his mind.
    The ONE Campaign can be responsible for making George W. 
Bush a hero and certainly it has been an important event in his 
life I know. So I thank you.
    Ms. Smith. Well, if I may just a quick point and I think 
for all members, I think it was that bipartisan support for the 
fight against HIV and AIDS that helped build a foundation of 
bipartisan support that we see today, for examples, in meetings 
like this. And it has been hugely impactful I think not only to 
all of us who care about this, but it sends a really powerful 
signal all over the world. So we are grateful that you are 
keeping up the tradition.
    The Chairwoman. You notice I am going from left to right 
because I can't resist, Francoise, and I do wish that the 
issues about which you are so passionate were equally 
bipartisan because I think in all the traveling I have done and 
so many of us have throughout the world, you see the importance 
of women's health. So I thank you for your testimony. And what 
I can I say, Dr. Patton, I have been an advocate for 
international education and exchanges for my whole life, so I 
thank you.
    I won't ask any questions. I will turn to my good friend, 
Mr. Rogers.
    Mr. Rogers. I have no questions, Madam Chairwoman.
    The Chairwoman. Ms. Frankel.
    Ms. Frankel. I have a question on bipartisanship--I want to 
thank you for opening up. I wanted to ask questions about it. 
Okay, so the Global Gag Rule in terms of the administrations, 
it has quite been on and off depending on the president since 
Ronald Reagan, is that correct? And then my understanding is I 
think it has been expanded even under this particular 
Administration. Can you relate the differences that you have 
observed in terms of being on and off and then that impact, 
what you see as the differences and then how this expansion has 
changed things?
    Ms. Girard. Yes. So you are absolutely right, it has been 
on and off since 1984, since President Reagan, and it used to 
be applied to the family planning budget line which is about 
currently $600 million. Under this Administration, it has been 
expanded to all global health assistance, so now it conditions 
$9 billion more or less of U.S. foreign assistance every year.
    And what it says is that foreign non-governmental 
organizations that take the money, U.S. government money in 
global health must now agree not to speak at all about 
abortion, must agree that in their clinics, there will be no 
referrals, there won't even be a pamphlet in the clinic telling 
women that they may avail themselves of abortion. And this is 
even in countries where abortion is legal such as South Africa.
    So it interferes with the practice of medicine obviously, 
but what it has also done is this has actually undone a lot of 
the investment that we have met in the United States for 
integration of services. You know, in the communities that I am 
describing in Western Kenya, there is only one clinic, let us 
say in a 40-mile radius. That clinic has to be a one-stop shop. 
It has to offer everything, HIV, maternity care, contraception, 
et cetera, and those clinics now have to make the choice, do 
they agree to be gagged and leave women basically to quacks and 
to services that are not safe or refuse the money and therefore 
lose the ability to serve as many women as they would like to.
    So it is harmful either way. And in this context, what we 
see is that a lot of young women now are presenting in Western 
Kenya at clinics with injuries from unsafe abortion, it is 
starting again because that is the immediate effect is that as 
soon as that happens, people walk away from legal safe abortion 
services and they turn to the clandestine services. So it is 
extremely damaging.
    And it undoes our investment, you know. We spend literally 
billions of dollars providing integrated care, it doesn't make 
a lot of sense.
    The Chairwoman. Mr. Fortenberry.
    Mr. Fortenberry. Yes, ma'am. Thank you, Madam Chair. I 
would like to simply pass on, but frankly, it is impossible to 
have a spirit of bipartisanship around this particular issue, 
which is significant in that it reflects the deep cultural and 
philosophical divide in this country. And the whims of 
Washington are a reflection of the collective values of this 
country and the people they elect. So for those of us who 
cannot in good conscience subsidize abortion or ask our people 
who we represent to subsidize abortion either here or in 
foreign accounts, this conflicts with them.
    So we look forward to ways in which we can constructively 
work together to help women, particularly with maternal care, 
to help children, to be a participant in all the extraordinary 
things that we do through our foreign service accounts.
    Ms. Girard. With all due respect, since 1973, the U.S. has 
not funded abortions abroad.
    Mr. Fortenberry. I don't think we are in a debate--I think 
we are--I don't think we are in a debate.
    Ms. Girard. No.
    Mr. Fortenberry. Thank you.
    The Chairwoman. I would just say to my good friend and 
colleagues, I think it is important--important to clarify what 
you are going to do, that the United States has never paid for 
abortion.
    Ms. Girard. That is correct, yes, yes, that is not the 
point of the Global Gag Rule.
    The Chairwoman. Our fourth panel, please come forward. She 
is good though. Welcome. Our fourth panel is Ms. Candace 
Debnam, co-chair of the Basic Education Coalition board of 
directors, Ms. Emily Rice, international president of Kiwanis 
International's Key Club, and Ms. Caryl Stern, president for a 
very long time and chief executive officer of UNICEF USA. I 
appreciate you being with us today. Thank you.
                                           Tuesday, March 12, 2019.

   BASIC EDUCATION; MATERNAL AND NEONATAL TETANUS; UNICEF AND CHILD 
                            SURVIVAL FUNDING


                               WITNESSES

CANDACE DEBNAM, CO-CHAIR OF THE BASIC EDUCATION COALITION'S BOARD OF 
    DIRECTORS AND EXECUTIVE DIRECTOR OF SCHOOL TO SCHOOL INTERNATIONAL
EMILY RICE, KEY CLUB INTERNATIONAL PRESIDENT, KIWANIS INTERNATIONAL
CARYL STERN, PRESIDENT AND CEO, UNICEF USA

                    Opening Statement of Ms. Debnam

    Ms. Debnam. Thank you, Chairwoman Lowey and Ranking Member 
Rogers and members of the subcommittee for inviting me here 
today. I am honored to testify on behalf of the Basic Education 
Coalition, a group of leading U.S.-based organizations and 
academic institutions working together to promote and expand 
equitable access to quality education. My name is Candace 
Debnam, I am the co-chair of the coalition's executive board of 
directors as well as the executive director of School-to-School 
International.
    We are extremely grateful for the subcommittee's continued 
support for international education. In addition to providing 
children with literacy, numeracy and critical thinking skills, 
basic education lays the foundation for sustainable economic 
growth, poverty alleviation, social stability and participatory 
democracy. To enhance U.S. foreign assistance efforts and 
improve education opportunities for children in need, we 
respectfully request this subcommittee provide $925 million for 
Basic Education in the school year 2020 with at least 800 
million provided as bilateral development assistance.
    U.S. bilateral basic education programs focus on increasing 
equitable access to education, providing early learners with 
foundational skills and preparing youth for successful careers. 
Thanks to the support of this subcommittee, USAID's programs 
reached over 100 million learners and more than 40 countries 
between 2011 and 2017 including over 22 million children living 
in crisis and conflict settings.
    From my experience in this sector, this work has the power 
to dramatically shift the trajectory of individual lives as 
well as communities and countries more broadly. We have made 
great progress to date toward the goal of education for all. 
However, the need to continue and renew our commitment to this 
work is paramount.
    Two-hundred and sixty-two million children and youth are 
still out of school and millions more are not learning the 
basic skills they need. By expanding access to quality 
education, you will provide these young people with the 
opportunity to lift themselves and their families out of the 
inter-generational cycle of poverty.
    In addition to the benefits that children themselves 
receive from access to quality education, strong national 
education sectors and programs are essential to global economic 
growth. As populations around the world continue to grow, U.S.-
funded education programs will permit stability and expand 
access to global markets. Far too often, hardships such as 
poverty, displacement, disability and discrimination inhibit 
children's ability to access a quality education. More needs to 
be done to ensure that access to education is equitable across 
all levels.
    All children, regardless of gender, race, ethnicity or 
place of birth deserve the opportunity to learn and make a life 
for themselves. With protracted conflicts lasting years and 
internally displaced people and refugees, displaced for over a 
decade on average, generations of young people are at risk of 
missing out on the opportunity to fulfill their potential.
    Through formal and non-formal education programs, we can 
provide children and youth with a sense of hope and normalcy 
when their lives have been disrupted, while simultaneously 
promoting their psychological well-being and cognitive 
development.
    Congressional support for international education is vital 
if we want to truly achieve sustainable development in 
countries where we work. Thanks to the leadership of Congress 
and the passage of the READ Act, we are positioned to take our 
education development work to the next level. A quality 
education for all is the bedrock of societal progress, and the 
benefits of our investments now will be reaped by generations 
to come. The Basic Education Coalition looks forward to working 
with Congress to ensure that education remains a pillar of our 
foreign assistance and that the U.S. government strategy on 
international basic education is a success.
    Together we can help alleviate poverty, strengthen 
societies, foster stability and spur economic growth, both 
abroad and here at home. Thank you again for inviting me to 
testify before the subcommittee and for your continued support 
for international basic education.
    [The information follows:]

               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
                     Opening Statement of Ms. Stern

    The Chairwoman. Thank you. Madam Stern.
    Ms. Stern. Chairwoman Lowey, Ranking Members Rogers and 
members of the Committee, it is a pleasure to be in front of 
you, and I greatly appreciate this opportunity to testify and 
represent the hundreds of thousands of supporters to UNICEF 
USA.
    I respectfully ask the subcommittee to provide $132.5 
million as the U.S. government's fiscal 2020 voluntary 
contribution to UNICEF's core resources. I do so in response to 
my dismay, frustration, disappointment yesterday to the 
president's proposed budget which omitted UNICEF entirely.
    This level of funding maintains the $132.5 million to 
UNICEF's core resources as the same level provided in the 
Fiscal Year 2019 Omnibus Consolidated Appropriations Act.
    I have submitted my written testimony and will just share a 
few thoughts with you at this moment. You know, we are so 
appreciative to the traditional support of the American people 
to the world's children. UNICEF works in 190 countries and 
territories yesterday, today, tomorrow and UNICEF USA in 
particular prides itself on working closely with the U.S. 
government. And yet, as we sit here today, 15,000 children will 
die of causes we know how to prevent, but we are just not 
getting to them in time.
    Fifty million kids are on the move, twenty-nine million of 
them forcibly removed from their homes sleeping on rocks 
tonight instead of in beds, losing out on their childhood, 
losing out on an education, if we do nothing, we are about to 
lose an entire generation.
    I have just come back from CAR, the Central African 
Republic. It is a country the size of Texas. Three quarters of 
it is in conflict, 600,000 people have been internally 
displaced, one in three children is severely malnourished. I 
spent my last day there with child soldiers, former child 
soldiers who were being rehabilitated in a UNICEF program. I 
heard their stories. They told me of having guns put to their 
heads being told to kill or be killed at the ages of 9 and 10. 
I listened to what the program was like, and when I asked them 
what compelled them to seek the help of UNICEF, why they were 
completing what was a treacherous program, what was difficult 
for them, I got three of the same answers from every child I 
spoke to.
    First, they are there because they really want to be part 
of a better world, very sincerely. I heard that from all of 
them. Second, they told me the most difficult thing is 
forgiving themselves for the acts they were forced to commit. 
And third, to a tee, every one of them said we want the world 
to see us for what we once were and what we still are, 
children, children first, children with no word before or after 
it, just children.
    I am proud to see what UNICEF has done there. I am proud 
and appreciative of USAID's support especially in Central 
Africa Republic where I saw the logistics, the protection, the 
nutrition, all of the work and the support being made possible 
by your support.
    I thank you for this opportunity to testify. I will end 
just by saying, we don't get to pick where we are born. We 
wouldn't pick a poverty zone, a conflict zone, we wouldn't pick 
malnutrition, we wouldn't pick losing out on an education. We 
would just be children. And as the adults in the world, we need 
to do better by them. Thank you.
    [The information follows:]

               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
                     Opening Statement of Ms. Rice

    The Chairwoman. Thank you. Ms. Rice.
    Ms. Rice. Madam Chairwoman, I am Emily Rice, the 2018-19 
volunteer president of Key Club International, Kiwanis 
International's service organization for high school students. 
I am a high school senior from Minnesota and it is a privilege 
to be the first president of Key Club International to appear 
before this committee. Key Club International is a high school 
program of Kiwanis International, consisting of over 266,000 
members in more than 5,200 clubs in the United States and 37 
other nations.
    I am appearing on behalf of Kiwanis to provide testimony in 
support of the Kiwanis/UNICEF program to eliminate maternal and 
neonatal tetanus. We are seeking the support of this committee 
to recommend in Fiscal Year 2020 $2 million for maternal and 
neonatal tetanus.
    Tetanus is a preventable disease that kills one baby every 
15 minutes. This is a terrible disease in which human contact 
exacerbates the baby's pain. A mother's touch hurts, leaving 
the baby to writhe in agony upheld for days until he or she 
dies. In response to this tragic disease, Kiwanis launched the 
Eliminate Project. Kiwanis eliminating maternal and neonatal 
tetanus, a global campaign that will save or protect more than 
61 million mothers and newborns.
    In partnership with UNICEF, Kiwanis is targeting the 
poorest, the most underserved women and children on earth with 
proven and cost-effective vaccine interventions. The Eliminate 
Project is also paving the way for other interventions that 
will boost maternal health and child survival.
    As part of this campaign, Kiwanis International committed 
to and has raised $110 million to immunize women in countries 
where MNT is still a major health threat. Key Club 
International is playing an important part in this effort. 
There are thousands of Key Club students my age in the United 
States and around the world raising funds for the Kiwanis and 
UNICEF effort to eliminate MNT.
    We are committed to this cause just like our adult members 
of Kiwanis. I have been participating in the MNT Eliminate 
Project with my home Kiwanis Club, Key Club and Builder's Club 
for the past five years. Every year, we as a group review the 
effects, hardships and tragedies that occur due to Maternal 
Neonatal Tetanus and it pains me to hear the stories of mothers 
who have lost their children due to MNT.
    When woman are vaccinated for tetanus and learn about 
maternal health, they become empowered to take control of their 
well-being and that of their newborns. We believe these women 
matter. They deserve to give birth to healthy babies and their 
babies deserve to achieve their full human potential.
    On behalf of Kiwanis International and the Kiwanis 
Children's Fund, I want to thank the committee for its support 
in the Fiscal Years of 2018 and 2019 appropriations for the $1 
million in funding for MNT through public-private partnerships 
to prevent tetanus in newborn children. I hope that the 
committee will include $2 million for the MNT for the same 
purpose in the Fiscal Year 2020 State Foreign Operations 
Report.
    I also want to thank you for the committee's past and 
continuing support of our first global campaign for children, 
ending iodine deficiency disorders. We believe we have a very 
effective partnership with UNICEF and urge you to support 
UNICEF USA's for their core resource budget of $132.5 million. 
We also support funding for the maternal and child health 
account at a level of $900 million. The maternal neonatal 
tetanus elimination plans are in place. Countries are ready for 
implementation, all that remains is one final push for funding. 
One push to rid the Earth of this devastating disease.
    Madam Chairwoman, as high school students here in the 
United States, we are doing our part. Won't you help us boost 
our efforts by recommending $2 million within the global health 
maternal and child health account for the Kiwanis UNICEF 
efforts for the elimination of maternal and neonatal tetanus? 
Thank you for your consideration.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairwoman. Thank you. And thank you for your 
involvement, for your commitment, and for coming to Washington 
and being so very eloquent. I am sure we will respond 
accordingly. Thank you. Thank you very, very much.
    Candace, as you know, I have been a strong, strong advocate 
for basic education. Shockingly, the Fiscal Year 2020 budget 
request is only $299 million for basic education. I am not 
going to take it very seriously, but I think we should all 
understand what a 62 percent decrease from current levels can 
do, what is the impact on the world, not just women, children, 
families?
    Ms. Debnam. Yes. Yes, it is a great point. I am glad to 
hear that this is something you are taking with a grain of salt 
as you consider the funding in the coming year. It will have 
devastating effects globally as well as in the U.S. A cut of 
that--a reduction of that amount will decrease both the 
opportunities of children to fulfill their human potential, 
which I think is a vital goal that we should all carry forward.
    It will also have an economic impact here in the U.S. and 
internationally. Much of the economic power of the U.S. comes 
from developing--purchases from developing countries and this 
is an opportunity that education helps us build. So I think 
that we--it is both going to have devastating effects to the 
children that are affected day-to-day by a lack of opportunity 
to learn, basic skills like literacy and numeracy and socio-
emotional development, but it is also going to be impacting 
citizens here in the U.S. as well.
    The Chairwoman. Thank you very much. Mr. Rogers.
    Mr. Rogers. It is a particularly powerful presentation. 
Thank you. And we have got a new star on hand here. Emily Rice, 
what a good job you did.
    Ms. Rice. Thank you.
    Mr. Rogers. And this is not the easiest place in the world 
to be at ease, but you have great poise. Great work.
    Ms. Rice. Thank you so much.
    Mr. Rogers. I yield. Thank you.
    The Chairwoman. Ms. Frankel.
    Ms. Frankel. Sorry.
    The Chairwoman. Well, should I go to Mr. Fortenberry first 
and come back to you?
    Ms. Frankel. Yes, that would be good.
    The Chairwoman. Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Madam Chair. Is it Miss Denam? 
I am sorry.
    Ms. Debnam. Debnam, yes. That is all right.
    Mr. Fortenberry. Debnam. I am sorry I missed your 
presentation but I will take the Chair's word that it was 
uplifting, so thank you. Ms. Stern, I walked in the midst of 
yours. I have met with child soldiers in Western Africa. And in 
their presence, seeing the struggle to go from being withdrawn 
to being able to project their heart's desires was made very 
real for me, so this haughtiness, standoffishness because of 
the deep wound in the soul and the scars in these children's 
psyche are very powerful.
    And the only reason I say this is because here we are as a 
government doing--we were subsidizing that particular program 
and this was after the--in Liberia, after their war. Other 
countries run around and build things, build big, shiny new 
stuff and attract the possibilities of those peoples, but the 
United States is digging deeper in trying to heal people from 
deep, deep wounds and scars like this.
    So I think it--a lot of times in these hearings, we are 
asking for more and talking about this or that problem, but 
sometimes we have got to go back and reflect on what we have 
done and that was a beautiful gift for me personally to witness 
again the U.S. subsidizing a group of young boys and a 
spiritual mentor in trying to return them to some basic 
humanity, so thank you very much for your impressive and 
heartfelt comments. I appreciate it.
    Ms. Stern. Thank you very much.
    Mr. Fortenberry. One more thing, Madam Chair. I have to 
commend Emily as well if I could turn now. I was in The Key 
Club and I think Mr. Rogers is right. This would have been 
highly intimidating to sit here at your age. Are you from 
Minnesota? Did I read that correct?
    Ms. Rice. I am, yes.
    Mr. Fortenberry. Okay. Who is your Congress member? Do you 
know? Where do you live in Minnesota?
    Ms. Rice. Oh, District 5.
    Mr. Fortenberry. Who is the Congress member? Oh, that is 
okay. Well, it is good you don't know because they should be 
very aware of you potentially running against them. It is all 
right. Thank you for your excellent presentation. We appreciate 
it.
    The Chairwoman. Ms. Frankel.
    Ms. Frankel. First of all, thank you for being here. Kudos 
to you, Emily, again for----
    Ms. Rice. Thank you.
    Ms. Frankel. You are in high school. That is amazing. Very 
good. Ms. Debnam--is that how you say that name, am I correct?
    Ms. Debnam. You are.
    Ms. Frankel. So I want to ask you--there is research that 
shows that girls between the ages of 10 and 19 are three times 
more likely than boys to be kept out of schools, particularly 
in countries of conflict. Could you--from your point of view, 
what could be gained if we could get--keep more of these girls 
in school?
    Ms. Debnam. Right. And I think that is also a great 
question for you as well, but----
    Ms. Frankel. Emily can answer it.
    Ms. Debnam. Go ahead.
    Ms. Stern. I would just say that there is a direct 
correlation girls in school--first of all, healthy mom is 
healthy child. So we start with that. Educated mom is educated 
child. So that is the next phase. Girls that stay in school are 
much less likely to be forced into early marriage. They are 
much more likely to interrupt that basic cycle of poverty 
because education really is the best tool in the arsenal for 
that. They are also more apt to bring their communities 
together. Their life span is lengthened. I mean on every single 
metric, you will see marked improvement of girls who are 
educated.
    Ms. Frankel. Yes.
    The Chairwoman. As you all know, this has been a passion of 
mine forever, so we will make sure that the number that has 
been proposed by misinformed people in the Administration will 
not stand, and we will continue to make sure that girls are 
educated to the best of our ability. Thank you very much to 
this panel. We appreciate all your good work.
    Welcome. Another outstanding panel. This is really one of 
my favorite days because you are meeting such good, good, 
aggressive, active people who are really sending important 
messages. And hopefully we can respond appropriately. Our fifth 
panel is Mr. Jeremy Ben-Ami, president of J Street; Mr. Chris 
Collins, president of the Global Fight Against AIDS, 
Tuberculosis, and Malaria; and Dr. Joanne Carter, executive 
director of RESULTS. Thank you.
                              ----------                              

                                           Tuesday, March 12, 2019.

 US AID TO ISRAEL, US ASSISTANCE BENEFITING THE PALESTINIAN PEOPLE, US 
FUNDING FOR UNRWA AND ROBUST APPROPRIATIONS OVERALL FOR FOREIGN AID AND 
  DIPLOMACY; THE GLOBAL FUND TO FIGHT AIDS, TUBERCULOSIS AND MALARIA; 
BASIC EDUCATION, INCLUDING THE GLOBAL PARTNERSHIP FOR EDUCATION, GLOBAL 
  HEALTH, INCLUDING THE GLOBAL FUND, BILATERAL TB, MATERNAL AND CHILD 
                       HEALTH, GAVI AND NUTRITION


                               WITNESSES

JEREMY BEN-AMI, PRESIDENT, J STREET
CHRIS COLLINS, PRESIDENT, FRIENDS OF THE GLOBAL FIGHT AGAINST AIDS, 
    TUBERCULOSIS AND MALARIA
DR. JOANNE CARTER, EXECUTIVE DIRECTOR, RESULTS EDUCATIONAL FUND

                    Opening Statement of Mr. Ben-Ami

    Mr. Ben-Ami. Thank you very much, Chairwoman Lowey, Ranking 
Member Rogers, and other members of the subcommittee, for this 
opportunity to provide the pro-Israel, pro-peace movement's 
views on U.S. assistance for fiscal 2020 to our ally Israel, 
the Palestinian people and to other partners around the world.
    We greatly appreciate how the leaders and the members of 
this committee have worked together for many years on a 
bipartisan basis to ensure robust appropriations in each of 
these areas. American assistance to Israel including 
maintaining Israel's qualitative military edge is an important 
anchor for the enduring U.S.-Israel special relationship and 
any viable peace process, we will have to provide Israel with 
the confidence and assurance to move forward on a solution to 
the Israeli-Palestinian conflict, a two-state solution based on 
land for peace.
    J Street strongly urges the subcommittee to appropriate 
$3.8 billion in security assistance for Israel in fiscal 2020 
in accordance with the 2016 MOU you agreed to under President 
Barack Obama. Just as ensuring the security of Israel is a 
vital American interest so is restoring and maintaining robust 
U.S. assistance benefiting the Palestinian people through both 
bilateral aid and funding of the United Nations Relief and 
Works Agency also known as UNRWA.
    J Street therefore urges you to include in fiscal 2020 
appropriations not less than $360 million from the migration 
and refugee account to the made available to UNRWA and not less 
than $225 million in economic support funds for assistance to 
the West Bank and to Gaza. U.S. assistance benefiting the 
Palestinian people has served as an essential component of 
efforts by lawmakers and administrations of both parties to 
enhance security and quality of life for both Palestinians and 
Israelis.
    There is broad consensus in Israeli and U.S. security 
circles that the essential humanitarian, health, and education 
services provided by such aid in the West Bank and Gaza and in 
the case of UNRWA, in neighboring countries, is critical to 
fighting the depravations that exacerbate suffering, 
instability, and violence.
    We greatly appreciate the efforts being undertaken right 
now to find a workable fix to the unintended statutory hurdles 
preventing bilateral aid from flowing. Yet the most significant 
barrier to ensuring the crucial U.S. assistance reaches the 
Palestinian people is the Trump administration's decision to 
indefinitely cut off such aid and end U.S. contributions to 
UNRWA.
    These cuts are having a devastating impact, defunding food 
assistance services for tens of thousands of families, clinical 
breast cancer treatment for thousands of women, preventive and 
nutritional health services for thousands of children and their 
caregivers, and youth engagement for over 50,000 young people 
intended to stem radicalization.
    Top Israeli security experts have repeatedly warned that 
these cuts will undermine Israeli security by deepening Gaza's 
humanitarian crisis and further destabilizing the situation in 
the West Bank. Former IDF spokesperson Peter Lerner wrote, ``In 
our region, poverty has been a breeding ground for radical 
recruitment, violence and terrorism. Hardballing the 
Palestinians into submission is likely to blow on Israel's 
doorstep.''
    Yet the Administration has ignored these warnings and those 
conveyed by Congressman David Price in a recent letter he co-
authored with Congressman Welch and Adam Smith also signed by 
Congresswoman Barbara Lee and more than a hundred of their 
colleagues urging the administration to abide by Congress' 
intentions and restore this vital assistance.
    That is why in addition to including a robust appropriation 
for this aid, J Street also urges the subcommittee to request 
the inclusion of directive bill language requiring the 
Administration to actually disburse these funds within 60 days 
of bill enactment. Lastly, the same security, strategic, and 
moral considerations in forming our support for generous U.S. 
assistance to Israel and the Palestinian people hold true when 
it comes to U.S. aid and diplomacy around the world.
    J Street therefore urges the subcommittee to ensure robust 
overall funding for global U.S. assistance, State Department 
personnel and operations, financial commitments to multilateral 
organizations, and related programming supporting peace and 
diplomacy. Thank you again for this opportunity to testify. I 
welcome and look forward to the opportunity to answer any 
questions you may have.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                    Opening Statement of Mr. Collins

    The Chairwoman. Thank you. Mr. Collins.
    Mr. Collins. Good morning, Chairwoman Lowey and Ranking 
Member Rogers, and all the distinguished members of the 
subcommittee, thank you for this opportunity. My name is Chris 
Collins. I am president of Friends of the Global Fight Against 
AIDS, Tuberculosis, and Malaria.
    Thank you, Madam Chairwoman and the full subcommittee, for 
your ongoing support over many years of America's leadership in 
the fight to end the world's deadliest epidemics. Today, I am 
here specifically to thank you for your support of the Global 
Fund to Fight AIDS, Tuberculosis, and Malaria and to request 
continued U.S. leadership in supporting the Global Fund.
    You may hear some similar comments as you heard from Gayle 
Smith, but at least our facts are consistent, so that is the 
good news. This year Congress has a unique opportunity to 
advance and accelerate the end of these three terrible 
epidemics. The Global Fund is the world's largest global health 
financer. Since its creation in 2002, Global Fund-supported 
programs and its partners have saved the lives of over 27 
million people.
    This accomplishment includes helping to cut AIDS-related 
deaths in half since its peak in 2005 and contributing to a 37 
percent decline in TB deaths and a 60 percent decline in 
malaria deaths since 2000. The Global Fund really is the great 
leverager in U.S. global health investment. By law, we can only 
provide 33 percent of total Global Fund resources leveraging 
commitments from other donors.
    And in addition, our investments catalyze increased 
domestic health investments in affected countries who commit--
whose commitments have increased 41 percent over the last 
three-year cycle. Also, by strengthening local health 
infrastructure, the global health helps--the Global Fund helps 
to prevent emerging epidemics from growing out of control and 
spreading. But the Global Fund and its partners still face 
significant challenges in ending these three epidemics.
    Seven thousand adolescent girls and young women are 
infected with HIV every week. Over 40 percent of Africa's 
population is under 15, so scale up of HIV prevention and 
treatment for young people is imperative. This year, the Global 
Fund is holding its sixth replenishment to put the world back 
on track to end the epidemics of AIDS, TB, and malaria, the 
Global Fund Secretariat projects that a minimum of $14 billion 
is needed for the three-year replenishment cycle.
    At the same time, the Global Fund is asking recipient 
countries to also increase their own investments by 48 percent 
over that period. To continue our leadership and encourage 
other donors to increase their investment, Friends ask for a 
U.S. appropriation to the Global Fund of $1.56 billion in 
Fiscal Year 2020. We are also requesting language like that 
included in the Senate Fiscal Year 2019 State Foreign 
Operations report noting the expectation that the subcommittee 
will maintain this funding level through the three-year 
replenishment cycle.
    Together, the requested funding level and the report 
language will send an unequivocal message to other donors that 
the U.S. will maintain its leadership on the Global Fund, 
encouraging other donors to once again step forward with 
increased pledges. A $14 billion replenishment along with those 
increased domestic investments will lead to a reduction in the 
number of deaths from these diseases by half, saving over 16 
million lives.
    Friends also encourages the subcommittee to increase 
funding in U.S. bilateral global health programs which all work 
synergistically with the Global Fund and that includes, of 
course, PEPFAR, the President's Malaria Initiative, and the 
USAID Tuberculosis Program.
    As you know, yesterday, the Administration proposed 
devastating cuts to the Global Fund and our bilateral global 
health programs. The proposal included cutting our three-year 
contribution of the Global Fund by a billion dollars and 
reducing the U.S. share of Global Fund support. So this 
proposed budget is more than just a funding cut. If enacted, it 
would signal a full-scale retreat in U.S. global health 
leadership. Part of our job now is to educate other Global Fund 
donors that the Administration's budget will not, in the end, 
represent the U.S. commitment to the Global Fund in the coming 
replenishment. I am very happy that that decision rests with 
you. Thank you, again, very much for this opportunity.
    [The information follows:]

               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
                    Opening Statement of Ms. Carter

    The Chairwoman. Ms. Carter.
    Ms. Carter. Thank you. Madam Chair, Ranking Member Rogers, 
and members of the subcommittee, RESULTS is a movement of 
passionate, committed advocates working to end poverty and on 
behalf of our grassroots in all 50 states, I just want to thank 
you for your incredibly important work to protect and increase 
effective and life-saving investments. So I am grateful for the 
chance to share some key opportunities where we believe the 
committee's continued support could have an enormous impact.
    You know, as we just discussed, nowhere has your leadership 
been stronger than for basic education. So I would say first, 
the Global Partnership for Education's new three-year strategy 
if fully funded will put 25 million more children in school in 
the world's poorest countries and the U.S. contribution of $125 
million will be key to making this a reality.
    We also support the committee to provide full funding for 
USAID's basic education programs. I would also ask you to 
continue to monitor the implementation of USAID's new education 
policy because we are concerned that the policy leaves the door 
rather wide open for supporting for-profit, fee-charging 
private schools. And for us, this is not a question of private 
versus public, but it is rather about protecting the enormous 
progress we have made in abolishing school fees as a huge 
barrier to education access in poor countries, especially for 
girls and the poorest kids.
    Regarding the Global Fund to Fight AIDS, TB, and Malaria, 
you heard from Gayle Smith and from Chris Collins about the 
critical opportunity about the replenishment, I just want to 
really make two points or kind of emphasize two points. First, 
the data shows us there is literally no option for a 
maintenance scenario against these infectious diseases.
    We either invest to accelerate or we are going to lose 
ground. You know, as you have heard, drug resistance literally 
threatens to sweep away the gains that we have made and the 
fact that every single day, a thousand adolescent girls and 
young women are getting infected with HIV is just one example 
and a horrifying indictment of our failure to reach those who 
are most vulnerable.
    But a successful replenishment of $14 billion can 
fundamentally shift that trajectory. We would cut deaths by 
over 50 percent and we would cut new infections by over 40 
percent, which is rather remarkable. And the other thing I 
would say is I was just at the preparatory meeting for the 
replenishment in India and other donors are watching very 
carefully for signals from the U.S. So support from this 
committee of $1.56 billion will be a hugely important signal to 
other donors and can leverage billions more in resources for a 
successful replenishment in October.
    I would also just say that USAID plays critical role 
alongside the Global Fund in fighting tuberculosis which has 
now surpassed HIV as the single biggest infectious killer in 
the world. Last September, world leaders endorsed a bold target 
to find and treat over four million people that are being 
missed every year that get sick with TB being missed by their 
health systems. And USAID Administrator Mark Green announced an 
exciting new Global TB accelerator to better track and drive 
the impact of our bilateral TB funding and to invest directly 
in local organizations.
    I would say a big thank you to this committee for providing 
$41 million in an increase in TB funding for Fiscal Year 2019, 
and I would say with USAID's strong focus, the new tools that 
we have and these ambitious but achievable targets, I would 
urge the committee to provide $400 million for TB for Fiscal 
Year 2020 to really get ahead of this disease.
    And then finally I just ask the committee and support you 
to continue the life-saving support for U.S. investments to end 
preventable maternal and child deaths by providing $900 million 
for maternal and child health programs including $290 million 
for Gavi, the Vaccine Alliance and $250 million for USAID's 
nutrition programs that you heard earlier from Michele Sumilas 
about.
    And I would also urge the committee to engage with USAID on 
how the child and maternal survival coordinator position can be 
strengthened rather than eliminated, and finally just thank you 
all for your leadership on these issues and we are really 
committed to working with you to advance and protect these 
programs. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairwoman. I must say that this is one of the best 
days of this committee, because I get an opportunity to 
interact with people who are spending their whole careers just 
trying to do good things and make this a better world.
    And so I thank you all and I just want to say, Jeremy, I 
remember being on the White House lawn when Yasser Arafat was 
shaking hands with Yitzhak Rabin, and we have been working on 
this for a very long time and I certainly don't think that 
withdrawing the money from the West Bank and Gaza, making sure 
it is going to the right causes, making sure it is going to 
help the people I think is essential, but I know of your 
important advocacy and I do hope we can continue to work 
together.
    It has been a long time, I have been in this Congress 
working for two states for two people, and we have no choice 
but to continue our advocacy and hopefully we will see that 
day. So I just want to thank you and thank all who are here 
today. Mr. Rogers.
    Mr. Rogers. Thank you for your testimony. Thank you for 
your service. I yield.
    The Chairwoman. Ms. Frankel.
    Ms. Frankel. Thank you all for being here. So I want to--is 
it Ben-Ami, is that how you say that? Thank you. I want to ask 
you a question after I read you something. This has to do with 
the Anti-Terrorism Clarification Act. I am sure you are 
familiar with that. So it forces the Palestinian Authority to 
choose between accepting U.S. funding or being liable to 
lawsuits to terrorist attacks in the U.S. courts. It is my 
understanding that now the Palestinian Authority said they 
wouldn't even accept----
    Mr. Ben-Ami. Any funding, right.
    Ms. Frankel. Any funding. So I guess I really--so I am only 
allowed to ask one question, but do you think the law should be 
changed to allow for humanitarian aid or how do we get around 
that to provide the humanitarian aid and to allow for money to 
go for security?
    Mr. Ben-Ami. Thank you for that question and thank you as 
well for the chair's remarks and her commitment to these 
issues. It is a bipartisan priority, to find a fix to ATCA, 
which is the statute that was passed in October and has 
resulted unintentionally I believe in these complications.
    The aid that is being prevented is both American assistance 
to security, training of the Palestinian Security Forces as 
well as humanitarian and other economic support programs. The 
solution is being sought on a bipartisan basis in both houses 
of Congress because I think there is a recognition it is an 
American national interest and an Israeli security interest as 
well as a humanitarian interest to find a resolution to this. 
So there is a lot of work going on in other committees to try 
to figure out a way out of this, and I hope that there is a 
solution that can be found soon.
    The Chairwoman. Before I turn to Mr. Fortenberry, I think 
it was a memorable day, but it was Mr. Arafat and Mr. Rabin, 
and I think I did not say that. I am just thinking right now 
what I said, so I wanted to clarify because that was such an 
extraordinary opportunity for me being in the audience, and so 
much of my career, as yours has, is trying to bring about a 
peaceful resolution, two states for two people. I wouldn't want 
to change history with the wrong answer.
    Mr. Ben-Ami. And I was there as well with you.
    The Chairwoman. I remember that very well. So thank you.
    Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Madam Chair.
    Just briefly, Dr. Carter, do you know Dr. Frances Moore 
from Bellevue, Nebraska?
    Ms. Carter. I don't.
    Mr. Fortenberry. Well, of course she is your biggest----
    Ms. Carter. Oh, yes, of course, Fran Moore, yes.
    Mr. Fortenberry. Yes, Fran, is she here? I wouldn't be 
surprised if she was here because she is your biggest advocate. 
And all of us have constituents who are highly engaged with us 
and you should give Frances the gold star reward from RESULTS.
    Ms. Carter. Well, if they are watching I will let them 
know. And I would say she is also a huge admirer of yours and 
really grateful for your long-time support on many, 
particularly--health issues.
    Mr. Fortenberry. Thank you.
    Ms. Carter. Thanks for your leadership.
    The Chairwoman. I want to thank you again, this 
distinguished panel. As I have said all day, this is one of my 
favorite times because there are so many good people out there 
doing good work. And it is always disappointing that we can't 
solve all the problems today. But thank you so much for your 
appearance.
    Ms. Carter. Thank you.
    The Chairwoman. Thank you again to another very 
distinguished panel.
    Mr. Thomas Susman, nice to see you.
    Anthony Banbury, a pleasure.
    And Kate Wall, welcome.
    Mr. Susman. This is a fine day, isn't this?
    The Chairwoman. It is.
                              ----------                              

                                           Tuesday, March 12, 2019.

 FISCAL YEAR 2020 FUNDING FOR DEMOCRACY, HUMAN RIGHTS, AND GOVERNANCE 
 AND A BRIEF OVERVIEW OF SEVERAL KEY RULE OF LAW PROGRAMS SUCCESSFULLY 
   IMPLEMENTED THROUGH DGR FUNDING; ELECTOR ASSISTANCE, CRITICAL TO 
   AMERICAN INTERESTS, ESSENTIAL FOR THE FUTURE OF DEMOCRACY; USAID 
 BIODIVERSITY PROGRAMS AND SUSTAINABLE LANDSCAPES PROGRAMS, THE GLOBAL 
                          ENVIRONMENT FACILITY


                               WITNESSES

THOMAS SUSMAN, STRATEGIC ADVISOR AND INTERNATIONAL POLICY COORDINATOR, 
    AMERICAN BAR ASSOCIATION
ANTHONY BANBURY, PRESIDENT AND CEO, INTERNATIONAL FOUNDATION FOR 
    ELECTORAL SYSTEMS
KATE WALL, SENIOR LEGISLATIVE MANAGER, INTERNATIONAL FUND FOR ANIMAL 
    WELFARE

                    Opening Statement of Mr. Susman

    Mr. Susman. A great way to get the message through.
    Chairwoman Lowey, Ranking Member Rogers, my name is Tom 
Susman. And I am the strategic advisor and international policy 
coordinator for the American Bar Association, appearing today 
on behalf of our president Bob Carlson and our more than 
400,000 members in the United States and abroad.
    And I am here to emphasize the importance of U.S. 
leadership, of congressional leadership and support for the 
promotion of democracy and human rights and the rule of law.
    The ABA appreciates the bipartisan agreement in Congress 
that programs to promote rule of law internationally are 
valuable and cost-effective investment of U.S. taxpayer 
dollars.
    Surely these programs support national security and 
economic opportunity, but that is not all. They are also 
consistent with our values as a nation. The ABA urges continued 
support of democracy, human rights and governance programs by 
providing $2.4 billion for these democracy programs in Fiscal 
2020.
    As a long-time implementing partner of DRG programs, the 
ABA can assure Congress that they work. There are significant 
returns on investment. For over 30 years and in more than 100 
countries, the ABA through its Rule Of Law or ROLI Initiative, 
Center for Human Rights and Section on International Law has 
been protecting human rights and promoting justice, economic 
opportunity and dignity across the world.
    We do so through a model that emphasizes partnerships with 
local stakeholders and that leverages pro-bono services from 
the U.S. legal community. In fact, we have estimated that over 
the years lawyers have contributed pro-bono legal services of 
over $200 million to date through the many programs that we are 
involved in.
    The ABA has an organizational framework in place to respond 
to requests for assistance from every region of the world, and 
we provide expertise in virtually every area of the law.
    In 2018 ABA ROLI carried out 102 programs in 50 countries 
with funding coming in from the Department of State, USAID and 
other multilateral donors and private foundations.
    Let me suggest some highlights, the prepared statement 
contains greater detail.
    Our partnership with USAID and State not only reflect our 
values but also advance the interests of the United States. For 
example, we have been very active in efforts to reduce crime 
and violence in Central America, a key driver of forced 
migration, by training over 6,400 justice sector actors on 
topics such as crime scene investigation, litigation skills, 
forensics, hate crimes and trafficking.
    In partnership with the State Department, ABA ROLI has long 
engaged in the fight against slavery and combating sexual and 
gender violence. An example is Sub-Saharan Africa where ABA 
ROLI continues its struggle against slavery and forced child 
labor. To date, our efforts have resulted in the freedom of 
over 300 slaves and ensured access to justice for over 11,000 
victims of sexual and gender-based violence.
    The ABA is also working to protect human rights around the 
world through a network of pro-bono law firms, clinics and 
lawyers. The DRL-funded Justice Defender program, provides pro-
bono legal assistance, monitors trials and advocates on behalf 
of over 1,000 human rights defenders in 63 countries. The 
program provides cost-effective support for advocates on the 
front lines of attempts to undermine democracy and rule of law.
    None of this would be possible without your support. 
Congress' financial support of DRG programs is critical to 
promoting the rule of law and building sustainable local 
capacity. This is a time-tested, cost-effective component of 
U.S. foreign assistance designed to foster democracy and 
promote economic development. We believe that these programs 
provide a foundation for security, stability and prosperity, 
both in the United States and abroad.
    Thank you for your support in the past and we welcome your 
continued support in the future.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                    Opening Statement of Mr. Banbury

    The Chairwoman. Thank you. Mr. Banbury.
    Mr. Banbury. Thank you, Chairwoman Lowey, Ranking Member 
Rogers, members of this committee, distinguished members, thank 
you for the opportunity to testify.
    My name is Tony Banbury. I am the new president and CEO of 
the International Foundation for Electoral Systems known as 
IFES. I spent five years working in the U.S. government, 
including the National Security Council under President Clinton 
and President George W. Bush.
    I want to thank this Congress, the House Appropriations 
Committee and this subcommittee for the consistent bipartisan 
support for democracy promotion and electoral assistance, 
particularly the $2.4 billion set-aside for democracy programs.
    As Congress has long recognized, democracy abroad serves 
U.S. national interests, free and democratic societies advance 
our values and our national security, and provides safe 
environments for our citizens and our businesses.
    Chairwoman Lowey, when you first convened this subcommittee 
in this year, when Administrator Green was testifying you said 
that, ``USAID helps the world's most vulnerable people, assists 
in the recovery of millions from natural disasters and 
conflict, and supports democracy and the rule of law. These 
development efforts are on the frontline of our national 
security.''
    And this is so true. However, democracy and elections, and 
our national security are under attack.
    In that same statement, Chairwoman Lowey, you said, ``this 
is a tumultuous time around the world, globally democracy is in 
crisis. The right to free and fair elections, freedom of the 
press and the rule of law are under assault.''
    I fully agree with this assessment. We need to act with 
speed, commitment, ingenuity to defeat this assault and 
overcome this crisis. But we have not yet marshaled the forces 
necessary to win this war, and the anti-democratic forces are 
making big games around the world.
    Following the end of the Cold War, there was a belief in 
the inexorable march of democracy. Countries would move from an 
authoritarian camp into the democratic camp and then move down 
the path of democracy, and maybe a little winding and bumpy, 
but inexorably move down that path. We can no longer be safe in 
the assumption that that march of democracy is in inexorable.
    From Poland to the Philippines we are seeing backsliding on 
the path. Worse yet as we see now in Venezuela we see the 
terrible impact when a country moves from a democracy back into 
authoritarianism.
    There's a new constellation of threats to democracy and 
electoral integrity that could undo decades and billions of 
dollars of U.S. support for democracy around the world.
    Authoritarian leaders are using sham elections and the 
veneer of democracy in order to cling to power. Russia and 
China are actively engaged in attacking the democratic model of 
government. China is seeking to offer an alternative model to 
our democratic model often with financial inducements.
    And in that same initial hearing, Ranking Member Rogers, 
you talked about the threats posed by Russia and China to 
democracy around the world.
    Technology is being weaponized. Social media platforms and 
the hardware and software of elections are now active 
battlefields in the fight to promote democracy and secure U.S. 
national interests.
    IFES is seeing this every day in the countries where we 
work. It is not uncommon for there to be 2,000 attacks per 
month on voter lists and electoral result tabulations. And that 
number goes up to around a million at the time of elections 
when bot networks are activated.
    The external environment in which democracy promotion and 
electoral assistance takes place is changing rapidly, but we 
have not kept pace with those changes. There is a war being 
fought now over the democratic model with hostile forces being 
deployed, second and third generation technological weapons. 
Our partners are turning to us for answers, for help and we are 
responding with first-generation tools.
    And this problem is only going to get worse. Malign foreign 
actors are committed, well-resourced and determined. New 
technologies such as deep-fakes and quantum computing are going 
to have a profound effect on society, democracies and 
elections.
    Democratic forces need to be more determined, more 
committed, more agile, faster and smarter than the anti-
democratic forces, but we are not there yet. We need a new 
toolkit and the stakes could not be higher.
    To wrap up, as the foremost promoter of democracy, the 
United States needs to lead and to act, to counter today's 
challenges and to prepare for tomorrow's.
    I would like to leave with just a few recommendations for 
the committee. One, please continue what works, the $2.4 
billion set-aside for democracy programming is valuable and 
necessary but insufficient.
    Two, please look to the future. The Asia Reassurance 
Initiative Act that was signed into law in December 31 to 
promote democracy and human rights, rule of law in the Pacific 
region is an excellent model and we urge full appropriation for 
ARIA funds.
    Three, please consider innovating. Consider it dark before 
democracy. The Defense Advanced Research Projects Agency makes, 
quote, pivotal investments and breakthrough technologies for 
national security.
    We need similar investments on a smaller scale to develop 
new tools to advance our national security by promoting and 
protecting democracy and electoral integrity around the world.
    And then finally, we need to fund democracy support in 
middle-income countries that had moved into democracy and now 
are at the risk of backsliding.
    Thank you very much for your attention.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                     Opening Statement of Ms. Wall

    The Chairwoman. Thank you.
    Ms. Wall.
    Ms. Wall. Thank you. Chairwoman Lowey, Ranking Member 
Rogers, members of the committee and staff, thank you for this 
opportunity to provide testimony.
    I am Kate Wall, senior legislative manager with the 
International Fund for Animal Welfare.
    IFAW has 17 offices globally and works in more than 40 
countries around the world. We take a holistic approach to 
innovating solutions to tough conservation challenges. 
Recognizing the unbreakable link between animals and human 
wellbeing, we support and empower communities to co-exist with 
and value native wildlife, and help those communities develop 
tools to protect their wild heritage.
    International conservation is closely linked to human 
health and global stability, so cuts to conservation programs 
will always have effect on wild species and humans alike. 
Wildlife and wild lands are in peril around the world. Climate 
change, habitat destruction and other pressures threaten 
wildlife ecosystems and the very fabric of this planet that we 
call home.
    Wildlife trafficking continues to push animals to the 
brink, and scientists warn that species are disappearing so 
fast that evolution can't keep up. However, if we invest wisely 
now we can make inroads against these pernicious threats and 
preserve healthy ecosystems and wildlife populations for 
ourselves and generations to come.
    In the interest of time I will focus on just three 
important programs here today. First, USAID biodiversity 
programs support conservation efforts in more than 50 countries 
in partnership with foreign governments, NGOs, the private 
sector, and local communities.
    Biodiversity loss fuels food insecurity and poverty, 
contributes to political unrest. The wide-ranging USAID 
biodiversity programs tackle direct threats to wildlife and 
ecosystems like habitat loss, and resource degradation, and 
also address underlying issues to prevent biodiversity loss 
including promoting peace and stability, health and human 
wellbeing, and improved livelihoods.
    USAID biodiversity programs protect not only our natural 
ecosystems and wildlife but are critical to our national 
security interests, economic prosperity and global stability. 
So IFAW requests $300 million in Fiscal Year 2020 to fund these 
important programs.
    Next, USAID sustainable landscape programs promote 
sustainable land use, reducing deforestation, strengthening 
environmental resilience, protecting waters and conserving 
biodiversity. Programs focused on areas where degradation is 
rampant and leverage private investment to reduce deforestation 
and improve forest health around the world.
    IFAW requests $135 million to fund the USAID sustainable 
landscapes programs in Fiscal Year 2020.
    Finally, the U.S. Department of State and USAID Wildlife 
Trafficking Programs support ongoing efforts to combat the 
illegal wildlife trade, which remains the fourth most lucrative 
criminal industry worldwide. Sophisticated wildlife trafficking 
syndicates generate more than $8 billion to $10 billion 
annually. And evidence demonstrates a link between wildlife 
trafficking and other criminal enterprises including illegal 
arms, drugs and even terrorism.
    Anti-wildlife trafficking programs focus on fighting 
poaching, improving global enforcement and prosecution, 
disrupting networks, and reducing consumer demand for wildlife 
programs. These programs are critical both to global 
conservation efforts and to U.S. security.
    U.S. leadership also motivates other nations to protect 
wildlife and combat trafficking. IFAW requests $100.7 million 
to fund State Department and USAID Wildlife Trafficking 
Reduction Programs in Fiscal Year 2020.
    In closing, we appreciate the opportunity to share IFAW's 
priority requests for the Fiscal Year 2020 SFOPS Appropriations 
Act. And the continued support of this subcommittee for global 
conservation efforts.
    Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairwoman. I want to thank the entire panel. I would 
like to continue this discussion but we have more witnesses to 
hear from.
    Mr. Banbury, I think what you are saying is really a wake-
up call. Some of us have been awakened, but I am very, very 
concerned about the sweep of anti-democratic forces, not just 
in Europe but frankly throughout the world.
    And I do hope that the expertise, Mr. Susman, and your 
expertise can certainly be an education for all of us who are 
so concerned about this. And I look forward to working with 
you. Thank you very much. Mr. Rogers.
    Mr. Rogers. Thank you for your testimony. No questions.
    The Chairwoman. Ms. Frankel.
    Ms. Frankel. I have no questions. You know, one of the 
things of my travels around the world, yes, I was on the 
Foreign Affairs Committee for several years. One thing that I 
saw as a common theme in dysfunctional governments, especially 
where there have been overthrows of governments, was 
corruption.
    I was just wondering if you could comment on that, if there 
are any programs that actually even work to reduce it?
    Mr. Susman. Anti-corruption programs all are founded on a 
justice system with independent judges with trained 
prosecutors, with access to counsel, and that's what a number 
of these programs across the world are based on delivering. And 
in the end, I think a lot of the population believes that they 
deliver justice.
    Mr. Bradbury. I would just say, ma'am, that the very back 
program to counter corruption is a robust democracy where 
people can throw out corrupt leaders when they see them.
    Ms. Wall. And on a more micro scale, we certainly see funds 
from wildlife trafficking and illegal poaching going to fund 
corrupt governments. So interventions that help to stem the 
flow of illegal wildlife trafficking do help to stem the flow 
of corruption as well.
    The Chairwoman. Mr. Fortenberry.
    Mr. Fortenberry. I thank you all for your testimony.
    Just very briefly, Ms. Wall, are you familiar with the 
Delta Act?
    Ms. Wall. Yes, yes.
    Mr. Fortenberry. Good.
    Ms. Wall. And thank you so much for your leadership on 
that.
    Mr. Fortenberry. Okay. Dig deeper there, because I think in 
the intersection with all the good things that you were saying 
creates the real possibilities for a tri-national conservation 
area here, leveraging important diplomatic outcomes as well.
    Ms. Wall. Well, sir, as a leader on the act you are 
probably more expert in it than I am. However, the Delta Act 
would provide support for programs in the, I am going to 
mispronounce the name, the Okavango Delta in Africa where 
wildlife trafficking and conservation have been, well, wildlife 
trafficking and other pressures have caused degradation. And 
the Delta Act will promote conservation efforts through public-
private partnerships, through NGOs and other----
    Mr. Fortenberry. We are very excited about it.
    Ms. Wall. We are very excited about it as well.
    Mr. Fortenberry. Good, thank you.
    Ms. Wall. And we look forward to working with you. Thank 
you.
    Mr. Fortenberry. I am sorry, I think I am under time 
constraints. Thank you very much.
    Ms. Wall. Sure.
    The Chairwoman. Thank you.
    And thank you again to the panel and we look forward to 
continuing the dialogue.
    Welcome. We were saying that even though there are members 
that have to move on to another hearing, this is such a display 
of all the good work that we are doing. I am delighted to 
welcome this panel.
    Mr. Vince Blaser, director of Frontline Health Workers 
Coalition. Ms. Jody JoDee Winterhof, the senior vice president 
of the Human Rights Campaign, and Ms. Mary McQueen, the 
president of the National Center for State Courts. Please 
proceed.
                              ----------                              

                                           Tuesday, March 12, 2019.

 GLOBAL HEALTH PROGRAMS AND FRONTLINE HEALTH WORKFORCE STRENGTHENING; 
   GREATER SUPPORT FOR LGBTQ HUMAN RIGHTS FUNDING AROUND THE GLOBE; 
                    JUDICIAL REFORM AND RULE OF LAW


                               WITNESSES

VINCE BLASER, DIRECTOR, FRONTLINE HEALTH WORKERS COALITION AND SENIOR 
    ADVOCACY AND POLICY ADVISOR
JODEE WINTERHOF, SENIOR VICE PRESIDENT FOR POLICY AND POLITICAL 
    AFFAIRS, HUMAN RIGHTS CAMPAIGN
MARY C. MCQUEEN, PRESIDENT, NATIONAL CENTER FOR STATE COURTS

                    Opening Statement of Mr. Blaser

    Mr. Blaser. Great. Thank you, Madam Chair Lowey, Ranking 
Member Rogers, Representative Frankel. Representative 
Fortenberry, for the opportunity to testify on behalf of 
IntraHealth International which is based in Chapel Hill, North 
Carolina, Representative Price's district. IntraHealth houses 
the Frontline Health Workers Coalition secretariat here in 
Washington.
    I first wanted to second the comment made by Bill O'Keefe 
of Catholic Relief Services earlier today regarding the 
Antiterrorism Clarification Act. IntraHealth's Palestinian 
Health Capacity Project which reduced referrals from West Bank 
health facilities to Israeli hospitals by 34 percent was 
terminated at USAID's request on January 31st.
    There are 120,000-plus patients who were affected by this 
closure, as a reminder of the urgent need for a clear direction 
on humanitarian assistance in the West Bank and Gaza.
    IntraHealth recommends urgent investment in strengthening 
the Frontline Health workforce and communities of least excess, 
and intervention of critical to maximizing the impact of U.S. 
global health appropriations.
    We urge the subcommittee to pass the Global Health 
Council's evidence-based Fiscal Year 2000 recommendations of 
$7.05 billion for State Department and Global Health Programs, 
$4.39 billion for USAID and $435 million for water and all 
accounts.
    Frontline Health Workers have been critical to the 
reduction of under-five deaths by more than half since 1990, 
the near 55 percent decline in annual deaths from HIV since 
2005 and the 63 percent cut in malaria deaths from 2000 to 
2015.
    Recent research has also up-ended traditional economic 
thinking, that frames training and paying health workers as a 
cost. A 2016 World Bank report found that the effects of higher 
whole sector employment are even greater than that of the 
financial sector.
    The 9 to 1 return on investment and health holds particular 
potential for women who comprise 70 percent of the health and 
social workforce worldwide, compared to 40 percent across all 
sectors.
    And thanks in part of the leadership you have shown, 
Chairwoman Lowey and Representative Diaz Balart and members of 
the subcommittee the U.S. have played a critical supportive 
role in the adoption of Workforce 2030, the first ever global 
strategy for the health workforce and a subsequent action plan 
to catalyze the investments and policies needed to achieve it.
    The action plan recommends assistance to focus on countries 
currently least able to ensure a sustainable health workforce. 
Now this centers on the reality that people who die of 
preventable causes are most likely living in the same 
communities with the least access to frontline health workers 
as the recent outbreaks of Ebola have tragically shown.
    To have the greatest impact in saving lives and halting 
epidemics, safe access to sustainable frontline health 
workforce teams must be at the heart of U.S. global health 
programming. Because health workforce strengthening efforts are 
supported across several SFOPS accounts, the subcommittee 
should provide the flexibility agencies need to support locally 
tailored workforce solutions and to hold to account existing 
efforts.
    For example, major needs remain unmet in pre-service 
training institutions and bridge to employment programs in or 
near communities with little to no access to health workers. We 
recommend the subcommittee ask agencies to annual report on 
their collective frontline health workforce pre-service, 
education, recruitment, training, retention, connectivity, and 
safety efforts, so future appropriations can be guided toward 
the highest impact interventions. And we urge the subcommittee 
to support an evidence-based appropriation to global health 
programs that can save lives, foster economic growth, and 
ensure global health security. Thank you again for the 
opportunity.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                   Opening Statement of Ms. Winterhof

    Ms. Winterhof. My name is JoDee Winterhof and I am the 
senior vice president for policy and political affairs at the 
Human Rights Campaign. It is our first time testifying before 
this particular subcommittee, so we thank you for having us.
    We are America's largest civil rights organization working 
to achieve lesbian, bisexual, gay, transgender and queer 
equality. We represent over three million members and 
supporters in this country.
    I am testifying today in support of funding to defend and 
advance the human rights of LGBTQ people around the globe. Even 
as the Congress tomorrow will introduce the Equality Act which 
would provide civil rights protections for LGBTQ people in this 
country and move our country to a more perfect union and is 
being introduced with historic bipartisan support by members of 
this body and beyond, it has business and business leader 
support over--public support at 70 percent. Nevertheless, LBTQ 
people around the world face daily challenges to be who they 
are, safe from violence and death.
    In 69 countries, same sex activity is criminalized and in 
up to 10 of those it is punishable by death. In Chechnya 
authorities have detained, tortured, and even killed people 
based upon their sexual orientation or their gender identity. 
Authorities in Indonesia have publicly flogged LGBTQ people in 
front of jeering crowds of thousands.
    Around the world, nearly 3,000 transgender people were 
murdered between 2008 and 2019 because of their gender 
identity. Nonetheless, LGBTQ advocates around the globe 
continue their truly inspiring and courageous work.
    They are activists like Caleb Orozco in Belize, despite 
threats against his life and enormous legal battles and 
barriers he successfully challenged his own government's 
colonial era law outlying homosexuality in 2016. Or Hazel 
Mokgathi an HRC global innovator who worked to hold the first 
ever Transgender Pride Event in Botswana in October. Or Tu Lee, 
a former Fellow at the Human Rights Campaign who works at the 
Institute for Studies of Society, Economy, and Environment in 
Vietnam.
    They conduct research on vulnerable groups in Vietnam and 
then use the evidence to advocate for equal rights for LGBTQI 
people and ethnic minorities. Or Georgian Activist Levan 
Berianidze who along with a friend was attacked and beaten by a 
mob shouting homophobic slurs. When the victims sought help 
from the police, the police joined in the attack rather than 
protecting the victims. Nevertheless, the Georgian LGBTQ 
community responded by calling on their government to conduct 
an investigation and punish the police officers involved and 
also to create and implement a hate crimes policy.
    These are just a few examples of the incredible work being 
done around the globe, but it cannot happen without your help. 
That is why we strongly support the work of the State 
Department's Global Equality Fund, a public-private partnership 
supporting organizations that promote the inclusion and dignity 
of LGBTI people. We also strongly support USAID's incredibly 
important LGBTI work in their human rights division.
    The need for funding in these two accounts far exceeds the 
funding currently available. The State Department receives 
about four times more LGBTI-specific solicitations than they 
receive for non-LGBTI human rights programs.
    We therefore urge the Committee to provide $10 million to 
the Global Equality Fund and increase to $6 million USAID's 
LGBTI portfolio to begin addressing that imbalance.
    Congress has a crucial role to play in advancing this work 
and protecting human rights around the globe. We must support 
LGBTQ human rights advocates to continue their innovative and 
inspiring work to change the hearts and minds of their leaders, 
their fellow citizens, and their communities. Thank you so 
much.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                    Opening Statement of Ms. McQueen

    The Chairwoman. Thank you.
    Ms. McQueen.
    Ms. McQueen. Thank you Chairwoman Lowey and I wanted to 
also thank you, Congresswoman Frankel. I feel like I need to 
channel Chief Justice Janet DiFiore and Charles Kennedy and say 
if it please the court. And as part of that, I would invite 
staff because I know how very important it is behind the 
scenes. So if you have any questions, please feel free to get 
in touch with me.
    So the National Center for State Courts was founded in 1971 
by then-Chief Justice Warren Burger and the chief justices of 
all the state Supreme Courts. And I think you can say, well why 
courts? You know, why justice? Why rule of law? And I don't 
think we have to look any further than the Constitution as a 
model because in the words of the Preamble, establishing 
justice was the foundation before ensuring domestic 
tranquility, providing for the common defense, promoting 
general welfare and securing liberty.
    In other words, all the issues that you have heard today 
that are so important to this committee whether it is 
healthcare, gender identity, personal security, personal 
property, forced migration, a stabilized economy, freedom of 
the press or families all depend on a free, stabilized and 
independent rule of law and judicial program.
    So the National Center for State Courts working with a 
conference of chief justices have established judicial reform 
programs in over 80 countries and we use a partnership, a 
community engagement, youth, values, vulnerable populations as 
a way to do that one-on-one sharing to improve government 
accountability, to improve access to justice and to promote 
media freedom, to ensure fair and open elections.
    As Margie Marshall the former Chief Justice of 
Massachusetts who actually grew up in South Africa said, 
justice and the rule of law is like oxygen, you don't know how 
much you need it until somebody steps on the hose. And so I 
think that all of the things that you want to do that we want 
to accomplish for the United States as well as our 
international partners is through a stabilized rule of law.
    And I will give you a couple of examples, if we want to 
have reliable democratic partners, if we want to have 
stabilized economies, we have to have a rule of law that will 
enforce contracts that people can rely on that everyone will be 
treated the same, that will apply the same laws and values. And 
so part of what we do is go in and actually help legislative 
leaders draft constitutions, write the statutes, talking about 
what are the values, because we can sit here and say, Well you 
are innocent until you are proven guilty. Until you go into an 
Eastern European country that shifts that burden that you are 
guilty until proven innocent.
    And so you have to help when you are working on these types 
of legislative reforms to really engage the population. I will 
give you another example, Morocco worked very hard to establish 
women's rights, really especially for marriage issues and 
domestic violence and children. But what we found that was 
really unanticipated was how strong the cultural influence was, 
because even though you have the right to go in and be treated 
equally in a court, to not lose your children in a divorce, the 
cultural values were so deep that no one would make themselves 
available to enforcing those.
    So I want to talk just real quickly about some new programs 
most recently in Central America, Costa Rica, Guatemala, El 
Salvador, Nicaragua, and Panama, and what we know there is a 
lot of the gang violence is really from recruiting from a lot 
of the drug cartels, young men especially.
    And so we have established a restorative justice program 
that basically diverts first time offenders to try to develop a 
restitutional and education option instead of jail, to try to 
break that cycle. I would have to say that in Kosovo, working 
with the bar and working with the courts, and especially to 
establish a judicial council, and I know earlier you have 
talked about the need to make sure that these democratic 
institutions represented all the communities that were there. 
And so we ensured in Kosovo that the Serbians were at the table 
as well as the Kosovars in moving forward to implement the new 
justice system in Kosovo.
    And so some of our visitor programs, we have had the first 
women judges in Egypt which was a major accomplishment. We have 
most recently, in this fall will be hosting an international 
conference for traditional training institutions, judicial 
colleges in South Africa.
    And so finally, I just wanted to share with you that I was 
in a, it was kind of like a street fair and we had a booth set 
up for different institutions in the judicial system, and one 
was a crisis center, because human trafficking is a major, 
major challenge in the Balkans, and without having the capacity 
or any place to go, sometimes you find young women whose 
families actually sell them into slavery as an economic 
development.
    And a young woman was standing kind of on the side, and I 
looked over and she kind of looked like she wanted to come 
speak to us but didn't. And so finally I just went over and 
started talking to her, and she started crying because she did 
not know that there was an option for her through a crisis 
center.
    So I think the most important thing we could hope for is 
that when somebody feels that they are being threatened, that 
they don't come to the police department first, they may come 
to the courts.
    So I thank you on behalf of our country's chief justices, 
judicial leaders, and really urge you to support and expand the 
efforts of the State Department and USAID to strengthen 
judicial reform and especially emphasize the need for 
international rule of law.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairwoman. Thank you.
    Ms. Frankel.
    Ms. Frankel. Thank you. That was really interesting 
testimony. Ms. McQueen, I have seen firsthand so many issues 
you have been talking about because I was in one of the Eastern 
European countries, they were sharing that they want more 
American economic development and so forth.
    And we are saying to them, you have got to have a rule of 
law, you can't have to bribe the port officials and all that 
but that is not my question. My question is to Ms. Winterhof. 
In terms of USAID or any American initiative, what are the best 
initiatives to try to change either the culture or the laws in 
these countries that are being discriminatory?
    Ms. Winterhof. Well, it can vary by country. And so really 
what we try to do is work with the groups in that particular 
country to bring forward their voices about what changes are 
needed.
    You know, we do share experiences. One of the things we do 
is we have an international group of fellows that we bring 
together to let them talk to each other. Caleb has been part of 
that program and others that I mentioned, so that they can talk 
about what they are finding success with in their countries and 
then we can work to help support those efforts, it really does 
vary.
    But it is almost like thinking about what is happening in 
this country, but go back like a few decades in terms of people 
being in the closet. There are not support for people at work 
and things like that. So, you know, you can get the 
international businesses to actually start speaking out, that 
is safe spaces so that people speaking out in many of these 
countries are truthfully are more allies at first than some of 
the folks in these groups.
    The folks who are leading these local groups are so brave, 
it is extraordinary what they do. And so working with them to 
figure out what the challenges are in the country and then how 
to meet those challenges.
    Ms. Frankel. Are you saying that that is where the USAID 
effort should be, to help these local groups?
    Ms. Winterhof. Well, not only. It should be in great part 
though, because those groups were the ones that are really 
going to work to make change. And we have other programs that 
we do at HRC, but there are many partners who also do work in 
this space.
    But you do have to start with the local groups or the 
individuals in the country to know what is best in those 
places.
    Ms. Frankel. Thank you. Thank you, Madam Chair.
    The Chairwoman. Thank you. Appreciate you appearing before 
us. And our eighth panel, we still have a few more.
    Ms. Joan Rosenhauer, executive director of the Jesuit 
Refugee Service USA. Ms. Alice Albright, chief executive 
officer of the Global Partnership for Education. And Ambassador 
Stephens, vice chair of the board at the Asia Foundation. Thank 
you very much. Thank you for appearing before us today. Please 
proceed.
                                           Tuesday, March 12, 2019.

 REFUGEE EDUCATION; GLOBAL PARTNERSHIP FOR EDUCATION; BASIC EDUATION; 
FISCAL YEAR 2020 REQUEST FOR $19 MILLION; THE FOUNDATION'S WORK ACROSS 
                        THE INDO-PACIFIC REGION


                               WITNESSES

AMBASSADOR KATHLEEN STEPHENS, THE ASIA FOUNDATION
ALICE ALBRIGHT, CHIEF EXECUTIVE OFFICER, GLOBAL PARTNERSHIP FOR 
    EDUCATION
JOAN ROSENHAUER, EXECUTIVE DIRECTOR, JESUIT REFUGEE SERVICE, USA

                   Opening Statement of Ms. Stephens

    Ms. Stephens. Thank you very much, Madam Chair Lowey, 
Ranking Member Rogers, members of the subcommittee.
    Thank you for the opportunity to testify before the 
subcommittee on behalf of the Asia Foundation. I am proud to 
service Vice Chair of the Board of Trustees. Thank you for your 
support of the Foundation. We are grateful for the confidence 
that you have shown in our programs and our ability to advance 
American interests in the Indo-Pacific region.
    The Asia Foundation advances the interests of the United 
States by supporting stable democracies, good governance, the 
rights of women, and free markets in Asia. To build on 
Congress' investment in the foundation, the Asia Foundation is 
asking for $19 million for Fiscal Year 2020, a modest increase 
of $2 million over current funding of $17 million.
    This increase will enable us to sustain our programs and 
expand technology programs to boost economic empowerment, fight 
misinformation and cyber security threats, and bolster 
democratic governance. These funds will also enable the 
Foundation's reentry into Pacific Island nations important to 
U.S. interest responding to the need for democracy and 
governance, women's security and empowerment and disaster risk 
management.
    Established in 1954, the Asia Foundation is a private, 
nonprofit, nongovernmental organization headquartered in San 
Francisco. We operate through 18 country offices in Asia. 
Foundation representatives maintain important relationships 
with the Asian governments and leaders and at the same time 
maintain links to local communities built on decades of trust 
and ongoing engagement.
    We have appreciated the past support of the committee in 
rejecting proposed cuts and we hope that you will do so again. 
We ask that you consider this increase for the foundation given 
American interests in the Indo-Pacific region as signaled by 
the enactment of the Asia Reassurance Initiative Act in 
December.
    Appropriated funding is critical to the foundation's 
ability to continue operating. The foundation is an especially 
cost-effective investment for the Congress in a time of budget 
constraints. We make the most of the taxpayer dollar by 
leveraging resources.
    Over the last decade, every dollar appropriated to the 
foundation has made it possible to raise roughly $4 from non-
U.S. government sources. The committee is familiar with the 
Asia Foundation's work, so I won't go into great detail but I 
will say from my own 40-plus years of experience in South Korea 
I have seen firsthand how the Asia Foundation and its programs 
contributed to South Korea's economic and democratic blossoming 
as a full partner of the United States and how much those 
efforts are still appreciated by Koreans today.
    South Korea is just one example of how the foundation 
contributes to the U.S. strategy of balanced engagement by 
working with countries in transition, from assistance 
recipients to enduring diplomatic, economic, and security 
partners. It is the Foundation's locally driven approach that 
makes its programs effective, sustainable, and welcome 
throughout the Endo-Pacific region.
    The Foundation's work demonstrates how democracy can 
deliver. More people in Indonesia, Nepal, Laos, and Sri Lanka 
have access to justice to protect their lives and property and 
mediate disputes because of our Judicial Sector Reform 
programs. More people are able to open their own businesses, 
title their land, and expand their livelihoods without having 
to pay exorbitant fees and corrupt practices in Mongolia, the 
Philippines, and Indonesia.
    More women have the ability to go to school, exercise their 
rights to vote, and hold office, protect themselves and their 
children from traffic and violence because of the foundation's 
efforts in Cambodia, India, Nepal, and Afghanistan. More people 
are finding opportunities through education and civic 
participation rather than extremist ideology and conflict in 
Thailand, Mindanao in the Philippines, and Malaysia.
    In conclusion, funding at $19 million will allow the Asia 
Foundation to invest in innovative programs that have received 
congressional encouragement. The Foundation's track record 
demonstrates that we can make effective and efficient use of 
funds to advance U.S. interests in the Indo-Pacific region. We 
respectfully request that the committee support the Asia 
Foundation at $19 million for Fiscal Year 2020. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairwoman. Thank you. Now we have so many good 
panelists left, but we are running way behind. So if you could 
possibly summarize, we would be forever grateful. Okay. Thank 
you.

                   Opening Statement of Ms. Albright

    Ms. Albright. Thank you. Thank you so much Madam 
Chairwoman, Congressman Rogers and the members of the 
subcommittee for inviting us here. On behalf of Global 
Partnership for Education (GPE), I respectfully ask the 
subcommittee to recommend at least $125 million for Fiscal Year 
2020 contribution to GPE.
    And further, I request the subcommittee recommend at least 
$925 million in its contribution to basic education funding. 
Chairwoman Lowey, I would love to thank you so much for your 
leadership on global education and in particular for your 
support for this Fiscal Year 2019 contribution of $90 million.
    This contribution will help GPE support more children in 
the world's 67 poorest countries get access to a quality 
education. Over the last several weeks I have traveled to three 
West African countries. The first was Sierra Leone, there years 
of civil war and the Ebola crisis have taken their toll on 
Sierra Leone's education system but the country is a remarkable 
story of resilience and innovation. One example was the 
ministry of education's use of radio broadcasting during the 
Ebola crisis with the support of GPE to instruct students from 
a distance.
    Two weeks ago I was in Chad where nearly 80 percent of the 
people are illiterate and the government's biggest challenge is 
being able to deploy teachers out to the rural zones. There, I 
spoke with students at a teacher training college who told me 
that what they really need is books and teaching materials. 
Their library was virtually empty. So we will now work with 
Chad to address the lack of training and textbooks and other 
learning materials to enable teachers to get out to the rural 
zones.
    Last week I was in Burkina Faso, where the growing threat 
of terrorism is keeping more than 150,000 children out of 
school. The situation there is particularly tough for girls, 
and at the Nelson Mandela School I spoke with a group of 
courageous young women who told me about the everyday 
challenges that they face to get an education.
    Eighteen kilometer bicycle rides to school, hours of chores 
when they get home, and perhaps most troubling, sexual coercion 
to pay for school and in fact succeed in the classroom. GPE is 
working closely with the Birkinabe government to ensure that 
girls are educated, healthy, and safe.
    GPE is a public-private partnership, our funding is 
results-based and we support the strengthening and reform of 
national education systems. Overall, we reward progress on 
learning, on efficiency and on equity.
    Twenty-eight of GPE's 67 partner countries are classified 
as fragile or conflict affected. One such example is Yemen 
where the escalation of armed conflict has led to considerable 
disruption in the provision of education. There GPE has worked 
closely to restructure part of our work to refurbish 150 
schools, provide support to 37,000 children, and basic school 
supplies for over 91,000 children.
    GPE-supported countries have shown remarkable results over 
the past 17 years of our existence. The primary school 
completion rate, one of our core measures, has climbed from 63 
percent in 2002 to 76 percent.
    Seventy four percent of girls in GPE-supported countries 
now finish primary school compared to 56 percent in 2002. While 
progress has been made, there remains a lot of work to be done 
in overcoming some of the gender disparities in many of the 
countries that we work in, and that is in part what we hope to 
use further funding to accomplish.
    Unless we increase investments in education, more than half 
of the upcoming young generation will not be on track to 
acquire basic secondary education skills. They will be shut out 
of the economic opportunities that many others have in other 
countries, and this can lead to instability and radicalization 
among youth.
    The United States through USAID sits on GPE's board and 
contributes very strongly both strategically and technically to 
our work. GPE's current strategic plan in fact is very well 
aligned with USAID's new global basic education strategy, and 
accordingly, U.S. support to GPE is contributing to the 
achievement of USAID's global basic education goals.
    GPE is also working closely with the business community in 
support of our overall education goals. Recently we have 
launched a public-private data roundtable which includes 
MasterCard, Microsoft, Intel, HP, Tableau and others, who are 
providing their time free to us and their expertise to help 
improve data collection, management and utilization.
    Madam Chairwoman, I would urge the committee to provide a 
Fiscal Year 2020 U.S. contribution to GPE of $125 million and I 
would further urge you to support the overall level of basic 
education funding of $925 million.
    And I, again, thank you so much for the opportunity to work 
with you and for your leadership on this very important topic.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairwoman. Thank you.

                  Opening Statement of Ms. Rosenhauer

    Ms. Rosenhauer. Thank you, Chairwoman Lowey, and members of 
the subcommittee and staff. I appreciate the opportunity to 
speak to you on behalf of Jesuit Refugee Service/USA on the 
importance of investing in refugee education as a critical 
component of the U.S. government's foreign assistance.
    Thank you. We urge the subcommittee to include at least 
$925 million in funding for basic education programs in the 
Fiscal Year 2020 State & Foreign Operations Appropriations bill 
and to support at least $21 million in additional funding for 
Education Cannot Wait.
    Today, as you have heard, there are more than 68 million 
people worldwide who have been forced to flee their homes. 
Access to education for these forcibly displaced persons is 
critical. Not only does education offer essential protection 
and normalcy for children, it also gives them hope that they 
will have a better future that requires an education.
    Helping the millions of children who have been traumatized 
by violence and forced displacement build a brighter future is 
not only a moral obligation, but a wise global development 
strategy. How will these children someday lead a more peaceful 
world if we turn our backs on them today? Yet, more than half 
of all school-age refugees--4 million children--are out of 
school.
    Jesuit Refugee Service is an international catholic 
organization with a mission to accompany, serve and advocate on 
behalf of refugees and other forcibly displaced persons. 
Operating in more than 50 countries, JRS offers education both 
in refugee camps and in non-camp settings including early 
childhood, primary, secondary and tertiary programs. In 
addition, JRS offers vocational and teacher training, targets 
programs to women, girls and people with disabilities, and 
supports new school construction and distribution of materials.
    We know from these experiences that for children in crisis 
situations, education is a necessity. Lack of education makes 
children vulnerable including to recruitment by armed groups, 
child labor and early marriage. And it leads to greater 
challenges in the future for the children themselves and their 
societies and really for the entire global community. And the 
impact is felt most by girls who are two and a half to three 
times as likely to be out of school as boys in countries 
affected by conflict.
    The global response to this tremendous need has not kept 
pace. In 2016, education was only 2.7 percent of humanitarian 
aid. Robust funding of global education programs must become an 
essential part of humanitarian assistance.
    We applaud the Subcommittee on State, Foreign Operations 
and Related Programs for supporting many life-changing 
educational programs. Of course, the U.S. cannot tackle this 
global challenge alone and needs to support multilateral 
efforts as well.
    Education Cannot Wait is the first global movement and fund 
dedicated to education in emergencies and protracted crises. It 
was established during the World Humanitarian Summit in 2016 to 
reposition education as a priority on the humanitarian agenda, 
promote a more collaborative approach among actors on the 
ground, and foster additional funding to ensure that every 
crisis-affected child and young person is in school.
    To date, ECW has raised over $336 million for both rapid 
response and multiyear funding platforms. This includes one $21 
million contribution from the U.S. at ECW's launch in 2016. By 
2021, ECW aims to reach 8.9 million children, half of whom will 
be girls. But it needs the support and leadership of the U.S.
    On behalf of JRS/USA, I urge the subcommittee to support at 
least $925 million in funding for basic education programs and 
to support at least $21 million in additional funding for 
Education Cannot Wait. Thank you.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairwoman. Thank you. This is an outstanding panel. I 
know we could continue the discussion but we are going to have 
to vote shortly. Thank you.
    Our next panel is Mr. Nick Larigakis, president and chief 
executive officer of the American Hellenic Institute; Ms. 
Anastasia Staten, chair and board Member of HALO Trust USA; and 
Mr. Van Krikorian, co-chair of the Armenian Assembly of 
America.
    I thank you for joining us today. We are going to have your 
full testimony in the record and if you would care to, we would 
appreciate if you would summarize your testimony now. Thank 
you.
                              ----------                              

                                           Tuesday, March 12, 2019.

FUNDING FOR GREECE AND CYPRUS THAT HELP TO FACILITATE AND PROJECT U.S. 
 INTERESTS IN THE EASTERN MEDITERRANEAN; STATE DEPARTMENT CONVENTIONAL 
 WEAPONS DESTRUCTION PROGRAM; U.S. ASSISTANCE AND POLICY IN THE SOUTH 
                             CAUCUS REGION


                               WITNESSES

NICK LARIGAKIS, PRESIDENT AND COO, AMERICAN HELLENIC INSTITUTE
ANASTASIA STATEN, CHAIR OF THE BOARD, THE HALO TRUST, USA
VAN KRIKORIAN, CO-CHAIR OF THE ARMENIAN ASSEMBLE OF AMERICA BOARD OF 
    TRUSTEES

                    Opening Statement of Ms. Staten

    Ms. Staten. Chairwoman Lowey, Ranking Member Rogers, and 
members of the subcommittee, thank you for allowing me to 
present today. My name is Anastasia Staten and I am here 
representing HALO Trust USA.
    As the world's largest humanitarian demining organization, 
HALO leads the effort to protect lives and restore livelihoods 
of those affected by conflict. We remove and destroy landmines, 
cluster bombs and IEDs, and help secure weapons that could fall 
into terrorist groups' hands. For more than 20 years now, HALO 
has been a partner of the State Department's Conventional 
Weapons Destruction Program, and is the sole implementer of 
USAID's demining program in Nagorno Karabakh.
    I am honored to have the opportunity to draw your attention 
to these critical programs and implore you to increase support 
for the State Department's Conventional Weapons Destruction 
Program to a level of $219 million in Fiscal Year 2020. This 
investment will fund demining and weapons destruction efforts 
in approximately 40 countries and territories from Guatemala to 
Angola, from Kosovo to Laos.
    As you know, the Conventional Weapons Destruction Program 
has three primary goals, and for the sake of time I will 
briefly review them--enhance regional security by destroying 
weapons at the risk of diversion to violent non-state actors; 
to clear debris of war, thereby returning land to safe and 
productive use; and to promote U.S. foreign policy.
    But the most important benefit of these programs and to be 
honest, what gets most of us out of bed each day, is saving 
lives. The latest Landmine Monitor Report recorded 7,200 
landmine and cluster bomb casualties in 2017. The vast majority 
of casualties were not soldiers but civilians. And, tragically, 
more than 2,400 of them were children.
    I am often reminded of a family I met two years ago, while 
observing the demining operations in Cambodia. A husband and 
wife approached me and told me that they had lost their son 
just 2 weeks prior; their 17-year-old boy had been on a tractor 
earning small extra dollars for his family. Unfortunately, the 
tractor ran over an anti-tank mine and he was killed instantly. 
Landmines and other debris of war kill indiscriminately and we 
must make every effort to eliminate these threats.
    Conventional Weapons Destruction activities also promote 
economic development that transforms people's lives. Within 
weeks of landmine clearance, refugees and families can return 
home, plant crops, and allow cattle to graze. Demining creates 
safe access to markets and enables the construction of schools, 
hospitals and other vital infrastructure.
    Many State Department partners like HALO further empower 
communities by employing a local workforce and in many 
countries these are war widows, women and other sole providers 
for their families. This means that the men and women of HALO 
are helping their own communities transition from the fields of 
battle into safe and thriving homes and workplaces. These 
programs also support security objectives through destruction 
of insecure weapons such as shoulder-launched missiles capable 
of downing civilian aircraft.
    People aren't the only victims of mines. Wildlife suffers 
as well. The presence of mines in Southeast Angola near the 
headwaters of the Okavango Delta, have led to the deaths of 
elephants, hampered efforts to conduct biodiversity research 
and interfered with anti-poaching activities.
    Since 1993, the U.S. has led global demining efforts, 
provided assistance to more than 100 countries, and helped over 
17 of them reach mine-free status.
    For this reason, we ask the subcommittee to consider 
increasing support for this program to a level of $219 million. 
At the HALO Trust, we could not be more proud of our work and 
grateful for your funding and partnership. Thank you for your 
time today.
    The Chairwoman. Thank you.
 
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                   Opening Statement of Mr. Larigakis

    We will now hear from Mr. Larigakis.
    Mr. Larigakis. I will read fast. Good afternoon, Chairwoman 
Lowey and distinguished members of the subcommittee. On behalf 
of the nationwide membership of the American Hellenic 
Institute, thank you for the invitation to testify on Fiscal 
Year 2020 programs impacting the United States' interest in the 
eastern Mediterranean.
    In keeping with the best interest of the United States, AHI 
opposes any assistance the administration will request for 
Turkey until Turkey withdraws all of its troops and illegal 
settlers from Cyprus and ceases and desists its acts of 
aggression in the Aegean, which are in violation of 
international law. We also oppose any reduction in the 
administration's proposed aid level of $5.7 million for the 
U.N. Peacekeeping Force in Cyprus.
    AHI applauds the Fiscal Year 2019 $1 million enacted 
funding level for NATO ally Greece's IMET program and supports 
Fiscal Year 2020 investment of $1.2 million. The U.S. strategic 
interest in Southeastern Europe and the Eastern Mediterranean, 
significant commerce and energy sources transit through the 
region.
    Greece, a dependable NATO ally, is an ideal strategic 
partner for the United States. With its centuries enduring 
presence, its close cultural, political and economic ties to 
the broader region and to neighboring western-oriented 
frontline countries that share democratic principles such as 
Israel and Cyprus, Greece is strategically situated for the 
protection of U.S. interest by virtue of its geography and by 
being home to the most important U.S. military facility in the 
Mediterranean Sea--NSA, Souda Bay, located on the island of 
Crete.
    Greece is an immensely valuable link, a pillar of stability 
in the region as high level U.S. government officials have 
noted. Greece is also a frontline state in the fight against 
terrorism. Greece is one of five NATO members that spent a 
minimum of 2 percent of GDP on defense expenditures, second 
only to the United States by percentage, hence our Fiscal Year 
2020 programmatic request of $1.2 million request for IMET 
program.
    The IMET program advances the professional military 
education of the Greek Armed Forces and enhances 
interoperability with the United States and NATO forces.
    Our recommended funding request will be an effective 
investment toward a key component of U.S. security assistance 
in an increasingly critical region.
    Going on 45 years, Turkey illegally occupies the Republic 
of Cyprus, a member of the European Union and a nation with 
which the U.S. has a strategic partnership. AHI recommends 
appropriations language that any assistance provided to Cyprus 
by this subcommittee should be foremost to ensure that United 
Nations peacekeeping forces in Cyprus can fully implement its 
mandate.
    Turkey is also a threat in energy security and U.S. 
interests and has exercised gunboat diplomacy. We welcome the 
U.S. continued support for Cyprus' right to develop its natural 
resources, especially as ExxonMobil announced last month the 
largest fund thus far in Cypriot waters. Further, Turkey's $2.5 
billion purchase of S-400 missiles from Russia concerns our 
NATO partners and is contrary to U.S. interests.
    Until resolved, AHI strongly recommends similar 
appropriations language regarding a report to the Congress on 
Turkey for the F-35.
    For all these reasons including the suppression of 
religious freedom for the Ecumenical Patriarchate, the world's 
oldest Christian church, we continue to oppose aid for Turkey 
including the most favorite nation trade benefits. AHI welcomes 
the Administration's intention to terminate preferential trade 
status under the Generalized System of Preferences program.
    Finally, the region's stability took a step forward with 
the ratified Prespes Agreement between Greece and north 
Macedonia. However, we ask the subcommittee for continued 
oversight of any assistance provided to North Macedonia to 
ensure it adheres to the agreement's principles.
    Again, thank you for the opportunity to present today.
    The Chairwoman. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                   Opening Statement of Mr. Krikorian

    The Chairwoman. Thank you. Mr. Van Krikorian. Please 
proceed.
    Mr. Krikorian. Thank you, Congresswoman Lowey and members 
of the panel, and I will be brief. I will only make three 
points because I appreciate we are pressed for time.
    And perhaps even counter-intuitively, I am going to start 
by paying my respects to the HALO Trust and Anastasia rather 
than jumping directly in to my own agenda. I think the work 
they do is critical. We support their request fully.
    I am honored to be on the same panel. Last year, the HALO 
Trust lost three members doing demining activities near 
Armenia, two members were injured. And our hearts go out to all 
of them. We respect the work that they do. Our organization has 
raised funds privately to help in those efforts.
    And in that regard I think this committee could do a world 
of good if it removed restrictions on USAID to them removing 
mines based on artificial Soviet borders. Our really deepest 
respect and sympathy.
    Second, I want to pick up on Congresswoman Frankel's 
excellent question to the sixth panel. Of course, the American 
Bar Association representative made a great point. IFES made a 
great point about democracy backsliding and what do we do about 
corruption. It is a question that those of us who work in this 
area struggle with. It is what the U.S. wants to see, the idea 
is the more democracy there is, the better. But then between 
that general concept and what actually happens, there is 
usually a big gap.
    How can the U.S. specifically help? First of all, reward 
people who have made progress toward democracy. And second of 
all, when it comes to corruption, I think the United States has 
to look at whether examples are made of corrupt individuals.
    In the United States, how did--to go back--Eliot Ness did 
it. They targeted high profile people who were corrupt and they 
went after them. The United States still uses that philosophy 
successfully. The fact that we fund statutes or are writing 
statutes and laws and things when judges themselves can be 
corrupt is completely counterproductive.
    In our experience, going after people even if it is years 
later to say you cannot get away with this, there will be 
consequences, the rule of law will apply, is the best approach. 
And I would expect that if countries were analyzed based on 
that, it doesn't always have to be punitive, it can also be a 
reconciliation type of process where people acknowledge what 
they have taken, give it back I think might be a good metric 
for this committee and the United States to start using.
    Apropos of that, I think the United States looking itself 
and I was glad to see and we were glad to see that the 
Department of Justice is going to start more actively enforcing 
the Foreign Agent Registration Act. I would be remiss if I did 
not note the last organization scheduled to testify today has 
been clearly identified as one that benefits from corrupt funds 
from a foreign government and has not reported under the 
Foreign Agent Registration Act, nor has it reported under 
Congress' lobbying laws. The United States needs to look at its 
own rules.
    Finally, with respect to our specific request, yes, I think 
Congresswoman Frankel picked up, Armenia had a remarkable year. 
Economists objectively named it the country of the year because 
of the democratic changes, a peaceful change in government, 
extremely clean elections, rule of law, you name it, across the 
board. And Time Magazine named the current leader of Armenia 
Crusader for Democracy.
    The kudos even, if you look at the State Department from 
the U.S. trade representative and others--I am going to make it 
under the time, don't worry--were remarkable. And that is why 
we are asking for something substantially more. We are asking 
for $100 million in economic and democracy aid to Armenia. We 
are asking for $10 million in FMF and IMET. We are asking for 
another $20 million because Armenia has resettled refugees from 
Syria and the Middle East and given them safe haven.
    And we are expecting more, frankly. We don't know what is 
going to happen in the Middle East, frankly, and we are 
concerned about that. And finally, we are asking for $25 
million to Nagorno Karabakh, for the benefit of Nagorno 
Karabakh which is one of the places where the HALO Trust works, 
but has also been a model of democracy in the region.
    How did I do?
    The Chairwoman. Very good.
    Mr. Krikorian. Okay.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairwoman. Thank you for your understanding.
    Thank you and welcome. We will begin with Mr. Raffi 
Karakashian and then Heather Ignatius and Ronnate Asirwatham. 
Thank you very much.
                              ----------                              

                                           Tuesday, March 12, 2019.

ARMENIAN AMERICAN COMMUNITY AND U.S. FOREIGN ASSISTANCE POLICY; GLOBAL 
  HEALTH AND DEVELOPMENT, INCLUDING GLOBAL HEALTH SECURITY, MALARIA, 
   MATERNAL AND CHILD HEALTH AND INNOVATION; GLOBAL BASIC EDUCATION 
                                PROGRAMS


                               WITNESSES

RAFFI N. KARAKASHIAN, GOVERNMENT AFFAIRS DIRECTOR, ARMENIAN NATIONAL 
    COMMITTEE OF AMERICA
HEATHER IGNATIUS, DIRECTOR OF US AND GLOBAL ADVOCACY, PATH
RONNATE ASIRWATHAM, SENIOR POLICY ADVISOR, GLOBAL CAMPAIGN FOR 
    EDUCATION

                  Opening Statement of Mr. Karakashian

    Mr. Karakashian. Thank you, Chairwoman Lowey, Ranking 
Member Rogers, and members of the subcommittee. Thank you for 
the opportunity to represent the Armenian National Committee of 
America to share our community's Fiscal Year 2020 foreign 
assistance priorities.
    As you know, we deeply value the U.S.-Armenia friendship 
and we were particularly honored last year to be joined by 
Armenia's new president at an event the ANCA hosted on Capitol 
Hill marking a century of U.S.-Armenia relations.
    Today, with the generous help of our Congress, Armenia is a 
strong friend of the United States, having sent troops to 
support our operations in Kosovo and Afghanistan and working to 
address a range of regional challenges.
    Nagorno Karabakh, with the support of direct U.S. 
assistance stands today as a constructive partner in the search 
for a democratic and lasting peace in the Caucasus. It is in 
this spirit of friendship and shared democratic values that we 
come to you with our priorities for the coming Fiscal Year.
    First, an allocation of at least $6 million in assistance 
for Nagorno Karabakh. We want to thank the subcommittee for its 
longstanding support for this program dating back to Fiscal 
Year 1998. The HALO Trust, with the support of this 
subcommittee, is close to declaring Karabakh mine-free, but 
needs continued funds to complete its life-saving work.
    In addition to demining, we urge this panel to support the 
operations of Karabakh-based rehabilitation centers which serve 
children, adults, and seniors with physical and mental 
disabilities. Besides meeting vital needs, U.S. aid to Karabakh 
also represents a confidence-building measure toward peace and 
a real investment in freedom.
    Second, an appropriation of at least $30 million in 
economic assistance and $10 million in military assistance for 
Armenia. In the aftermath of Armenia's constitutional and 
political transition and recent free and fair elections, we 
want to share our special thanks with the subcommittee for its 
longstanding leadership in fostering the bilateral friendship 
of our two nations and to seek your continued support for 
strengthening Armenia's independence.
    Armenia, a Christian nation deeply rooted in western 
democratic values, has emerged despite dual Turkish and 
Azerbaijani blockades, as an important regional ally and 
international partner for the United States on a broad array of 
complex challenges.
    As we continue to work with the Trump administration to 
implement programs that promote U.S.-Armenia bilateral economic 
relations such as the double tax treaty, we ask you to help 
Armenia make the transition from aid to trade by appropriating 
at least $30 million in economic assistance.
    Third, an appropriation of $20 million to help Armenia 
provide transition support to refugees from Syria who found 
safe haven in Armenia. Armenia has welcomed nearly 25,000 
refugees from Syria with only modest levels of U.S. and 
international relief and resettlement assistance.
    Armenia has provided full citizenship rights to Armenian 
Syrian refugees and has sought to compassionately integrate all 
arriving families into Armenian society, but faces serious 
financial constraints in meeting the needs of these refugees. 
Special areas in need of support include short term housing, 
job-training, and social and economic integration.
    Our prepared remarks also address the need to strengthen 
Section 907 of the Freedom Support Act, the imperative of 
cutting U.S. military aid to an over-armed and belligerent 
Baku, and the benefits of lowering the barriers to U.S. 
contacts and communication with the people and government of 
Karabakh.
    In the fall of 2017, three members of Congress travelled to 
Karabakh to see firsthand the life-saving impact of the funds 
appropriated by Congress. We would welcome additional trips 
such as this and encourage members of this panel to consider 
visiting Karabakh.
    Thank you for your leadership on these important issues.
    The Chairwoman. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                   Opening Statement of Ms. Ignatius

    Ms. Ignatius. Thank you. And just noting that I have 
shortened my remarks to 2 minutes because I understand that 
time is an issue.
    The Chairwoman. You are a winner.
    Ms. Ignatius. I thought you would appreciate that. 
Chairwoman Lowey, members of the subcommittee, thank you for 
the opportunity to testify on behalf of PATH, a global team of 
innovators working to solve the world's most pressing health 
challenges so that people and communities can thrive.
    As an organization working in nearly 70 countries including 
as an implementing partner of the U.S., PATH sees firsthand the 
tremendous impact of U.S. supported global health programs. 
U.S. aid has saved the lives of millions and lifted communities 
out of poverty. Our sustained partnership over many decades 
means that a girl born in a rural village in Kenya is more 
likely to live to her fifth birthday.
    A person living with HIV in South Africa has access to 
life-saving ARV treatment. And a family in Vietnam can sleep 
under a bed net reducing their chances of contracting malaria.
    Polling shows that Americans consistently support U.S. 
assistance for global health. These programs save lives and 
prevent needless suffering. They help our partner nations 
address fundamental challenges impeding their development. And 
they strengthen health systems abroad to prevent the spread of 
diseases, ultimately protecting the health of Americans.
    We respectfully request that this subcommittee allocate no 
less than $54.3 billion for state and foreign operations in 
Fiscal Year 2020 in order to maintain programs that promote 
global health security, women and children's health, and global 
health research and innovation.
    We also support the allocation of $1.56 billion for the 
Global Fund and $290 million for Gavi, the Vaccine Alliance, 
both which complement and reinforce the success of our 
bilateral programs.
    We appreciate your consideration and thank you for your 
support of these life-saving sitting programs and for our work.
    The Chairwoman. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                  Opening Statement of Ms. Asirwatham

    Ms. Asirwatham. Thank you. Thank you Chairwoman Lowey and 
thank you Representative Frankel, I would also like to thank 
your fantastic staff for your commitment for public testimony.
    On behalf of the Global Campaign for Education US, I thank 
you for sustaining funding for global education in the Fiscal 
Year 2019. The funding is critical as education increases 
security and stability, spurs economic growth, and provides 
proven results across development sectors globally.
    The Global Campaign for Education U.S. is a diverse 
coalition of more than 80 organizations working to ensure 
universal quality education for children around the world. I 
respectfully ask you to support effective investments in 
education globally for the financial year 2020 by allocating 
$800 million to USAID basic education bilateral programming, 
$125 million for the Global Partnership for Education and at 
least $21 million for the Education Cannot Wait fund.
    The power of education is clear, brighter futures, 
healthier communities and increased economic growth for 
individuals and countries. U.S. partnerships with developing 
countries have helped to build stronger education systems and 
drastically decreased the number of out of school children 
around the world.
    Education is a life-saving intervention for children during 
times of conflict. It provides a sense of normalcy in otherwise 
challenging circumstances. It helps children heal from trauma 
and offers an alternative to further migration in search of 
safety and security. Access to education, access to quality 
education helps create a future for children where they can 
provide for themselves, their families, and help rebuild their 
communities.
    Fully funding our global education programs is not only the 
right thing to do, it is also a smart use of U.S. resources. If 
all students in low-income countries left school with reading 
numeracy and citizenship skills, 171 million people could be 
lifted out of poverty. Education for girls is particularly 
effective. When 10 percent more adolescent girls attend school, 
a country's GDP increases by an average of 3 percent. By 
continued bipartisan congressional commitment to the issue of 
global education, Congress can ensure millions more children 
have the opportunity to reach their full potential.
    Thank you.
    The Chairwoman. Thank you. And we appreciate your 
shortening your remarks. Ms. Frankel, do you have a question?
    Ms. Frankel. No, I yield back.
    The Chairwoman. Thank you very much. I appreciate it.
    Mr. Karakashian. Thank you.
    [The information follows:]

               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
                                           Tuesday, March 12, 2019.

    AID TO MACEDONIA; GLOBAL HEALTH PROGRAMS AT USAID AND THE STATE 
 DEPARTMENT; RECOGNIZE THE PRACTICE OF UNARMED CIVILIAN PROTECTION IN 
                      THE FISCAL YEAR 2020 BUDGET


                               WITNESSES

METODIJA A. KOLOSKI, PRESIDENT, UNITED MACEDONIAN DIASPORA
SEVINJ MAMMADOVA, BOARD MEMBER AT US AZERIS NETWORK
LOYCE PACE, PRESIDENT AND EXECUTIVE DIRECTOR, GLOBAL HEALTH COUNCIL
MEL DUNCAN, DIRECTOR OF ADVOCACY AND OUTREACH, NONVIOLENT PEACEFORCE 
    U.S.
    The Chairwoman. Thank you and welcome: Mr. Koloski of 
United Macedonian Diaspora and Madam Mammadova of the United 
States Azeris Network, Loyce Pace, Global Health Council and 
Mel Duncan, the Nonviolent Peaceforce of the United States. 
Than you, please begin.

                    Opening Statement of Mr. Koloski

    Mr. Koloski. Thank you. Chairwoman Lowey, Representative 
Frankel, yesterday was the 76th Anniversary of the Holocaust of 
98 percent of Macedonia's Jewish population which occurred 
while Macedonia was occupied by Bulgaria. Bulgaria to date has 
not apologized to the Macedonian-Jewish community and we urge 
you to use your congressional influence to change this.
    UMD serves as a voice of half a million Americans of 
Macedonian heritage and Macedonian communities abroad and has 
been a champion for stronger U.S. relations with Macedonia. The 
U.S. has invested close to $2 billion of aid to Macedonia. 
Since 2008 when Macedonia's NATO membership was vetoed by 
Greece due to Greece's objections to Macedonia's name, 
Macedonian public opinion of the U.S. has been on the decline. 
Macedonia's lack of NATO membership also saw a growing interest 
by Russia in the country. Russia historically has never been a 
friend to Macedonia, always supporting its neighbors to divide 
Macedonian lands and people.
    The decline has been largely due to the U.S. particularly 
under the latter part of the last Administration and especially 
under this administration which applied significant pressure to 
Macedonia to change its name in order to join NATO while 
jeopardizing rule of law and democratic principles. The current 
Administration also supported the illegitimate election of a 
former terrorist as speaker of the Macedonia's Parliament as 
well as allegations of members of Macedonia--of Macedonia's 
Parliament being paid to vote a certain way have yet to be 
investigated.
    For nearly 27 years Greece has argued that Macedonia's name 
implied territorial aspirations on Greek lands, how the U.S. 
and Greek authorities accepted north astonishes our community 
since there--if there is a north, there must be a south. Media 
outlets have recently started to shed light about the gross 
violations against the Macedonian minority in Greece since 
1913, and I invite you to read a BBC article published on 
February 24th called Greece's Invisible Minority which can be 
found in the Congressional Record.
    Our organization has been a strong proponent of Macedonia's 
Euro-Atlantic future, however, only under the name Republic of 
Macedonia. UMD was strongly opposed to USAID providing 
education funding on the September 30th referendum to change 
Macedonia's name. The referendum turnout was significantly 
under 50 percent needed by the Macedonian Constitution, did not 
represent a mandate to change the country's constitutional name 
or reflect the will of the Macedonian people.
    The U.S. foreign relations and USAID funding should address 
the most pressing unmet needs in Macedonia such as media 
freedom, rule of law, economic problems and environmental 
challenges in the country and not be in the business of 
changing or influencing support for one political party over 
another or harming a country's right to self-determination. The 
sizeable Macedonian Diaspora worldwide which provides close to 
21 percent of Macedonia's annual GDP in remittances can be a 
partner in these endeavors.
    Currently publicly-owned media outlets are strongly 
impacted by political parties. These media outlets are used to 
push their own political party agendas that may be at the 
jeopardy of the country's democratic growth. Work still remains 
to be done in the areas of increasing transparency and 
accountability of government, fighting corruption, improving 
the function of Macedonia's Parliament and the true 
decentralization of local governments.
    USAID should help also small and medium size enterprises in 
Macedonia to team up with U.S. companies to expand trade. And 
another major area of funding needed is the help of Macedonia--
helping Macedonia tackle its grave air pollution problem. 
Reports state that 2,000 Macedonians die each year due to air 
pollution. The U.S. can and should assist Macedonian 
authorities to implement collective measures to tackle this 
issue as well as give civil society organizations the necessary 
resources to bring greater public awareness. Your subcommittee 
has the power to impact change from Macedonia, history will 
judge us if we continue to take away a people's right to self-
determination.
    Thank you for your time and consideration.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                   Opening Statement of Ms. Mammadova

    Ms. Mammadova. Dear Mrs. Chairwoman Lowey, Ranking Member 
Rogers, honorable members of the subcommittee, thank you very 
much for the opportunity to testify today. Due to time 
constraints, I will try to highlight the main points. The 
detailed report with facts, statements and applicable laws can 
be read in our written statement.
    To summarize, the U.S. Azeris Network request in the Fiscal 
Year 2020 aid to U.S. ally Azerbaijan, we are recommending 15 
million or more in economic support funds, 1.2 million or more 
in international narcotics control and law enforcement, 1 
million or more in international military education and 
training and 1.7 million for foreign military financing.
    We are recommending not to provide any financial aid to 
Armenia or the illegitimate regime installed by the official 
Yerevan in the occupied Nagorno-Karabakh region of Azerbaijan. 
U.S. Azeris Network promotes a fair and needs driven foreign 
assistance based on the three important criteria.
    Allied relationship of the recipient state with the U.S. 
and U.S. national interests. The--the second, the recipient 
nation must have a demonstrated and certified necessity and 
need to be able to absorb the aid. Third, legality of the aid 
and compliance with the U.S. and international laws.
    Why zero out foreign aid and military financing support to 
Armenia? First, backed by Russia, Armenian army occupied 
Nagorno-Karabakh region of Azerbaijan and seven adjacent 
districts in 1992-1994. The U.N. Security Council passed four 
resolutions, 822, 853, 874, 884 in 1993 condemning Armenian 
aggression against Azerbaijan and demanding the withdrawal of 
all occupying forces. This was reiterated in the Resolution 
1416 of the Parliamentary Assembly of Council of Europe adopted 
in 2005.
    United Nations General Assembly Resolution 62/243 adopted 
in March 2008 both reaffirming continued respect and support 
for the sovereignty and territorial integrity of Azerbaijan and 
demanding unconditional withdrawal of all Armenian forces from 
all the occupied--occupied territories of Azerbaijan and 
emphasizing no state shall render aid or assistance to 
maintain--maintain the occupation of Azerbaijani territories.
    Second, since its independence, Armenia has chosen to be 
proxy of Russia. In May 2014, while Azerbaijan with the U.S. 
and other 100 states voted in the favor of U.N. General 
Assembly Resolution 68/262 reaffirming support for Ukrainian 
territorial integrity, Armenia joined a number of rogue states 
such as North Korea, Sudan, Zimbabwe to back Russia in its 
territorial annexation policies.
    Third, as a member of Collective Security Treaty 
Organization run by--run by Kremlin, Armenia gets subsidized 
arms deals from Moscow on sophisticated weaponry which are 
directed against the U.S. allies, Azerbaijan, Georgia and NATO-
member Turkey.
    In 2016, Armenia received $200 million loan from Moscow 
which it spent on the purchase of hypersonic Iskander-M 
ballistic missiles that have a range up to 310 miles and can 
reach the energy infrastructure of Azerbaijan and strategic 
NATO facilities in Turkey. On October 12, 2017, Armenian and 
Russian officials announced yet another 100 million loan to 
Armenia for the purchase of modern weaponry in Russia. Armenia 
hosts a Russian military base with at least extended to year 
2044 and has a unified Russia-Armenian air defense, so obvious 
is Armenia's anti-Western position that its ex-president Serzh 
Sargsyan openly declared in 2015 that Armenia will coordinate 
its foreign policy with Russia, thus rendering its ties with 
Washington unimportant.
    Last month, despite Washington's criticism, the new 
Armenian leader Nikol Pashinyan dispatched nearly a hundred 
military personnel to join the Russian military in Syria to aid 
the Assad regime and strengthen Moscow's political and military 
presence in the region.
    Finally, to summarize our position, I need to draw your 
attention to the U.S. federal law that prohibits U.S. aid to 
Armenia. Section 7069, the House Resolution 2029 Consolidated 
Appropriations Act 2016, passed by the U.S. Congress and signed 
by the President into the law in December 2015, prohibits funds 
from being made available to a government of an independent 
state of the former Soviet Union if that government directs any 
action in violation of the territorial integrity or national 
sovereignty of any Independent State of the former Soviet Union 
such as those violations included in the Helsinki Final Act.
    Furthermore, Section 7070 of the Act clearly states that 
none of the funds appropriated by this Act may be made 
available for assistance for the central government of a 
country that the Secretary of State determines and reports to 
the Committee on Appropriations has taken affirmative steps 
intended to support or be supportive of the Russian 
Federation's annexation of Crimea.
    Armenia has violated the territorial integrity of 
Azerbaijan and Armenia has taken affirmative steps in 
supporting Russian Federation's annexation of Crimea. 
Therefore, based on the Sections 7069 and 7070 of the U.S. 
Consolidated Appropriations Act 2016, no financial assistance 
to Armenia should be made available for Fiscal Year of 2020 as 
it would literally constitute a violation of the U.S. federal 
laws.
    Moreover, as stipulated in the Department of State, USAID, 
Treasury International Program section of Trump 
administration's America First budget proposal FY 2018, the 
2018 budget must refocus economic and development assistance to 
countries of greatest strategic importance to the U.S., ensures 
the effectiveness of the U.S. taxpayer investments by 
resizing--rightsizing funding across the countries and sectors.
    Considering that the fact that Armenia is a Russian 
satellite with Russian troops deployed to its territory and the 
Armenian commander-in-chief coordinates Armenia's foreign 
policy with Russia and that Armenia is of no strategic 
importance to the United States, U.S. taxpayer money should not 
be allocated to this Russian proxy.
    Thank you very much for this opportunity.
    The Chairwoman. Thank you.
    [The information follows:]

                 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
                     Opening Statement of Ms. Pace

    Ms. Pace. Thank you. My regards to the chairwoman. 
Chairwoman Lowey, thank you very much for having us today and 
also Congresswoman Frankel, thank you for your leadership and 
my regards to the committee staff as well.
    We once thought we could never beat smallpox or polio and 
that the end of AIDS or malaria was beyond our reach. Now we 
know better. Thanks to the promise and progress of global 
health. So I am here today, Madam Chair asking your committee 
to sustain federal funding for global health programs at USAID 
and State at a minimum at Fiscal Year 2019 levels and in doing 
so, we can uphold our legacy of U.S. foreign assistance and 
commitment to life-saving initiatives. But to be clear, we need 
more than what we have, especially since the budget has 
remained relatively flat for several years and it has widened 
the gap between our needs on the ground and our funding 
required to address them.
    Our community, specifically our community of over 75 global 
health organizations, several of which have spoken today, 
estimate that the total should come closer to 11 billion and be 
even beyond that in order to keep pace with demand; however, we 
are grateful for the resources that we have received because 
they have made a tremendous impact and because global health 
works.
    So considering current events, you look at something like 
Ebola right now continuing to plague the DRC, the Democratic 
Republic of Congo and looking at that situation, noting that 
U.S. investments and innovation have helped change how local 
actors on the ground have responded to these and other 
outbreaks. That has allowed those local actors to keep pace 
with the epidemic and really keep it in check. However, global 
health is more than about a single emergency as we know, and so 
we have these issues and partners that are interconnected in a 
way that makes progress in one area reliant on our success in 
another.
    So you look at longstanding investments like HIV really 
leading to the creation of regional health and surveillance 
systems that are used by government officials, NGOs, the 
private sector to mitigate other health crises like 
tuberculosis. We have also seen the value of pooling maternal 
and child health funding, so for example, a--a parent seeking 
reproductive healthcare can also take advantage of immunization 
and nutrition services, excuse me, all as a seamless package.
    And the benefit of this complimentary programming goes 
beyond health to other development sectors like education and 
infrastructure. So it is really important to me that we show 
this interrelatedness across these various issues, because we 
are all talking about specific issues but really it comes 
together as an important ecosystem for people on the ground.
    And that is the main point I really want to make here 
today, is the fact that we need to meet people where they are 
as people and the sum of their various conditions. This means 
doing what we can to get beyond strict line item thinking even. 
Ultimately, we should revamp the way we plan and fund U.S. 
global health initiatives, so countries themselves can finally 
meet their goals and address the many other health and 
development priorities they will face in the future.
    So in addition to sustaining U.S. commitments and 
leadership in global health, we feel that this committee has 
the opportunity to deliberately link overlapping objectives 
through more holistic funding streams, excuse me. And it seems 
like a radical idea, considering how we have come to view our 
government's investments as major programs focused on singular 
issues and discreet results.
    And we not saying we need to walk away from that, but as we 
find ourselves struggling to reach the last mile across several 
U.S. global health goals, we should be asking ourselves what 
innovation could really put us across the finish line. And it 
might not be a magic bullet solution such as a new medicine or 
technology, but rather allowing ourselves to be that much more 
flexible in our funding and our partnerships.
    We see the global health community moving in this 
direction, and government stakeholders and implementing 
organizations have been operating in a way that allows them to 
address these multiple focused areas through greater 
collaboration and efficiency. So some departure from a strictly 
rigid framework can pave the way even for sustainability and 
USAID's goals in self-reliance.
    This is really also, I will end by saying rooted in what we 
have been hearing from communities on the ground and countries 
themselves. They feel that they have a 360 degree view of 
factors that influence health in their population, and they 
often argue for coordinated investments. And so we are really 
hoping to find a way to better structure our programs in a way 
that builds on each side--builds on each other, and best serve 
the people on the ground with competing challenges that they 
define for themselves. It is not an either or, it is a both and 
ideally.
    I will close by--by again thanking this committee for its 
ongoing commitment to global health and U.S. leadership in the 
world across these issues. We understand that the world is 
still looking to the U.S. given our longstanding history to 
define the way forward on the next era of global health, and we 
feel that this committee has a critical role to play in how we 
respond, not with drastic cuts and disengagement, but 
substantial reinvestments and joint strategies that can foster 
cross-sector whole of government cooperation. So just know that 
we stand ready to work with you on this 21st century agenda.
    Thank you again.
    The Chairwoman. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
                       Opening Remarks Mr. Duncan

    The Chairwoman. Thank you. Mr. Duncan.
    Mr. Duncan. Madam Chair Lowey and Congresswoman Frankel, 
thank you for the opportunity to testify this day. I am Mel 
Duncan. I represent Nonviolent Peaceforce US. We are here today 
to urge you to include Unarmed Civilian Protection as a 
recommended activity within the State Foreign Operations and 
Related Programs budget for 2020 including in the following 
programs, Women, Peace and Security, Transition Initiatives, 
the Office of Reconciliation in South Sudan.
    Unarmed civilian protection is a growing method for the 
direct protection of civilians by other civilians using field-
tested methodologies that have been shown to work in a variety 
of violent places in the world today. Unarmed civilian 
protectors live and work in the places where they serve and 
work with local civil society on the prevention of further 
violence. This approach has shown itself to be especially 
effective in protecting women and children.
    Forty-two governmental organizations working in 24 areas 
around the world are now practicing this method. An example of 
that, in South Sudan where millions of people have had to flee, 
women living in what are called Protection of Civilian Areas 
have to leave every day to get fire wood. They are routinely 
raped by armed actors. What we have found is if those women are 
accompanied by unarmed civilian protectors, they are left 
alone. That method has been 100 percent successful over two 
years--over a two-year period.
    In the island of Mindanao, in the Philippines, when there 
was a ceasefire called in 2009, we were invited to be part of 
that ceasefire. During that time, two armed groups were 
converging on a village. The people started to panic. They 
started to get ready to flee. The elders called one of our 
teams close by who went to the village, in route called the two 
local commanders and reminded them that would be a violation of 
the ceasefire. By the time the team got there, the armed groups 
had backed away and 600 people stayed home.
    In Sri Lanka, we would accompany mothers when they would 
retrieve their children who had been abducted by armed groups 
and forced to become child soldiers. We have appreciated the 
help of USAID in some of these projects, and we have found that 
this method is increasingly studied, and what has been found is 
lives are saved, communities are able to stay at home, peace 
and human rights work is possible, and the behavior of armed 
actors does change.
    So we would urge you to include the practice of Unarmed 
Civilian Protection in the State Foreign Operations and Related 
Programs Appropriations Bill. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairwoman. This was a grand finale. Yes.
    Ms. Frankel. This is the end.
    The Chairwoman. Go ahead, you can ask the question.
    Ms. Frankel. All right. I really have two, but I will ask.
    The Chairwoman. Proceed.
    Ms. Frankel. Okay, I am going to ask Ms. Pace a question. 
Could you give me a specific example of what you are talking 
about in terms of I guess consolidating or coordinating 
services?
    Ms. Pace. Yes, ma'am. And so I do prefer the term 
coordination. I think consolidation can make folks a little bit 
nervous. But I think the way we see it is historically, and 
this is going back before the days of PEPFAR, we did attempts 
to have more of a systemic approach to health and development. 
But I think what we lack at that time was this more results-
based program that we have seen since the birth of PEPFAR, PMI 
and other initiatives that are very, very well directed.
    And so I think what we would like to see now is a fusion of 
those two ideas, really because you look at something like the 
HIV epidemic and I know that there are people who can speak 
better to this who work with the administration, but you see 
that we are falling behind in certain key populations for 
example. And so if you look at how we can better address those 
issues, say among adolescents or among other special 
populations, there is an argument for having a more holistic 
approach so that we can----
    Ms. Frankel. So you are talking about then you fund clinics 
or--or programs that do more than just one disease, is that 
what you are talking about?
    Ms. Pace. Yes, ideally, ideally. We can sort of break down 
the siloes a bit. I see it like a house. And so we have been 
funding by initiative, and so you have one pillar, one beam 
looking at tuberculosis, looking at HIV, looking at other 
issues, but that house needs that very strong foundation often 
that comes down to a health system, so health workers on data 
and surveillance and other issues.
    And we have been--excuse me--the programs and a lot of 
implementation organizations have been able to break that down 
to an extent and go into a community with a package of 
services, but there are some limitations to the way we allocate 
our funds that doesn't allow for as much integration or 
coordination.
    And so we are inviting the committee to really think about 
how that can--that can be done not just by partners, like our 
stakeholders, international organizations, but also by the U.S. 
government. And that is done very well in humanitarian settings 
for example looking at things like water infrastructure in 
those settings and really going in and saying, okay, what is 
the need and how we can coordinate across these various issues.
    Ms. Frankel. One more, Mr. Duncan, are we not--do we fund 
the Unarmed Protective Security now?
    Mr. Duncan. It is funded somewhat on a piecemeal basis both 
through USAID and OFDA.
    Ms. Frankel. Okay, thank you, Madam Chair.
    The Chairwoman. Let me say, this was an excellent panel as 
well and I look forward to continuing the discussion.
    Ms. Pace, what I have found in visiting in many parts of 
the world, I would often bring all the people together from 
USAID or from other countries who are working and they may have 
known each other. I am not sure it is the system that doesn't 
work or if the people who are in charge in that embassy that it 
doesn't work, but I have seen this over and over again, they 
all operate in their specific stovepipes and they are not 
frankly coordinating as effectively as they could.
    I think that is something we certainly could discuss 
further and get your advice about how we do it. Because the 
individual people are doing great work, but if they coordinate 
and work together, they would be more effective.
    So thank you so very much. This concludes today's hearing. 
We look forward to continuing to work with you. This hearing 
stands adjourned. Thank you very much.
    [Additional testimony submitted for the record follows:]

                 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
                          [all]
</pre></body></html>
